No.
IN THE

Supreme Court of the United States
————
BANK MELLI,
Petitioner,
v.
MICHAEL BENNETT, et al.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————

LISA W. BOHL
MOLOLAMKEN LLP
300 N. LaSalle St.
Chicago, Illinois 60654
(312) 450-6700

JEFFREY A. LAMKEN
ROBERT K. KRY
Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
rkry@mololamken.com

Counsel for Petitioner

:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

QUESTIONS PRESENTED
The Terrorism Risk Insurance Act (“TRIA”) provides
that “the blocked assets of [a] terrorist party (including
the blocked assets of any agency or instrumentality of
that terrorist party)” are subject to execution to satisfy
certain terrorism judgments. 28 U.S.C. § 1610 note
§ 201(a). In the decision below, the Ninth Circuit allowed
plaintiffs with default judgments against Iran to execute
against funds that Visa owes to Bank Melli, an Iranian
state-owned bank. It did so even though Visa rather than
Bank Melli is the owner of the assets, and even though
Bank Melli is a separate entity distinct from the Iranian
government that had no role in the underlying disputes.
The questions presented are:
1. Whether TRIA requires that the respondent actually own the assets at issue, as the D.C. Circuit has held
and as the United States has repeatedly urged, or whether
the statute instead permits execution even absent ownership, as the Ninth Circuit held below.
2. Whether TRIA permits plaintiffs to execute judgments against a foreign sovereign’s juridically separate
instrumentalities, contrary to the presumption of separate status established by this Court’s precedents and
the Nation’s treaty obligations.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Bank Melli was a third-party defendant in
the district court and appellant in the court of appeals.
Respondents Michael Bennett and Linda Bennett,
individually and as co-administrators of the Estate of
Marla Ann Bennett, were plaintiffs in the district court
and appellees in the court of appeals.
Respondents Carlos Acosta, Maria Acosta, Irving
Franklin, Estate of Irma Franklin, Libby Kahane, Estate
of Sonya Kahane, Cipporah Kaplan, Tova Ettinger, Baruch
Kahane, Ethel Griffin as administrator of Binyamin
Kahane’s Estate, Rabbi Norman Kahane, and Estate of
Meir Kahane were third-party defendants and counterclaimants in the district court and appellees in the court
of appeals.
Respondents Steven Greenbaum, Alan Hayman, Shirlee Hayman, and Estate of Judith Greenbaum were
third-party defendants and counterclaimants in the
district court and appellees in the court of appeals.
Respondents Estate of Michael Heiser, Gary Heiser,
Francis Heiser, Estate of Leland Timothy Haun, Ibis S.
Haun, Milagritos Perez-Dalis, Senator Haun, Estate of
Justin R. Wood, Richard W. Wood, Kathleen M. Wood,
Shawn M. Wood, Estate of Earl F. Cartrette, Jr., Denise
M. Eichstaedt, Anthony W. Cartrette, Lewis W. Cartrette, Estate of Brian McVeigh, Sandra M. Wetmore,
James V. Wetmore, Estate of Millard D. Campbell,
Marie R. Campbell, Bessie A. Campbell, Estate of Kevin
J. Johnson, Shyrl L. Johnson, Che G. Colson, Kevin
Johnson, Nicholas A. Johnson, Laura E. Johnson, Bruce
Johnson, Estate of Joseph E. Rimkus, Bridget Brooks,
James R. Rimkus, Anne M. Rimkus, Estate of Brent
E. Marthaler, Katie L. Marthaler, Sharon Marthaler,

iii
Herman C. Marthaler, Matthew Marthaler, Kirk Marthaler, Estate of Thanh Van Nguyen, Christopher R.
Nguyen, Estate of Joshua E. Woody, Dawn Woody, Bernadine R. Beekman, George M. Beekman, Tracy M.
Smith, Jonica L. Woody, Timothy Woody, Estate of
Peter J. Morgera, Michael Morgera, Thomas Morgera,
Estate of Kendall Kitson, Jr., Nancy R. Kitson, Kendall
K. Kitson, Steven K. Kitson, Nancy A. Kitson, Estate of
Christopher Adams, Catherine Adams, John E. Adams,
Patrick D. Adams, Michael T. Adams, Daniel Adams,
Mary Young, Elizabeth Wolf, William Adams, Estate of
Christopher Lester, Cecil H. Lester, Judy Lester, Cecil
H. Lester, Jr., Jessica F. Lester, Estate of Jeremy A.
Taylor, Lawrence E. Taylor, Vickie L. Taylor, Starlina D.
Taylor, Estate of Patrick P. Fennig, Thadeus C. Fennig,
Catherine Fennig, Paul D. Fennig, and Mark Fennig
were third-party defendants and counterclaimants in the
district court and appellees in the court of appeals.
Respondents Visa Inc. and Franklin Resources, Inc.
were defendants and third-party plaintiffs in the district
court and appellees in the court of appeals.
The United States was a third-party defendant in the
district court.
The Islamic Republic of Iran and the Iranian Ministry
of Information and Security were defendants in the
district court.

iv
RELATED PROCEEDINGS
Proceedings below:
Bennett v. Islamic Republic of Iran, No. 19-15101
(9th Cir. Sept. 30, 2019).
Bennett v. Islamic Republic of Iran, No. 11-cv-05807CRB (N.D. Cal. Dec. 19, 2018).
Related proceedings:
Bank Melli v. Bennett, No. 16-334 (U.S. Mar. 5, 2018).
Bennett v. Islamic Republic of Iran, Nos. 13-15442,
13-16100 (9th Cir. June 14, 2016).
Bennett v. Islamic Republic of Iran, No. 11-cv-05807CRB (N.D. Cal. Feb. 28, 2013).
Bennett v. Islamic Republic of Iran, No. 03-1486
(RCL) (D.D.C. Aug. 30, 2007).
Acosta v. Islamic Republic of Iran, No. 06-745 (RCL)
(D.D.C. Aug. 26, 2008).
Estate of Heiser v. Islamic Republic of Iran, Nos.
00-2329 (RCL), 01-2104 (RCL) (D.D.C. Dec. 22, 2006).
Estate of Heiser v. Islamic Republic of Iran, Nos.
00-2329 (RCL), 01-2104 (RCL) (D.D.C. Sept. 30, 2009).
Greenbaum v. Islamic Republic of Iran, No. 02-2148
(RCL) (D.D.C. Aug. 10, 2006).

TABLE OF CONTENTS
Page
Opinions Below.............................................................

1

Statement of Jurisdiction ...........................................

1

Statutory and Treaty Provisions Involved...............

2

Preliminary Statement ...............................................

2

Statement ......................................................................

3

I. Statutory Framework .....................................

3

A. The Foreign Sovereign Immunities
Act................................................................

3

B. This Court’s Decision in Bancec..............

4

C. The Terrorism Amendments to
the FSIA .....................................................

5

II.Proceedings Below ..........................................

7

A. Background ................................................

7

B. District Court Proceedings ......................

8

C. The Court of Appeals’ Prior Opinions ....

9

D. Proceedings in This Court .......................

11

E. District Court Proceedings
on Remand..................................................

12

F. The Court of Appeals’ Decision ...............

14

Reasons for Granting the Petition ............................

14

I. The Ninth Circuit’s Rejection of TRIA’s
Ownership Requirement Warrants
Review ...............................................................

15

A. The Ninth Circuit’s Decision Conflicts
with the D.C. Circuit’s Decision in
Heiser ..........................................................

16

(v)

vi
TABLE OF CONTENTS—Continued
Page
B. The Ninth Circuit’s Decision Rejects
the Executive Branch’s Position on an
Important Foreign Relations Matter .....

18

C. The Ninth Circuit’s Decision Is
Incorrect .....................................................

21

D. This Is an Appropriate Case for
Review .........................................................

22

II.The Ninth Circuit’s Holding That TRIA
Abrogates Separate Juridical Status
Warrants Review .............................................

25

A. The Ninth Circuit’s Decision Conflicts
with Bancec and the Treaty of Amity.....

25

B. The Ninth Circuit’s Decision Is
Incorrect .....................................................

28

C. The Ninth Circuit’s Decision Exposes
the United States to Liability in
Ongoing Proceedings Before the
International Court of Justice .................

31

Conclusion .....................................................................

33

Appendix A – Decision of the Court of Appeals
(Sept. 30, 2019).........................................................

1a

Appendix B – Order of the District Court
Granting Motion for Summary Judgment
and Granting Motion for Stay
(Dec. 19, 2018) ..........................................................

4a

Appendix C – Order and Amended Opinion
of the Court of Appeals (June 14, 2016) ............... 26a
Appendix D – Order and Amended Opinion
of the Court of Appeals (Feb. 22, 2016) ............... 60a

vii
TABLE OF CONTENTS—Continued
Page
Appendix E – Opinion of the Court of Appeals
(Aug. 26, 2015) ......................................................... 92a
Appendix F – Order of the District Court
Denying Motion to Dismiss
(Feb. 28, 2013)........................................................ 106a
Appendix G – Annual Report of Blocked
Property (Sept. 29, 2010)
(C.A. E.R. 250-252) ............................................... 130a
Appendix H – Annual Report of Blocked
Property (Sept. 27, 2011)
(C.A. E.R. 253-255) ............................................... 134a
Appendix I – Relevant Statutory and
Treaty Provisions .................................................. 138a

viii
TABLE OF AUTHORITIES
Page(s)
CASES
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) .............................................

23

Banco Nacional de Cuba v. Sabbatino,
376 U.S. 398 (1964) .............................................

20

Bd. of Trs. of Leland Stanford Junior
Univ. v. Roche Molecular Sys., Inc.,
563 U.S. 776 (2011) .......................................... 16, 21
Calderon-Cardona v. Bank of N.Y.
Mellon, 770 F.3d 993 (2d Cir. 2014).............. 17, 18
Certain Iranian Assets (Iran v. U.S.),
No. 164, Judgment on Preliminary
Objections (I.C.J. Feb. 13, 2019) ................... 31, 32
Chickasaw Nation v. United States,
534 U.S. 84 (2001) ............................................ 29, 30
Christopher v. Harbury,
536 U.S. 403 (2002) .............................................

20

County of Los Angeles v. Mendez,
137 S. Ct. 1539 (2017).........................................

24

F. Hoffmann-La Roche Ltd. v.
Empagran S.A., 542 U.S. 155 (2004) ...............

28

First Nat’l City Bank v. Banco Para El
Comercio Exterior de Cuba,
462 U.S. 611 (1983) ....................................... passim
Heiser v. Islamic Republic of Iran,
735 F.3d 934 (D.C. Cir. 2013) ............. 2, 14, 16, 17
JPMorgan Chase Bank v. Traffic
Stream (BVI) Infrastructure Ltd.,
536 U.S. 88 (2002) ...............................................

20

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Kolovrat v. Oregon, 366 U.S. 187 (1961) ..............

20

Marmet Health Care Ctr., Inc. v.
Brown, 565 U.S. 530 (2012) ...............................

24

Montello Salt Co. v. Utah,
221 U.S. 452 (1911) .............................................

29

Murray v. Schooner Charming Betsy,
6 U.S. (2 Cranch) 64 (1804) ...............................

28

Poe v. Seaborn, 282 U.S. 101 (1930) .....................

21

Rubin v. Islamic Republic of Iran,
138 S. Ct. 816 (2018) ........................................ 12, 13



Sumitomo Shoji Am., Inc. v. Avagliano,
457 U.S. 176 (1982) .............................................

26

Trans World Airlines, Inc. v. Franklin
Mint Corp., 466 U.S. 243 (1984) .......................

28

Tucker v. Alexandroff,
183 U.S. 424 (1902) .............................................

26

United States v. Rodrigues,
159 F.3d 439 (9th Cir. 1998) ..............................

21

Verlinden B.V. v. Cent. Bank of Nigeria,
461 U.S. 480 (1983) .............................................

3

Villoldo v. Castro Ruz,
821 F.3d 196 (1st Cir. 2016) ..............................

17

Weinstein v. Islamic Republic of Iran,
609 F.3d 43 (2d Cir. 2010) .................................

10

Whitman v. Am. Trucking Ass’ns,
531 U.S. 457 (2001) .............................................

30

Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016).........................................

24

x
TABLE OF AUTHORITIES—Continued
Page(s)
STATUTES
Foreign Sovereign Immunities Act
of 1976, Pub. L. No. 94-583,
90 Stat. 2891 (codified as amended
at 28 U.S.C. §§ 1602 et seq.) ........................ passim
28 U.S.C. § 1604 .............................................
3
28 U.S.C. § 1605 .............................................
3
28 U.S.C. § 1605(a)(2) ....................................
4
28 U.S.C. § 1605A .......................................... 6, 7
28 U.S.C. § 1605A(a)......................................
5
28 U.S.C. § 1609 .............................................
4
28 U.S.C. § 1610 .............................................
4
28 U.S.C. § 1610(a) ........................................
4
28 U.S.C. § 1610(a)(7) ....................................
5
28 U.S.C. § 1610(b) ........................................
4
28 U.S.C. § 1610(b)(3)....................................
5
28 U.S.C. § 1610(f )...................................... 19, 27
28 U.S.C. § 1610(f )(1) ....................................
6
28 U.S.C. § 1610(f )(3) ....................................
6
28 U.S.C. § 1610(g) .................................. passim



Antiterrorism and Effective Death
Penalty Act of 1996, Pub. L. No.
104-132, § 221(a), 110 Stat. 1214,
1241 (formerly codified at
28 U.S.C. § 1605(a)(7)) .......................................

5

Omnibus Consolidated and Emergency
Supplemental Appropriations Act,
1999, Pub. L. No. 105-277, § 117,
112 Stat. 2681, 2681-491 (1998)
(codified at 28 U.S.C. § 1610(f )(1)) ...................

5

xi
TABLE OF AUTHORITIES—Continued
Page(s)
§ 117(d), 112 Stat. at 2681-492 ......................

6

Victims of Trafficking and Violence
Protection Act of 2000, Pub. L. No.
106-386, § 2002, 114 Stat. 1464, 1541 .............. 6, 28
§ 2002(f )(1)(B), 114 Stat. at 1543 .................
6
§ 2002(f )(2), 114 Stat. at 1543.......................
6
Terrorism Risk Insurance Act of 2002,
Pub. L. No. 107-297, § 201,
116 Stat. 2322, 2337
(28 U.S.C. § 1610 note) ................................. passim
28 U.S.C. § 1610 note § 201(a) ........ 6, 10, 21, 28
28 U.S.C. § 1610 note § 201(b) ......................
6
Pub. L. No. 107-297, sec. 201(c),
§ 2002(d)(4), 116 Stat. at 2339 ................. 22
National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181,
§ 1083, 122 Stat. 3, 338 .......................................

7

28 U.S.C. § 1254(1) ..................................................

1

TREATY PROVISIONS
Treaty of Amity, Economic Relations,
and Consular Rights, U.S.-Iran,
Aug. 15, 1955, 8 U.S.T. 899 ......................... passim
Art. III, 8 U.S.T. at 902-903 ........................ 26
Art. III.1, 8 U.S.T. at 902 ..................... 3, 15, 26
Art. IV, 8 U.S.T. at 903-904 ......................... 26
Art. XXI.2, 8 U.S.T. at 913........................... 31
LEGISLATIVE MATERIALS
H.R. 3485, 106th Cong. (Nov. 18, 1999)................

27

H.R. Rep. No. 94-1487 (1976) .......................... 3, 4, 26


xii
TABLE OF AUTHORITIES—Continued
Page(s)
Terrorism: Victims’ Access to Terrorist
Assets: Hearing Before the S. Comm.
on the Judiciary, S. Hr’g No. 106-941
(Oct. 27, 1999) .....................................................

28

Justice for Victims of Terrorism Act:
Hearing on H.R. 3485 Before the
Subcomm. on Immigration and
Claims of the H. Comm. on the
Judiciary, 106th Cong.
(Apr. 13, 2000) ........................................... 27, 28, 32
Benefits for U.S. Victims of
Internationtional Terrorism:
Hearing Before the S. Comm.
on Foreign Relations,
S. Hr’g No. 108-214 (July 17, 2003) .............. 20, 32
EXECUTIVE MATERIALS
63 Fed. Reg. 59,201 (Oct. 21, 1998) ..................... 6, 19
65 Fed. Reg. 66,483 (Oct. 28, 2000) ..................... 6, 19
1998 Pub. Papers 1843 (Oct. 23, 1998)............... 20, 32



2002 Pub. Papers 1697 (Sept. 30, 2002)................

20

Letter from R. Armitage, Deputy Sec’y
of State, to R. Cheney (June 12, 2002) ............

20

Michael R. Pompeo, Sec’y of State, U.S.
Dep’t of State, Remarks to the Media
(Oct. 3, 2018), https://www.state.gov/
remarks-to-the-media-3 ....................................

32

U.S. Br. in Bank Melli Iran N.Y. Rep.
Office v. Weinstein, No. 10-947
(U.S. filed May 2012) .........................................

31

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Br. in Calderon-Cardona v.
Bank of N.Y. Mellon, No. 12-75
(2d Cir. filed Sept. 21, 2012)..............................

19

U.S. Br. in Heiser v. Islamic Republic
of Iran, No. 12-7101 (D.C. Cir. filed
Mar. 11, 2013) .....................................................

19

U.S. Br. in JPMorgan Chase Bank, N.A.
v. Hausler, No. 12-1264 (2d Cir. filed
July 9, 2012) ........................................................

19

U.S. Br. in Rubin v. Islamic Republic of
Iran, No. 11-2144 (1st Cir. filed
June 7, 2012) .......................................................

18

U.S. Br. in Villoldo v. Ruz, No. 15-1808
(1st Cir. filed Dec. 24, 2015) ..............................

19

U.S. Br. in Weinstein v. Islamic
Republic of Iran, No. 14-7193
(D.C. Cir. filed Dec. 29, 2015) ...........................

19

OTHER AUTHORITIES



Bank Melli, Annual Report 2014-15 ....................

7

Certain Iranian Assets (Iran v. U.S.),
No. 164, Application Instituting
Proceedings (I.C.J. filed
June 14, 2016) .....................................................

31

IN THE

Supreme Court of the United States
————

BANK MELLI,
Petitioner,
v.
MICHAEL BENNETT, et al.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
Bank Melli respectfully petitions for a writ of certiorari to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The court of appeals’ decision (App., infra, 1a-3a) is
reported at 778 F. App’x 541 (9th Cir. 2019). The district
court’s opinion (App., infra, 4a-25a) is reported at 360
F. Supp. 3d 972 (N.D. Cal. 2018).
STATEMENT OF JURISDICTION
The court of appeals entered judgment on September
30, 2019. App., infra, 1a. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

2
STATUTORY AND TREATY
PROVISIONS INVOLVED
Relevant provisions of the Foreign Sovereign Immunities Act of 1976, 28 U.S.C. §§ 1602 et seq.; the Terrorism
Risk Insurance Act of 2002, 28 U.S.C. § 1610 note; and
the Treaty of Amity, Economic Relations, and Consular
Rights, U.S.-Iran, Aug. 15, 1955, 8 U.S.T. 899; are set
forth in the Appendix (App., infra, 138a-171a).
PRELIMINARY STATEMENT
The Terrorism Risk Insurance Act (“TRIA”) permits
certain plaintiffs holding terrorism judgments to execute
against assets of a foreign state that have been frozen or
“blocked” under economic sanctions statutes. In the
decision below, the Ninth Circuit allowed plaintiffs with
default judgments against Iran to seize funds that Visa
owes to Bank Melli, an Iranian state-owned bank. It did
so even though Visa rather than Bank Melli is the owner
of the funds, and even though Bank Melli is a separate
entity distinct from the Iranian government that had no
role in the underlying disputes.
The Ninth Circuit reached that result by construing
TRIA to apply even where the foreign sovereign lacks
any ownership interest in the assets. That ruling conflicts with the D.C. Circuit’s decision in Heiser v. Islamic
Republic of Iran, 735 F.3d 934 (D.C. Cir. 2013), as well
as the repeatedly expressed position of the Executive
Branch. The D.C. Circuit and the Executive Branch both
interpret TRIA to apply only where the foreign sovereign actually owns the assets at issue.
The Ninth Circuit also construed TRIA to abrogate
Bank Melli’s separate status, contrary to both this
Court’s precedents and the Nation’s treaty obligations.
In First National City Bank v. Banco Para El Comercio
Exterior de Cuba, 462 U.S. 611 (1983) (“Bancec”), this

3
Court held that “government instrumentalities established as juridical entities distinct and independent from
their sovereign should normally be treated as such.” Id.
at 626-627. The United States specifically agreed to
respect the juridical status of Iranian companies in the
Treaty of Amity, Economic Relations, and Consular
Rights, U.S.-Iran, art. III.1, Aug. 15, 1955, 8 U.S.T. 899,
902. The Ninth Circuit’s construction of TRIA to abrogate those principles draws the country into a violation of
its international obligations and exposes it to liability in
pending proceedings in the International Court of Justice.
STATEMENT
I. STATUTORY FRAMEWORK
A. The Foreign Sovereign Immunities Act
For most of this Nation’s history, foreign sovereigns
were completely immune from suit. See Verlinden B.V.
v. Cent. Bank of Nigeria, 461 U.S. 480, 486 (1983). In
1952, however, the State Department adopted the “restrictive theory” of immunity, which denies immunity to a
state’s “strictly commercial” acts. See id. at 486-487.
Two decades later, Congress enacted the Foreign Sovereign Immunities Act of 1976 (“FSIA”), Pub. L. No. 94583, 90 Stat. 2891 (codified as amended at 28 U.S.C.
§§ 1602 et seq.), which largely codifies that restrictive
theory. See H.R. Rep. No. 94-1487, at 7 (1976).
The FSIA addresses the immunity of foreign sovereigns from suit, as well as the immunity of sovereign
property from attachment and execution. With respect
to immunity from suit, the FSIA preserves the general
rule that “a foreign state [or agency or instrumentality]
shall be immune from the jurisdiction of the courts of the
United States and of the States.” 28 U.S.C. § 1604. Section 1605 then lists carefully circumscribed exceptions.
Id. § 1605. Under the Act’s “commercial activity” excep-

4
tion, for example, a foreign sovereign is not immune from
an action “based upon a commercial activity carried on in
the United States by the foreign state.” Id. § 1605(a)(2).
The FSIA separately addresses the immunity of sovereign property from attachment and execution. Before
the FSIA’s enactment, sovereign property “enjoy[ed] absolute immunity from execution,” even under the restrictive theory. H.R. Rep. No. 94-1487, at 8. Plaintiffs who
obtained judgments against foreign sovereigns had to
rely on sovereign grace for their satisfaction. Ibid.
The FSIA retains the general rule that “property in the
United States of a foreign state [or agency or instrumentality] shall be immune from attachment arrest and execution.” 28 U.S.C. § 1609. But Section 1610 provides
exceptions for sovereign property “used for a commercial
activity in the United States” that meets one of certain
enumerated conditions. Id. § 1610(a). Section 1610(b)
provides additional exceptions for property of agencies or
instrumentalities. Id. § 1610(b).
B. This Court’s Decision in Bancec
As a general matter, the FSIA does not address when
a sovereign’s agencies or instrumentalities may be held
liable for judgments against the sovereign itself. This
Court resolved that issue in First National City Bank v.
Banco Para El Comercio Exterior de Cuba, 462 U.S. 611
(1983) (“Bancec”). That case concerned whether a bank
owned by the Cuban government was automatically liable
for claims against Cuba itself despite the bank’s status
as a separate entity. The Court held that it was not:
“[G]overnment instrumentalities established as juridical
entities distinct and independent from their sovereign
should normally be treated as such.” Id. at 626-627.
The Court explained that the FSIA does not govern
the question. That statute, it held, “was not intended to

5
affect the substantive law determining the liability of a
foreign state or instrumentality, or the attribution of liability among instrumentalities of a foreign state.” 462
U.S. at 620. Instead, such matters depend on substantive
principles “common to both international law and federal
common law.” Id. at 623.
The Court recognized only two narrow exceptions to
the rule that sovereigns and their juridically separate
instrumentalities should be treated as distinct. First,
“where a corporate entity is so extensively controlled by
its owner that a relationship of principal and agent is
created”—i.e., where the sovereign and instrumentality
are alter egos—“one may be held liable for the actions of
the other.” 462 U.S. at 629. Second, an instrumentality’s
status may be disregarded where the corporate form is
abused to “work fraud or injustice.” Id. at 629-630.
C. The Terrorism Amendments to the FSIA
Over the last two decades, Congress has repeatedly
amended the FSIA in connection with terrorism claims.
1. In 1996, Congress added a terrorism exception to
jurisdictional immunity. See Antiterrorism and Effective
Death Penalty Act of 1996, Pub. L. No. 104-132, § 221(a),
110 Stat. 1214, 1241 (formerly codified at 28 U.S.C.
§ 1605(a)(7)). That exception permits suits against certain sovereigns for acts of terrorism or material support
for terrorism. 28 U.S.C. § 1605A(a). Congress also added
exceptions for execution of the resulting judgments. See
28 U.S.C. §§ 1610(a)(7), 1610(b)(3).
2. Two years later, Congress added another exception for assets the Executive Branch had “blocked”
(i.e., frozen) under economic sanctions statutes. See
Omnibus Consolidated and Emergency Supplemental
Appropriations Act, 1999, Pub. L. No. 105-277, § 117,

6
112 Stat. 2681, 2681-491 (1998) (codified at 28 U.S.C.
§ 1610(f )(1)). Congress authorized the President to waive
the provision “in the interest of national security.’’ Pub.
L. No. 105-277, § 117(d), 112 Stat. at 2681-492. The President immediately issued a blanket waiver. 63 Fed. Reg.
59,201 (Oct. 21, 1998).
In 2000, Congress repealed the provision authorizing
that waiver. See Victims of Trafficking and Violence Protection Act of 2000, Pub. L. No. 106-386, § 2002(f )(2), 114
Stat. 1464, 1543. Following Executive Branch opposition,
however, a new waiver provision was added to the bill
before enactment. See id. § 2002(f )(1)(B), 114 Stat. at
1543 (codified at 28 U.S.C. § 1610(f )(3)). The President
then promptly issued another blanket waiver. 65 Fed.
Reg. 66,483 (Oct. 28, 2000).
3. In 2002, Congress responded to those waivers by
enacting the provision at issue here, Section 201(a) of the
Terrorism Risk Insurance Act of 2002 (“TRIA”), Pub. L.
No. 107-297, 116 Stat. 2322, 2337 (reproduced as amended
at 28 U.S.C. § 1610 note). That statute provides:
Notwithstanding any other provision of law, * * * in
every case in which a person has obtained a judgment against a terrorist party on a claim based
upon an act of terrorism, or for which a terrorist
party is not immune under section 1605A or
1605(a)(7) * * * , the blocked assets of that terrorist
party (including the blocked assets of any agency or
instrumentality of that terrorist party) shall be subject to execution or attachment in aid of execution
in order to satisfy such judgment * * * .
TRIA § 201(a). TRIA includes only limited presidential
waiver authority for certain diplomatic and consular
property. Id. § 201(b).

7
4. In 2008, Congress amended the FSIA’s terrorism
provisions yet again. See National Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 110-181, § 1083,
122 Stat. 3, 338. That amendment revised § 1605(a)(7)’s
terrorism exception and recodified it as § 1605A. See 28
U.S.C. § 1605A. It also added § 1610(g), which permits
execution against certain “property of ” a foreign state or
its instrumentalities without regard to the instrumentalities’ separate status under Bancec. 28 U.S.C. § 1610(g).
II. PROCEEDINGS BELOW
A. Background
Bank Melli is a commercial bank based in Tehran,
Iran. C.A. E.R. 230. It is Iran’s largest financial institution, offering a variety of banking services and holding
deposits and investments for members of the public.
App., infra, 6a; Bank Melli, Annual Report 2014-15.
Although Bank Melli’s stock is currently wholly owned by
the Iranian government, Bank Melli is a juridically separate entity, with its own share capital and board of directors. C.A. E.R. 299-300.
In 1991, Bank Melli applied to become a member of
Visa’s bank card program. App., infra, 8a. Under that
program, Bank Melli contracted with merchants in Iran
for the acceptance of Visa cards. C.A. E.R. 227-228.
Bank Melli would pay merchants for transactions they
handled and then settle the transactions with Visa. Ibid.
Visa would periodically determine the amounts that were
“due and owing to Bank Melli” and make payments to
Bank Melli’s settlement account. Ibid.
In 1995, following the imposition of sanctions against
Iran, Visa informed Bank Melli that it could no longer
settle Bank Melli’s transactions. App., infra, 9a. As a
result, Visa retained “certain sums owing to Bank Melli’s
settlement account.” Ibid. Visa invested those funds in

8
a Franklin-affiliated mutual fund. Ibid. By May 2012,
“the total amount due and owing (but not paid to) Bank
Melli * * * was $17,648,962.76.” Id. at 10a.
B. District Court Proceedings
Respondents are four groups of plaintiffs who hold
default judgments against Iran for terrorist attacks by
organizations that allegedly received support from the
Iranian government. App., infra, 108a. Bank Melli is not
a party to any of the judgments and was not alleged to
have been involved in the underlying events. Id. at 109a.
In December 2011, one group of plaintiffs sought to
satisfy its default judgment against Iran by executing
against the blocked assets that Visa and Franklin owed
Bank Melli. App., infra, 109a. Visa and Franklin
responded by filing an interpleader complaint against
Bank Melli and other parties with potential claims to the
assets. Ibid.
The district court denied Bank Melli’s motion to dismiss the interpleader complaint. App., infra, 106a-129a.
The court did not dispute that plaintiffs hold judgments
against Iran, not Bank Melli. Nor did it dispute that
Bank Melli is juridically distinct from the Iranian government. Nonetheless, the court held that plaintiffs
could seek to satisfy their judgments against Bank Melli
because TRIA and § 1610(g) “abrogat[e] Bancec as to
terrorism-based judgments against foreign state sponsors of terrorism.” Id. at 111a.
The district court further held that plaintiffs could
seek to execute against the blocked assets even though
the complaint alleged only that the assets were “due and
owing by contract to Bank Melli,” not that Bank Melli
actually “owns” them. App., infra, 122a. The court
acknowledged that, “[f ]or TRIA or section 1610(g) to

9
apply, the funds at issue must be ‘assets of ’ or ‘property
of ’ Bank Melli.” Ibid. But the court deemed that
requirement met because “California enforcement law
authorizes a court to ‘order the judgment debtor to
assign to the judgment creditor * * * all or part of a right
to payment due or to become due.’ ” Id. at 124a.
Acknowledging “substantial ground for difference of
opinion,” the court certified its order for interlocutory
appeal. App., infra, 128a-129a & n.15.
C. The Court of Appeals’ Prior Opinions
The Ninth Circuit affirmed. App., infra, 92a-105a.
When Bank Melli petitioned for rehearing, the United
States filed an amicus brief supporting Bank Melli’s positions on both the TRIA ownership issue and the proper
construction of § 1610(g). No. 13-15442, Dkt. 82 (9th Cir.
filed Oct. 23, 2015). The Ninth Circuit then withdrew its
opinion and replaced it with a new one that reached the
same result, with one judge dissenting. App., infra, 60a91a. After Bank Melli filed another rehearing petition,
the Ninth Circuit withdrew that opinion and replaced it
with a third one, again over a dissent. Id. at 26a-59a.
In that third opinion, the court of appeals ruled that
Bank Melli could be held liable for judgments against
Iran despite its separate status. App., infra, 35a-37a.
The court acknowledged that, under Bancec, a juridically
separate instrumentality ordinarily cannot be held liable
for its sovereign’s debts. Id. at 36a-37a. But the court
held that TRIA “overrode the Bancec presumption in
this context.” Id. at 37a.
The court invoked TRIA’s statutory text. TRIA provides that “the blocked assets of [a] terrorist party
(including the blocked assets of any agency or instrumentality of that terrorist party)” are subject to execu-

10
tion. TRIA § 201(a) (emphasis added). According to the
Ninth Circuit, “[t]his wording demonstrates that Congress
knew that the blocked assets of an instrumentality might
otherwise have been excluded from the phrase ‘blocked
assets of [the] terrorist party’ and that Congress acted to
ensure that, instead, the instrumentality’s blocked assets
were included.” App., infra, 36a. The court acknowledged Bank Melli’s argument that “ ‘including’ is a term
of illustration,” so that the clause reaches instrumentality
assets only when there is some basis for treating them as
the sovereign’s own—for example, an alter ego relationship. Id. at 37a. But the court deemed the principle “of
no assistance to Bank Melli” because, in its view, “Congress clearly instructed courts to allow the instrumentality’s blocked assets to be reached.” Ibid. The court
claimed support from a Second Circuit decision, Weinstein v. Islamic Republic of Iran, 609 F.3d 43 (2d Cir.
2010), cert. denied, 567 U.S. 934 (2012). App., infra, 36a.
The court reached the same result under § 1610(g).
App., infra, 37a-45a. Although Bank Melli argued that
§ 1610(g) merely overrode Bancec in cases where there
was an otherwise applicable exception to immunity, the
Ninth Circuit held to the contrary that “subsection (g)
contains a freestanding provision for attaching and executing against assets of a foreign state or its agencies or
instrumentalities.” Id. at 38a. The court “acknowledge[d] that the United States, appearing as amicus
curiae, disagrees with our interpretation.” Id. at 43a n.7.
But it refused to “defer to the government’s view.” Ibid.
The court rejected Bank Melli’s argument that execution would violate the Treaty of Amity. App., infra, 44a45a. According to the court, that treaty merely put “foreign corporations * * * on equal footing with domestic
corporations.” Id. at 45a. In any event, “when a treaty

11
and a later-enacted federal statute conflict, the subsequent statute controls.” Ibid.
Finally, the Ninth Circuit held that the blocked assets
were “assets of ” or “property of ” Bank Melli for purposes of TRIA and § 1610(g). App., infra, 46a-49a. The
court “look[ed] to state law to determine the ownership
of assets in this context.” Id. at 47a. California law, it
noted, “authorizes a court to order a judgment debtor to
assign to the judgment creditor a right to payments that
are due or will become due.” Ibid. Because “Bank Melli
has a contractual right to obtain payments from Visa and
Franklin,” “those assets are property of Bank Melli and
may be assigned to judgment creditors.” Id. at 47a-48a.
Even if federal law applied, the Ninth Circuit added,
“Bank Melli would not succeed.” App., infra, 48a. In the
court’s view, “Congress has used expansive wording to
suggest that immediate and outright ownership of assets
is not required.” Ibid. The court pointed in particular
to a provision stating that “ ‘[n]othing in this subsection
shall bar * * * enforcement of any judgment to which this
subsection applies * * * against assets otherwise available under this section or under any other provision of
law.’ ” Ibid. (emphasis omitted). In light of that expansive wording, “attachment and execution are allowed here
because Bank Melli is the intended contractual beneficiary
of the contested funds.” Id. at 49a.
D. Proceedings in This Court
Bank Melli sought this Court’s review. Bank Melli v.
Bennett, No. 16-334. Plaintiffs opposed review primarily
on the ground that the case was interlocutory, as it arose
on appeal from the district court’s denial of Bank Melli’s
motion to dismiss. Br. in Opp. in No. 16-334, at 17-19.
“The petition should be denied,” they urged, “because the

12
case comes to this Court in an interlocutory posture and
is not ripe for review.” Id. at 17.
This Court called for the views of the Solicitor General. 137 S. Ct. 707 (2017). The United States agreed
with Bank Melli on the merits. “Insofar as the question
is whether TRIA and Section 1610(g) have an ‘ownership’
requirement,” the government explained, “the United
States agrees with petitioner that they do.” U.S. Br. in
No. 16-334, at 19. But the government advised against
review based on the case’s “interlocutory posture,” which
“ ‘itself alone furnishe[s] sufficient ground for the denial’
of a petition.” Id. at 18. The government also claimed
that the Ninth Circuit’s opinion was ambiguous in that,
“in part of its opinion, the court appears to have assumed
that [TRIA] require[s] ownership.” Id. at 19.
This Court then granted review in Rubin v. Islamic
Republic of Iran, No. 16-534, a Seventh Circuit case presenting the same § 1610(g) issue in which undersigned
counsel also represented the respondent. In Rubin, the
Court unanimously rejected the Ninth Circuit’s interpretation of § 1610(g). See Rubin v. Islamic Republic of
Iran, 138 S. Ct. 816, 821 n.3, 827 (2018). The Court held
this case pending Rubin, but ultimately denied the petition. 138 S. Ct. 1260 (2018).
E. District Court Proceedings on Remand
On remand, the parties engaged in discovery. Visa
produced two regulatory reports it had filed with the
Office of Foreign Assets Control in 2010 and 2011 in
which it described the status of the assets at issue. App.,
infra, 130a-133a, 134a-137a (reproducing reports).
Each report was prepared on a form that instructed
Visa to “[i]dentify the owner of the property.” App.,
infra, 132a, 136a (emphasis added). Visa submitted

13
charts listing its holdings, including one row for the
assets at issue here. Id. at 133a, 137a. Under the column
labeled “Owner,” Visa wrote: “Visa International Service
Association.” Ibid. In the “Description” column, the
2010 chart includes the notation “[a]ccount holds Bank
Melli funds,” while the 2011 chart states simply “[s]hares
in mutual fund.” Ibid. Both forms include an attestation
from Visa’s Associate General Counsel that the information is “true and accurate” to the best of his knowledge. Id. at 131a, 135a.
Following discovery, plaintiffs moved for summary
judgment. App., infra, 4a. In light of Rubin, they no
longer relied on § 1610(g)—only TRIA. Id. at 13a.
The district court granted the motion. App., infra, 4a25a. Despite Visa’s express representations of ownership
in its regulatory reports, the court deemed the assets
subject to execution under TRIA. The court asserted
that Bank Melli had previously claimed ownership by
using words like “borne” and “recover” in prior court
filings. Id. at 14a. It claimed that “the Ninth Circuit held
unambiguously at the motion to dismiss phase of the case
that Bank Melli owns the funds.” Id. at 14a-15a. And it
held that the fact that “two Annual Reports list Visa as
the ‘owner’ of the funds does not undermine the conclusion that the Blocked Assets are Bank Melli’s property.”
Id. at 15a. In the court’s view, because one of the reports
also referred to the assets as “Bank Melli funds,” a
“common sense reading” established that Bank Melli was
the owner. Ibid.
The district court thus saw “no genuine dispute about
the ownership of the funds.” App., infra, 15a. It granted
summary judgment to plaintiffs but stayed its ruling
pending appellate and Supreme Court review. Id. at 25a.

14
F. The Court of Appeals’ Decision
The Ninth Circuit affirmed in an unpublished memorandum disposition. App., infra, 1a-3a.
The court acknowledged Bank Melli’s argument that
“a genuine issue of material fact exists as to whether
[Bank Melli] ‘owns’ the funds, because two of Visa’s regulatory filings listed Visa as ‘owner’ of the funds.” App.,
infra, 3a. But the court deemed that dispute over ownership “not material.” Ibid. “Bank Melli has a contractual
right to obtain payments from Visa,” it explained, and
thus “an interest in the funds” and a “right to receive
payment of the debt that Visa owes.” Ibid. In the court’s
view, those facts were sufficient under its prior opinion,
which was “now the law of the circuit.” Ibid.
The court also invoked an alternative ground. “[E]ven
if we were to consider the ‘ownership’ facts to be material,” it held, “the documents on which Bank Melli
relies do not create a genuine issue of fact.” App., infra,
3a. That was so, it asserted, because “[r]eading the documents as a whole and in context, they describe the
accounts as ‘hold[ing] Bank Melli funds.’ ” Ibid.
REASONS FOR GRANTING THE PETITION
The Ninth Circuit held that TRIA permits execution
even where the respondent does not own the property.
In that court’s view, “ ‘ownership’ facts” are simply “not
material” under the statute. App., infra, 3a. That ruling
squarely conflicts with the D.C. Circuit’s holding in
Heiser v. Islamic Republic of Iran, 735 F.3d 934 (D.C.
Cir. 2013), that “plaintiffs [can]not attach [assets] under
[TRIA] without an Iranian ownership interest in the accounts.” Id. at 941 (emphasis added). It also conflicts
with the Executive Branch’s repeatedly expressed position that TRIA imposes an “ ‘ownership’ requirement.”
U.S. Br. in No. 16-334, at 19.

15
While this Court denied review of the TRIA ownership
issue when the case was previously before it, the factors
that formerly weighed against review no longer exist.
The previous petition arose in an interlocutory posture,
but the case has now reached final judgment. And whatever ambiguity may have inhered in the Ninth Circuit’s
prior decision has now been eliminated: The court held
in no uncertain terms that “ ‘ownership’ facts” are simply
“not material.” App., infra, 3a.
The Ninth Circuit’s refusal to respect Bank Melli’s
separate juridical status also warrants review. In First
National City Bank v. Banco Para El Comercio Exterior
de Cuba, 462 U.S. 611 (1983) (“Bancec”), this Court made
clear that “government instrumentalities established as
juridical entities distinct and independent from their sovereign should normally be treated as such.” Id. at 626627. The United States reaffirmed that presumption
specifically for Iranian companies in the Treaty of Amity,
Economic Relations, and Consular Rights, U.S.-Iran, art.
III.1, Aug. 15, 1955, 8 U.S.T. 899, 902. By finding a
congressional repudiation of those principles in oblique
parenthetical language, the Ninth Circuit not only disregarded settled canons of construction but also exposed
the United States to liability in ongoing proceedings
before the International Court of Justice.
I. THE NINTH CIRCUIT’S REJECTION OF TRIA’S
OWNERSHIP REQUIREMENT WARRANTS REVIEW
The Ninth Circuit’s holding that ownership is “not
material” under TRIA conflicts with the positions of both
the D.C. Circuit and the Executive Branch. That conflict
warrants review.

16
A. The Ninth Circuit’s Decision Conflicts with the
D.C. Circuit’s Decision in Heiser
The decision below directly conflicts with the D.C.
Circuit’s decision in Heiser v. Islamic Republic of Iran,
735 F.3d 934 (D.C. Cir. 2013). In that case, plaintiffs with
a default judgment against Iran sought to attach electronic funds transfers that had been blocked under sanctions programs. Id. at 935. Iranian banks, although neither the originators nor the beneficiaries of the transfers,
had a “contingent future possessory interest” because
the recipients maintained their accounts at those banks.
Id. at 936-937. The plaintiffs urged that TRIA should
apply to those assets. Id. at 938.
The D.C. Circuit rejected that argument. TRIA, the
court noted, applies to “ ‘blocked assets’ of Iran.” 735
F.3d at 938. This Court had “defin[ed] ‘of ’ in various
statutes as requiring ownership.” Ibid. (citing Bd. of Trs.
of Leland Stanford Junior Univ. v. Roche Molecular
Sys., Inc., 563 U.S. 776 (2011)). “Nothing in the legislative histor[y] * * * suggests that Congress intended judgment creditors of foreign states to be able to attach property those states do not own.” Ibid. Plaintiffs therefore
“could not attach the contested accounts under [TRIA]
* * * without an Iranian ownership interest in the accounts.” Id. at 941 (emphasis added). “[B]ecause Iran
lacked an ownership interest,” TRIA did not apply. Ibid.
The Ninth Circuit took the opposite approach here. In
its prior opinion, the court held that the blocked assets
qualified as property “of ” Bank Melli under TRIA without regard to ownership. “California law,” it explained,
“authorizes a court to order a judgment debtor to assign
to the judgment creditor a right to payments that are due
or will become due, even if the right is conditioned on
future developments.” App., infra, 47a. Bank Melli had

17
“a contractual right to obtain payments from Visa and
Franklin,” and “[u]nder California law, those assets are
property of Bank Melli and may be assigned to judgment
creditors.” Id. at 47a-48a. The court reached the same
result under federal law. “Congress has used expansive
wording to suggest that immediate and outright ownership of assets is not required.” Id. at 48a. “[A]ttachment
and execution are allowed here because Bank Melli is the
intended contractual beneficiary of the contested funds.”
Id. at 49a (emphasis added).
Whatever ambiguity might have existed in that earlier
opinion was put to rest by the Ninth Circuit’s most recent
decision. The court has now expressly refused to consider Bank Melli’s evidence regarding “whether it ‘owns’
the funds.” App., infra, 3a. In the Ninth Circuit’s view,
“that issue of fact is not material.” Ibid. (emphasis
added); see also ibid. (court did not “consider the ‘ownership’ facts to be material”). In the Ninth Circuit, the
mere fact that “Bank Melli has a contractual right to
obtain payments from Visa” is enough. Ibid. That holding
is irreconcilable with Heiser.
Other courts of appeals have similarly diverged over
the scope of TRIA’s “assets of ” requirement. In Villoldo
v. Castro Ruz, 821 F.3d 196 (1st Cir. 2016), the First Circuit agreed with the D.C. Circuit’s holding in Heiser:
“TRIA * * * tells us that the property that is owned by a
foreign state should be used to pay such judgments.” Id.
at 203 (emphasis added). By contrast, in CalderonCardona v. Bank of New York Mellon, 770 F.3d 993 (2d
Cir. 2014), cert. denied, 136 S. Ct. 893 (2016), the Second
Circuit construed § 1610(g)’s parallel “property of ” requirement not to impose any federal ownership requirement. The court deemed the statute “silent as to what
interest in property the foreign state * * * must have in

18
order for that property to be subject to execution,” and
held that state law governs the issue. Id. at 1000-1001.
The Circuits are thus sharply divided over whether
TRIA requires ownership. That conflict warrants this
Court’s review.
B. The Ninth Circuit’s Decision Rejects the Executive Branch’s Position on an Important Foreign Relations Matter
The Ninth Circuit’s decision also conflicts with the
United States’ longstanding interpretation of TRIA. The
Executive Branch made its position clear in the brief it
filed in this Court in connection with Bank Melli’s prior
petition. TRIA, it explained, “applies to the ‘assets of ’ a
terrorist party.” U.S. Br. in No. 16-334, at 19. “Insofar
as the question is whether TRIA * * * ha[s] an ‘ownership’ requirement, the United States agrees with [Bank
Melli] that [it] do[es].” Ibid. (emphasis added).
That brief was just one of many times the government
has taken that position. In the court below, the government similarly explained that TRIA “only authorize[s]
plaintiffs to attach assets that are ‘owned’ by the relevant
foreign state.” U.S. Br. in No. 13-15442, Dkt. 82 at 2-3
(9th Cir. filed Oct. 23, 2015). “The assets ‘of ’ an entity
are not naturally understood to include all assets in which
it has any interest of any nature whatsoever. Rather, the
Supreme Court has repeatedly observed that the ‘use of
the word “of ” denotes ownership.’ ” Id. at 14. “[T]he
mere fact that state law authorizes attachment is insufficient,” because “federal law has an affirmative requirement that the assets actually be owned by the debtor
state or instrumentality.” Id. at 17.
The United States has taken that same position in at
least a half-dozen other cases. See U.S. Br. in Rubin v.

19
Islamic Republic of Iran, No. 11-2144, at 13 (1st Cir.
filed June 7, 2012) (TRIA applies only to “assets owned
by the relevant terrorist party”); U.S. Br. in JPMorgan
Chase Bank, N.A. v. Hausler, No. 12-1264, at 15 (2d
Cir. filed July 9, 2012) (similar); U.S. Br. in CalderonCardona v. Bank of N.Y. Mellon, No. 12-75, at 16, 24 (2d
Cir. filed Sept. 21, 2012); U.S. Br. in Heiser v. Islamic
Republic of Iran, No. 12-7101, at 2 (D.C. Cir. filed Mar.
11, 2013); U.S. Br. in Villoldo v. Ruz, No. 15-1808, at 15
(1st Cir. filed Dec. 24, 2015); U.S. Br. in Weinstein v.
Islamic Republic of Iran, No. 14-7193, at 14 (D.C. Cir.
filed Dec. 29, 2015).
The conflict with the position of the Executive Branch
is particularly serious, as it trenches on important foreign relations matters. By holding that TRIA applies
even where the sovereign does not own the property,
the Ninth Circuit has greatly expanded the range of
blocked assets subject to execution to pay private plaintiffs, contrary to the Executive Branch’s express foreign
policy priorities.
The Executive Branch has repeatedly opposed using
blocked assets to pay private plaintiffs. Congress initially tried to make such assets available to private plaintiffs in § 1610(f ), TRIA’s predecessor. But the President
twice exercised his statutory authority to render the
provision inoperative, concluding that the statute would
“impede [his] ability * * * to conduct foreign policy in the
interest of national security” and “impede the effectiveness” of blocking orders. 63 Fed. Reg. 59,201 (Oct. 21,
1998); 65 Fed. Reg. 66,483 (Oct. 28, 2000). Using blocked
assets to pay private plaintiffs, he explained, would
“effectively eliminate” an “important source of leverage”
in negotiations with accused terrorist states; “seriously
affect [the United States’] ability to enter into global

20
claims settlements”; and threaten liability for U.S. taxpayers where assets were also subject to international
arbitrations. 1998 Pub. Papers 1843, 1847 (Oct. 23, 1998).
The State Department echoed those concerns in a
2002 letter to congressional leadership. “The Administration,” it explained, “opposes the use of blocked assets
* * * to satisfy judgments.” Letter from R. Armitage,
Deputy Sec’y of State, to R. Cheney 3 (June 12, 2002).
Diverting blocked assets to pay judgments would “preclude their use to pressure regimes to improve their
policies on terrorism, risk taxpayer liability for thirdparty claims against the assets, eliminate their availability to satisfy current U.S. Government claims (currently
more than $2 billion), and put at risk diplomatic property.” Ibid.; see also Benefits for U.S. Victims of International Terrorism: Hearing Before the S. Comm. on
Foreign Relations, S. Hr’g No. 108-214, at 8 (July 17,
2003) (statement of William H. Taft, IV, Legal Adviser,
Dep’t of State) (“Using blocked assets to pay claims and
judgments will not deter terrorism, but will reduce the
incentive that blocking property provides to end support
for terrorism.”). The President similarly urged that
using blocked assets to pay judgments would infringe on
“the prerogatives of the President in the area of foreign
affairs.” 2002 Pub. Papers 1697, 1699 (Sept. 30, 2002).
This Court routinely recognizes a case’s importance to
the Nation’s foreign relations as a basis for review. See,
e.g., Christopher v. Harbury, 536 U.S. 403, 412 (2002)
(granting review because of the “importance of th[e]
issue to the Government in its conduct of the Nation’s
foreign affairs”); JPMorgan Chase Bank v. Traffic
Stream (BVI) Infrastructure Ltd., 536 U.S. 88, 91 (2002)
(“serious issues of foreign relations”); Banco Nacional de
Cuba v. Sabbatino, 376 U.S. 398, 407 (1964); Kolovrat v.

21
Oregon, 366 U.S. 187, 191 (1961). The Ninth Circuit’s
rejection of the government’s construction thus weighs
sharply in favor of review.1
C. The Ninth Circuit’s Decision Is Incorrect
The Ninth Circuit’s decision is also wrong. TRIA
applies only to “assets of ” the sovereign respondent.
TRIA § 201(a). As this Court has explained, “[t]he use of
the word ‘of ’ denotes ownership.” Bd. of Trs. of Leland
Stanford Junior Univ. v. Roche Molecular Sys., Inc.,
563 U.S. 776, 788 (2011) (quoting Poe v. Seaborn, 282 U.S.
101, 109 (1930)). The statute’s plain language thus requires ownership.
The Ninth Circuit insisted that a mere right to receive
funds was sufficient because “California law authorizes a
court to order a judgment debtor to assign to the judgment creditor a right to payments that are due or will become due.” App., infra, 47a. But the fact that Visa owes
Bank Melli money does not mean Bank Melli already
owns those funds. See United States v. Rodrigues, 159
F.3d 439, 448 (9th Cir. 1998) (“An entitlement or right to
receive is an interest distinct from ownership.”). And the
mere fact that California law permits judgment creditors
to recover even absent ownership does not mean TRIA’s
federal ownership requirement is met. See U.S. Br. in
No. 13-15442, Dkt. 82 at 17 (9th Cir. filed Oct. 23, 2015)
(“[T]he mere fact that state law authorizes attachment is
insufficient,” because “federal law has an affirmative

1

The United States’ previous submissions already explain why Bank
Melli’s construction of TRIA is correct. U.S. Br. in No. 16-334, at 19;
U.S. Br. in No. 13-15442, Dkt. 82 at 14-19 (9th Cir. filed Oct. 23,
2015). Nonetheless, to the extent the Court has any doubts about
the government’s views, it should invite a further submission, as it
did previously. See 137 S. Ct. 707 (2017).

22
requirement that the assets actually be owned by the
debtor state or instrumentality.”).
The Ninth Circuit asserted that federal law supported
its interpretation because “Congress has used expansive
wording to suggest that immediate and outright ownership of assets is not required.” App., infra, 48a. But the
only “expansive wording” the court identified was a provision in a related compensation fund program stating
that “[n]othing in this subsection shall bar * * * enforcement of any judgment to which this subsection applies
* * * against assets otherwise available under this section
or under any other provision of law.” Pub. L. No. 107297, sec. 201(c), § 2002(d)(4), 116 Stat. 2322, 2339 (2002)
(erroneously cited as TRIA § 201(d)(4)). A generic saving
clause that merely clarifies that a statute does not repeal
any other execution mechanism has no conceivable relevance to whether TRIA itself requires ownership.
TRIA’s plain language requires ownership. The Ninth
Circuit has excised that requirement from the statute.
D. This Is an Appropriate Case for Review
This case is an appropriate vehicle for review of the
important question decided below. Plaintiffs previously
objected that “the case comes to this Court in an interlocutory posture and is not ripe for review.” Br. in Opp.
in No. 16-334, at 17. The United States likewise faulted
the case’s “interlocutory posture.” U.S. Br. in No. 16334, at 18. Those concerns have been extinguished. The
case now returns to the Court from the district court’s
judgment of execution—a final judgment by any standard.
The government’s concerns about ambiguity in the
Ninth Circuit’s prior opinion have also been addressed.
The government previously claimed that the Ninth
Circuit may require ownership after all because, “in part

23
of its opinion, the court appears to have assumed that
[TRIA] require[s] ownership.” U.S. Br. in No. 16-334, at
19. But the Ninth Circuit has now rejected that view. The
decision below interpreted the prior opinion as holding
that “ ‘ownership’ facts” are simply “not material,” a ruling
that is “now the law of the circuit.” App., infra, 3a.
The unpublished status of the Ninth Circuit’s latest
decision does not weigh against review. The reason the
court issued an unpublished memorandum was that it
had already resolved the important statutory question in
its earlier published opinion. App., infra, 46a-49a. The
later decision merely applied that precedent as “law of
the circuit.” Id. at 3a. Where this Court denies review of
a published opinion as interlocutory, the later decision
following final judgment will often be unpublished, because the court of appeals will have already decided the
important question in the earlier opinion. Having postponed review until final judgment, this Court should not
decline review altogether merely because the later decision happens to be unpublished.
Finally, the Ninth Circuit’s alternative holding based
on assertions about the factual record is no basis for
denying review. Despite multiple regulatory reports in
which Visa’s in-house counsel certified that Visa was
the “Owner” of the assets, the court claimed that there
was no “genuine issue of fact” over ownership because,
“[r]eading the documents as a whole and in context, they
describe the accounts as ‘hold[ing] Bank Melli funds.’ ”
App., infra, 3a. That holding is flatly erroneous.
At summary judgment, “the weighing of the evidence,
and the drawing of legitimate inferences from the facts,
are jury functions, not those of a judge.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986). While one
report does refer ambiguously to “Bank Melli funds”—a

24
notation that could simply reflect that Visa owes the
money to Bank Melli—both reports explicitly list Visa as
the “Owner” of the assets. App., infra, 133a, 137a (reproducing reports). At most, the one isolated reference to
“Bank Melli funds” is the sort of ambiguity or internal
conflict within a document that creates rather than eliminates a genuine dispute of fact at summary judgment.
The Ninth Circuit’s contrary holding—that there is no
genuine dispute that Bank Melli rather than Visa is the
owner of the assets despite multiple regulatory reports in
which Visa explicitly identifies itself as the “Owner”—is
a blatant departure from summary judgment standards.
The Ninth Circuit’s alternative holding is so facially
implausible that it smacks of an intentional effort to avoid
this Court’s review. This Court has not hesitated to
grant review in comparable circumstances. See, e.g.,
County of Los Angeles v. Mendez, 137 S. Ct. 1539, 15481549 (2017) (granting review to address Ninth Circuit’s
“provocation” theory for excessive-force claims despite
factbound alternative holding on proximate cause); Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292, 23042309 (2016) (granting review to address constitutionality
of admitting-privileges requirement despite narrow alternative holding on preclusion); Marmet Health Care Ctr.,
Inc. v. Brown, 565 U.S. 530 (2012) (per curiam) (granting
review to address state-court refusal to enforce arbitration agreement despite purported alternative holding on
unconscionability). This case is no different: The Ninth
Circuit’s alternative holding flouts settled summary judgment standards, and the need to spend a paragraph or
two dispatching that obviously erroneous ruling should
not dissuade the Court from addressing the important
question of federal law the Ninth Circuit also decided.

25
II. THE NINTH CIRCUIT’S HOLDING THAT TRIA ABROGATES SEPARATE JURIDICAL STATUS WARRANTS
REVIEW
The Ninth Circuit construed TRIA to permit execution against assets of a juridically separate instrumentality to satisfy judgments against the sovereign. That
holding disregards settled canons of construction and
draws an Act of Congress into conflict with international
law, treaty obligations, and this Court’s precedents. It
likewise warrants review.
A. The Ninth Circuit’s Decision Conflicts with
Bancec and the Treaty of Amity
The default judgments that plaintiffs seek to execute
were not entered against Bank Melli. They were entered
against the Iranian government. App., infra, 108a.
“Bank Melli is not named as a party to any of the judgments and is not alleged to have been involved in any of
the events underlying them.” Id. at 109a. Bank Melli is
juridically separate from the Iranian government, with
its own share capital and board of directors. C.A. E.R.
299-300. Plaintiffs have never attempted to show that
Bank Melli is a mere alter ego of the government, nor
any other traditional basis for piercing the corporate veil.
The Ninth Circuit’s holding that Bank Melli may nonetheless be held liable for Iran’s debts is a matter of grave
concern. In Bancec, this Court held that “government
instrumentalities established as juridical entities distinct
and independent from their sovereign should normally be
treated as such.” 462 U.S. at 626-627. The Court derived
that presumption from “international law,” “[d]ue respect
for the actions taken by foreign sovereigns,” and “comity
between nations.” Id. at 623, 626-627.
“Freely ignoring the separate status of government
instrumentalities,” the Court explained, “would result in

26
substantial uncertainty over whether an instrumentality’s assets would be diverted to satisfy a claim against
the sovereign,” which could cause other parties to “hesitate before extending credit.” 462 U.S. at 626. “As a
result, the efforts of sovereign nations to structure their
governmental activities in a manner deemed necessary to
promote economic development and efficient administration would surely be frustrated.” Ibid. The United
States’ own interests would also suffer: “ ‘If U.S. law did
not respect the separate juridical identities of different
agencies or instrumentalities, it might encourage foreign
jurisdictions to disregard the juridical divisions between
different U.S. corporations or between a U.S. corporation
and its independent subsidiary.’ ” Id. at 628 (quoting
H.R. Rep. No. 94-1487, at 29-30 (1976)).
Those principles have special force in this case due
to the Nation’s treaty obligations. Article III.1 of the
Treaty of Amity requires the United States to respect
the “juridical status” of companies organized under Iranian law. See Treaty of Amity, Economic Relations, and
Consular Rights, U.S.-Iran, art. III.1, Aug. 15, 1955, 8
U.S.T. 899, 902. Other provisions require the United
States to provide Iranian companies with access to courts
and administrative agencies on terms no less favorable
than those provided to other parties, to refrain from
applying unreasonable or discriminatory measures, and
to protect the companies’ property as required by international law. Id. arts. III, IV, 8 U.S.T. at 902-904. The
decision below violates all those provisions. The Ninth
Circuit’s repudiation of those “solemn engagements ” is
serious cause for alarm. See Tucker v. Alexandroff, 183
U.S. 424, 437 (1902); cf. Sumitomo Shoji Am., Inc. v.
Avagliano, 457 U.S. 176, 182 n.7 (1982) (question concerning similar Friendship, Commerce, and Navigation

27
treaty was “clearly of widespread importance” because
“treaty provisions similar to that invoked by [petitioner]
are in effect with many other countries”).
The Executive Branch has emphasized the importance
of respecting the presumption of separate status. When
Congress proposed in 1999 to amend § 1610(f ) to provide
that “all [blocked] assets of any agency or instrumentality of a foreign state shall be treated as assets of that foreign state,” H.R. 3485, 106th Cong. § 1(c) (Nov. 18, 1999),
the State, Treasury, and Defense Departments submitted a joint statement expressing grave concerns. See
Justice for Victims of Terrorism Act: Hearing on H.R.
3485 Before the Subcomm. on Immigration and Claims
of the H. Comm. on the Judiciary, 106th Cong. 48-54
(Apr. 13, 2000) (“Joint Statement”). The proposal, they
warned, was “fundamentally flawed” and would “seriously damag[e] * * * important U.S. interests.” Id. at 48.
The agencies explained that, by “direct[ing] courts to
ignore the separate legal status of states and their agencies and instrumentalities,” the proposal would “overturn[ ] Supreme Court precedent and basic principles of
corporate law and international practice.” Joint Statement 49. Even though the bill was “limited * * * to terrorism-list states and their majority owned entities,” the
proposal could “create the perception that the United
States is unreliable as a location for banking or investment.” Id. at 53. Moreover, the proposal would set a
“dangerous precedent” for American instrumentalities.
Id. at 49. “[I]f the United States were to ‘pierce the corporate veil’ in this manner,” foreign courts may similarly
“disregard the separate status of private, U.S. owned
companies” abroad. Id. at 53-54. “U.S. citizens, corporations, the United States government, and taxpayers have
far more money invested abroad than those of any other

28
country, and thus have more to lose if investment protections such as those provided by the presumption of separate status [are] eroded.” Id. at 54 (emphasis omitted);
see also Terrorism: Victims’ Access to Terrorist Assets:
Hearing Before the S. Comm. on the Judiciary, S. Hr’g
No. 106-941, at 21-39 (Oct. 27, 1999) (Treasury Department expressing similar concerns).
Congress omitted the objectionable provision from the
bill ultimately enacted in 2000. See Pub. L. No. 106-386,
§ 2002, 114 Stat. 1464, 1541 (2000). But the Ninth Circuit
has now construed TRIA to do precisely what Congress
refused to do in that earlier statute. That holding puts
the statute at war with both precedent and treaty obligations, creating profound cause for concern.
B. The Ninth Circuit’s Decision Is Incorrect
The Ninth Circuit’s construction disregards fundamental interpretive principles. This Court has long made
clear that “an act of Congress ought never to be construed to violate the law of nations if any other possible
construction remains.” Murray v. Schooner Charming
Betsy, 6 U.S. (2 Cranch) 64, 118 (1804); see also F. Hoffmann-La Roche Ltd. v. Empagran S.A., 542 U.S. 155,
164 (2004). Similarly, “[a] treaty will not be deemed to
have been abrogated or modified by a later statute unless
such purpose on the part of Congress has been clearly
expressed.” Trans World Airlines, Inc. v. Franklin
Mint Corp., 466 U.S. 243, 252 (1984). Nothing in TRIA
remotely satisfies that “clear expression” rule.
The Ninth Circuit relied on TRIA’s statement that
“the blocked assets of [a] terrorist party (including the
blocked assets of any agency or instrumentality of that
terrorist party)” are subject to execution. TRIA § 201(a)
(emphasis added). That “including” parenthetical, however, does not expand the statute beyond the sovereign’s

29
own assets. It merely clarifies that the statute reaches
instrumentality assets when they are included within the
sovereign’s own assets—for example, because the sovereign and instrumentality are alter egos.
This Court has made clear that “including” is a word
of illustration, not expansion. In Montello Salt Co. v.
Utah, 221 U.S. 452 (1911), for example, the Court construed a statute granting Utah “one hundred and ten
thousand acres of land, to be selected and located as provided [elsewhere in the statute], and including all saline
lands in said state.” Id. at 459 (emphasis altered). The
Court rejected the argument that the statute granted
Utah all saline lands. Explaining that “including” is not a
“word of enlargement,” the Court construed the provision merely to clarify that saline lands were included
within the one hundred and ten thousand acres to be
selected, not to expand the statute beyond those lands.
Id. at 463, 465.
Similarly, in Chickasaw Nation v. United States, 534
U.S. 84 (2001), the Court considered a tax provision that
applied to “reporting and withholding” requirements,
defined parenthetically to “includ[e]” various sections,
some of which did not even address reporting or withholding. Id. at 89. Because the parenthetical clause was
“prefaced with the word ‘including,’ ” the Court held that
it did not expand the statute beyond “reporting and
withholding” provisions. Ibid.
The same reasoning applies here. By stating that the
assets subject to execution are “the blocked assets of
th[e] terrorist party,” TRIA makes clear that the only
assets subject to execution are those of the alleged
terrorist party itself—in this case, the Iranian government. Adding the phrase “(including the blocked assets
of any agency or instrumentality of that terrorist party)”

30
merely clarifies that instrumentality assets are subject to
execution when they are “includ[ed]” within the terrorist
party’s own assets. The statute thus extends to instrumentality assets only when there is some basis for treating them as the sovereign’s own—for example, when
the sovereign and instrumentality are alter egos. See
Bancec, 462 U.S. at 628-630. The “including” clause does
not expand the statute to reach assets that are not the
sovereign’s property at all.
Congress’s placement of the “including” language in
a parenthetical clause only underscores its limited function. “The use of the parentheses emphasizes the fact
that that which is within is meant simply to be illustrative, hence redundant * * * .” Chickasaw Nation, 534
U.S. at 89. Congress, after all, does not “hide elephants
in mouseholes.” Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 468 (2001). Courts should not presume that
Congress meant to jettison fundamental precepts of
international law based on oblique parenthetical language.
Had Congress wanted to authorize execution against
instrumentality assets regardless of Bancec, it could have
phrased the statute broadly to cover assets of a terrorist
party “and,” or “as well as,” instrumentality assets.
Congress did precisely that in § 1610(g), which permits
execution against “the property of a foreign state * * * ,
and the property of an agency or instrumentality of
such a state,” where other requirements are met. 28
U.S.C. § 1610(g) (emphasis added). In TRIA, by contrast,
Congress added a parenthetical “including” clause that
merely acknowledges Bancec’s customary exceptions. At
the very least, that is one reasonable construction. The
canon that statutes should be construed to be consistent
with international law and treaty obligations requires
that reading, not the Ninth Circuit’s contrary one.

31
C. The Ninth Circuit’s Decision Exposes the
United States to Liability in Ongoing Proceedings Before the International Court of Justice
The court of appeals’ decision threatens tangible
consequences for the United States. The Treaty of
Amity provides that “[a]ny dispute between the High
Contracting Parties as to the interpretation or application of the present Treaty * * * shall be submitted to the
International Court of Justice.” Art. XXI.2, 8 U.S.T. at
913. Invoking that provision, Iran instituted proceedings
against the United States in 2016. See Certain Iranian
Assets (Iran v. U.S.), No. 164, Application Instituting
Proceedings (I.C.J. filed June 14, 2016). Iran alleges violations of the Treaty of Amity based on, among other
things, the United States’ disregard for the separate
status of Iranian entities in TRIA and other statutes. Id.
¶¶ 16, 28, 32(a). Iran cites this very case as one example.
Id. ¶ 28(a). It seeks “full reparations” for the treaty
violations. Id. ¶ 33(f ).
Earlier this year, the ICJ largely denied the United
States’ jurisdictional objections. See Certain Iranian
Assets (Iran v. U.S.), No. 164, Judgment on Preliminary
Objections (I.C.J. Feb. 13, 2019) (“ICJ Judgment”). The
Court specifically rejected the United States’ argument
that another Iranian financial institution was not a “company” protected by the Treaty. Id. ¶¶ 81-97.
The Ninth Circuit’s decision exposes the United States
to liability in those proceedings. The Ninth Circuit
denied any such prospect on the ground that the Treaty
“is intended simply to ensure that foreign corporations
are on equal footing with domestic corporations.” App.,
infra, 45a; see also U.S. Br. in Bank Melli Iran N.Y.
Rep. Office v. Weinstein, No. 10-947, at 15-16. But the
Ninth Circuit’s construction of TRIA hardly puts Iranian

32
companies on an “equal footing.” It singles them out for
discriminatory, automatic veil-piercing precisely because
of their Iranian status.
Last year, the United States announced its intent to
withdraw from the Treaty of Amity. See Michael R.
Pompeo, Sec’y of State, U.S. Dep’t of State, Remarks to
the Media (Oct. 3, 2018), https://www.state.gov/remarksto-the-media-3. But the Treaty remained in force at the
time of the Ninth Circuit’s opinion. Moreover, the ICJ
has already ruled that “the denunciation of the Treaty
announced by the United States on 3 October 2018 has no
effect on the jurisdiction of the Court in the present
case.” ICJ Judgment ¶ 30. The United States’ announcement thus does nothing to undermine the specter of liability the Ninth Circuit’s decision creates.
The Executive Branch has warned that “disregarding
separate legal personality” could “lead to substantial U.S.
taxpayer liability for takings claims * * * before international [tribunals].” Joint Statement 53. The State
Department noted in a related context that “[v]irtually all
of the Iranian blocked property that has been the subject
of attachments * * * is the subject of claims against the
U.S. government before the Iran-United States Claims
Tribunal in The Hague, where we will have to account for
it.” S. Hr’g No. 108-214, at 8; see also 1998 Pub. Papers
at 1847 (expressing similar concerns). The ongoing
proceedings at the ICJ confirm that those warnings are
well placed. The Ninth Circuit’s expansive construction
of TRIA exposes the United States to additional treaty
claims without a clear directive from Congress. For that
reason too, the Court should grant review.

33
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted.
LISA W. BOHL
MOLOLAMKEN LLP
300 N. LaSalle St.
Chicago, Illinois 60654
(312) 450-6700

JEFFREY A. LAMKEN
ROBERT K. KRY
Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
rkry@mololamken.com

Counsel for Petitioner

DECEMBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
DOCKET NO. 19-15101
————
MICHAEL BENNETT, CO-ADMINISTRATORS OF THE
ESTATE OF MARLA ANN BENNETT; LINDA BENNETT,
AS CO-ADMINISTRATORS OF THE ESTATE OF
MARIA ANN BENNETT,
Plaintiffs-Appellees,
v.
THE ISLAMIC REPUBLIC OF IRAN; THE IRANIAN
MINISTRY OF INFORMATION AND SECURITY,
Defendants,
v.
FRANKLIN RESOURCES, INC.; VISA INC.,
Third-party-plaintiffs–
Appellees,
v.
BANK MELLI,
Third-party-defendant–
Appellant,
v.
ESTATE OF MEIR KAHANE; et al.,
Third-party-defendants–
Appellees.

(1a)

2a
————
MEMORANDUM*
————
September 30, 2019
————
Appeal from the United States District Court
for the Northern District of California
Charles R. Breyer, District Judge, Presiding
————
Argued and Submitted
September 23, 2019—San Francisco, California
————
Before: THOMAS, Chief Judge, and GRABER and
BERZON, Circuit Judges.
This case comes before us for the second time. We
previously affirmed the denial of Bank Melli’s motion to
dismiss. We recognized that, for blocked assets “to be
subject to execution or attachment” under § 201(a) of the
Terrorism Risk Insurance Act (“TRIA”), “the blocked
assets must be ‘assets of ’ the instrumentality.” Bennett
v. Islamic Republic of Iran, 825 F.3d 949, 963 (9th Cir.
2016), abrogated on other grounds by Rubin v. Islamic
Republic of Iran, 138 S. Ct. 816 (2018). As relevant here,
we then held that, on the facts alleged, the blocked assets
in dispute are property of Bank Melli and so may be assigned to judgment creditors. Id. at 963-964.
Subsequently, the district court granted Plaintiffs’ motion for summary judgment, holding that the funds that
Visa deposited in the district court’s registry are Bank
* This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.

3a
Melli’s property and, therefore, are subject to attachment under TRIA § 201(a). On Bank Melli’s timely appeal from the resulting judgment, we affirm.
Bank Melli argues that a genuine issue of material fact
exists as to whether it “owns” the funds, because two of
Visa’s regulatory filings listed Visa as “owner” of the
funds. That argument is unavailing for two reasons.
First, that issue of fact is not material. Bank Melli
does not dispute any of the facts alleged in the complaint,
on which we rested our holding that the blocked assets
are property of Bank Melli. For example, Bank Melli has
a contractual right to obtain payments from Visa. Bank
Melli concedes that it has “an interest in the funds” and a
“right to receive payment of the debt that Visa owes.”
Our previous holding is now the law of the circuit, and it
controls here. See Gonzalez v. Arizona, 677 F.3d 383,
389 n.4 (9th Cir. 2012) (en banc) (holding that exceptions
to the law of the case doctrine do not apply when the prior
decision was a published opinion from this circuit, “which
must be followed unless and until overruled by a body
competent to do so” (internal quotation marks omitted)).
Second, even if we were to consider the “ownership”
facts to be material, the documents on which Bank Melli
relies do not create a genuine issue of fact. Reading the
documents as a whole and in context, they describe the
accounts as “hold[ing] Bank Melli funds.”
Given our disposition of this issue, we need not reach
the remaining arguments.
AFFIRMED.

4a
APPENDIX B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
————
DOCKET NO. 11-05807
————
MICHAEL BENNETT, et al.,
Plaintiffs,
v.
FRANKLIN RESOURCES, INC., et al.,
Defendants.
————
ORDER GRANTING MOTION FOR SUMMARY JUDGMENT,
GRANTING MOTION FOR STAY
————
December 19, 2018
————
In this case, four groups of judgment creditors
(“Plaintiffs” or “Judgment Creditors”) who hold judgments against Iran seek to recover $17.6 million in assets
(“the Blocked Assets”) held by Third Party Plaintiffs
Visa and Franklin. Although the assets are “due and owing to” Bank Melli, an Iranian instrumentality, they are
blocked by executive orders issued by the President and
regulations issued by the Department of the Treasury,
Office of Foreign Assets Control (“OFAC”). The time
has come for summary judgment. As the Court indicated
at the motion hearing, it now GRANTS Plaintiffs’ Motion
for Summary Judgment (dkt. 172), and GRANTS Bank
Melli’s Motion to Stay (dkt. 180).

5a
I. BACKGROUND
A. The Judgment Creditors
The Judgment Creditors are United States citizens, or
representatives of their estates, who hold unsatisfied
money judgments against Iran for injuries sustained in
multiple terror attacks carried out with Iran’s material
support and assistance. See Acosta v. Islamic Republic
of Iran, 574 F. Supp. 2d 15 (D.D.C. 2008); Estate of
Heiser v. Islamic Republic of Iran, 466 F. Supp. 2d 229
(D.D.C. 2006); Greenbaum v. Islamic Republic of Iran,
451 F. Supp. 2d 90 (D.D.C. 2006); Bennett v. Islamic Republic of Iran, 507 F. Supp. 2d 117 (D.D.C. 2007). Their
judgments are based on claims against Iran for which
Iran was not immune under section 1605A and/or section
1605(a)(7) of the Foreign Sovereign Immunities Act of
1976 (“FSIA”), Pub. L. No. 94-583, 90 Stat. 2891 (codified
as amended at 28 U.S.C. §§ 1602 et seq.); Bennett v. Islamic Republic of Iran, 825 F.3d 949, 955 (9th Cir. 2016)
(discussing FSIA exceptions to general rule of immunity).
The Acostas’ judgment is for $50,172,000.00; the Bennetts’ judgment is for $12,904,548.00; the Greenbaums’
judgment is for $19,879,023.00; and the Heisers’ judgment
is for $286,089,966.00. Mechling Decl. Ex. E. (dkt. 172-6)
at 2-4.1 Their combined judgments total $369,045,537.00.
The Judgment Creditors have collected approximately
$195,900,000.00 in partial satisfaction of their judgments.
See Mechling Decl. (dkt. 172) ¶ 10; Norman Decl. (dkt.
172-10) ¶ 7; Kremen Decl. ¶ 9. Their unpaid compensatory damage judgments therefore far exceed the value of
the Blocked Assets.
1

The Judgment Creditors have also been awarded punitive damages
in the amount of $600,000,000.00 in aggregate. Mechling Decl. (dkt.
172-1) ¶ 8; Kremen Decl. (dkt. 172-7) ¶ 7.

6a
B. Bank Melli
Bank Melli, Iran’s largest financial institution, is wholly
owned by Iran. Bennett, 825 F.3d at 957; Mechling Decl.
Ex. D (dkt. 172-5) ¶ 7. On August 10, 1995, OFAC recognized this, issuing a notice that Bank Melli “and all [its]
offices worldwide” are “owned or controlled by the Government of Iran.” Implementation of Executive Order
No. 12,959 with Respect to Iran, 60 Fed. Reg. 40,881,
40,884 (Aug. 10, 1995).
1. EO 13,382

On June 28, 2005, acting pursuant to, inter alia, the
authority vested in him by the International Emergency
Economic Powers Act (“IEEPA”), Pub. L. No. 95-223,
§ 202, 91 Stat. 1626 (codified as amended at 50 U.S.C.
§ 1601 et seq.), President Bush issued Executive Order
13,382. EO 13,382 blocked all property located in the
United States owned by any entity “determined by the
Secretary of State, in consultation with the Secretary of
Treasury, the Attorney General, and other relevant
agencies, to have engaged, or attempted to engage, in
activities or transactions that have materially contributed
to, or pose a risk of materially contributing to, the proliferation of weapons of mass destruction or their means of
delivery.” Blocking Property of Weapons of Mass Destruction Proliferators and Their Supporters, 70 Fed.
Reg. 38,567, 38,567, § 1 (June 28, 2005). On October 25,
2007, Bank Melli was designated an entity “whose property and interests in property are blocked pursuant to
Executive Order 13382.” Additional Designation of Entities Pursuant to Executive Order 13,382, 72 Fed. Reg.
62,520, 62,521 (Nov. 5, 2007).
On January 16, 2016, Bank Melli’s Executive Order
13,382 designation was removed. See Changes to Sanctions Lists Administered by the Office of Foreign Assets

7a
Control on Implementation Day Under the Joint Comprehensive Plan of Action, 81 Fed. Reg. 13,562, 13,562,
13,564 (Mar. 14, 2016).
2. EO 13,599

On February 5, 2012, acting pursuant to the authority
vested in him by, inter alia, IEEPA, President Obama
issued Executive Order 13,599, which blocked “[a]ll property and interests in property of the Government of Iran,
including the Central Bank of Iran, that are in the United
States, that hereafter come within the United States, or
that are or hereafter come within the possession or control of any United States person.” Blocking Property of
the Government of Iran and Iranian Financial Institutions, 77 Fed. Reg. 6659, 6659, § 1(a) (Feb. 5, 2012). EO
13,599 defines “Government of Iran” to “mean[ ] the Government of Iran, any political subdivision, agency, or instrumentality thereof, including the Central Bank of
Iran, and any person owned or controlled by, or acting
for or on behalf of, the Government of Iran.” Id. at 6660,
§ 7(d). OFAC then promulgated the Iranian Transactions
and Sanctions Regulations (“ITSRs”) pursuant to IEEPA in order to implement the EO. See Iranian Transactions Regulations, 77 Fed. Reg. 64,664 (Oct. 22, 2012); 31
C.F.R. Part 560. The ITSRs similarly both define “Government of Iran” and block its property. See 31 C.F.R.
§§ 560.211(a), 560.304(a)-(c).
On January 16, 2016, the same day Bank Melli’s Executive Order 13,382 designation was removed, OFAC published a “list of persons identified by OFAC as meeting
the definition of the term Government of Iran or the term
Iranian financial institution as set forth in, respectively,
sections 560.304 and 560.321 of the ITSR.” Office of
Foreign Assets Control, List of Persons Identified as
Blocked Solely Pursuant to Executive Order 13,599 at 1

8a
(Aug. 15, 2018), available at https://www.treasury.gov/
ofac/downloads/13599/13599list.pdf (hereinafter “13599
List”). OFAC identified Bank Melli on the 13599 List as
an entity meeting the definition of Government of Iran.
Id. at 5. EO 13,599 is self-executing: “[t]he property and
interests in property falling within the definition of the
terms Government of Iran and Iranian financial institutions are blocked pursuant to this section regardless of
whether the names of such persons are” identified on the
EO 13599 List. See 31 C.F.R. § 560.211 Note 1.
3. EO 13,244

In addition, on November 5, 2018, the United States
announced that it had added Bank Melli to the Specially
Designated Nationals and Blocked Persons List (“SDN
List”), designating it a Specially Designated Global Terrorist (“SDGT”). See Mechling Reply Decl. Ex. A (dkt.
184-2) at 2-3 & Ex. B (dkt. 184-3) at 3. President Bush
issued Executive Order 13244 pursuant to, inter alia,
IEEPA; that Order blocks all property of foreign persons designated as an SDGT. See Executive Order
13224, 66 Fed. Reg. 49,079, 49,079 (Sept. 23, 2001); see
also 31 C.F.R. § 594.201, 594.310.
C. The Blocked Assets
On April 15, 1991, Bank Melli applied to Visa International Service Association (“Visa International”) to become a principal member in Visa International’s “common bank card and/or travelers cheque program.” Bailey
Decl. Ex. 1 (dkt. 172-13). As part of the application, Bank
Melli entered into a Membership Agreement with Visa
International. Id. Visa is a corporation organized under
the laws of the State of Delaware with a principal place of
business in Foster City, California. Bailey Decl. (dkt.
172-12) ¶ 3. Bank Melli admits that “it is or was a party
to an agreement with Visa or a Visa affiliate pursuant to

9a
which Bank Melli agreed to accept Visa cards in Iran
through its branches in that country, and that certain
amounts are due and owing to Bank Melli pursuant to
that agreement.” Mechling Decl. Ex. D.
In or about April 1995, OFAC “informed Visa that,
owing to sanctions imposed against [Iran], Visa could no
longer accept transactions acquired by Bank Melli.” Bailey Decl. ¶ 8. On July 4, 1995, Visa International informed Bank Melli that, because Bank Melli’s accounts at
Bank of New York had been frozen, Visa International
transferred funds due to Bank Melli “to a separate settlement account.” Bailey Decl. Ex. 3 (dkt. 172-15); Bailey
Decl. ¶ 8. “Shortly thereafter, all . . . transactions [acquired by Bank Melli] ceased, leaving certain sums owing
to Bank Melli’s settlement account.” Bailey Decl. ¶ 8. On
March 15, 1996, “Visa International invested the
$2,570,465.26 then due and owing to Bank Melli in securities issued by the Institutional Fiduciary Trust.” Id. ¶ 9.
Subsequently, “[a]dditional funds due and owing to Bank
Melli were invested in securities issued by the Institutional Fiduciary Trust up until January 9, 1998.” Id. ¶ 10.
Bank Melli wrote to Visa on January 25, 2004, stating,
“our funds for acquiring transactions made by VISA
cardholders in Iran from 6/6/95 till cease of operations
are $11,587,627.02 which are held with [Visa International].” Bailey Decl. Ex. 4 (dkt. 172-16) (emphasis added).
Visa International held the funds in an account named
Visa International Special Account 5. Bailey Decl. ¶ 11.
On September 29, 2010, Visa International submitted
an Annual Report of Blocked Property, as required by
OFAC regulations. Bailey Decl. Ex. 6 (dkt. 172-18). In
that report, Visa International reported to OFAC that it
had blocked Visa International Special Account 5. Id.
Visa International reported that the value of the blocked

10a
account was $17,648,962.76. Id. The report lists Visa International as the “owner” but states, “Account holds
Bank Melli funds.” Id. Visa International submitted a
second Annual Report on September 27, 2011. See Bailey Decl. Ex. 7 (dkt. 172-19). That report also lists Visa
International as the “owner” but includes the same account number as the 2010 report, the same “Visa International Special Account 5” name, and the same value of
$17,648,962.76. Id.
As of May 9, 2012, “the total amount due and owing
(but not paid to) Bank Melli, including interest and return on investment, was $17,648,962.76.” Bailey Decl.
¶ 10. On that date, “Visa deposited the outstanding funds
due and owing to Bank Melli, plus interest and any return on investment, in the Court’s Registry amounting to
$17,648,962.76.” Bailey Decl. ¶ 12; Mechling Decl. Ex. C;
Notice (dkt. 89). Visa and Franklin have disclaimed any
interest in the funds. Compl. (dkt. 16) ¶ 4.
D. Procedural History
Visa and Franklin brought this interpleader action “to
obtain a determination as to which [of the groups of
judgment creditors], if any, has priority with respect to
[the Blocked Assets] to satisfy their judgments or their
claims.” Id. In February of 2014, this Court denied
Bank Melli’s motion to dismiss, but certified the matter
for interlocutory appeal. See generally MTD (dkt. 112);
Order Denying MTD (dkt. 128). The Ninth Circuit affirmed in a series of orders, the Supreme Court denied
certiorari, and now the case is back in this Court. See
Bennett v. Islamic Republic of Iran, 799 F.3d 1281 (9th
Cir. 2015); Bennett v. Islamic Republic of Iran, 817 F.3d
1131 (9th Cir. 2016); Bennett, 825 F.3d 949; Bank Melli v.
Bennett, 138 S. Ct. 1260 (2018).

11a
The Judgment Creditors have moved for summary
judgment “directing the turnover to the Judgment Creditors of the [Blocked Assets] deposited with the Court’s
Registry.” See MSJ at 2. Visa and Franklin also moved
for discharge and for an award of $324,130.60 in attorneys’ fees. See Fees Mot. (dkt. 175). Bank Melli opposed
both motions, see Opp’n to Fees Mot. (dkt. 181); Opp’n to
MSJ (dkt. 179) and moved to stay enforcement during
appeal, see Motion to Stay. Plaintiffs replied and opposed the Stay, see Reply re MSJ (dkts. 185, 186); and
Bank Melli filed a reply in support of its Motion to Stay,
see Reply re Stay (dkt. 189). The Court granted the discharge and fees motion on the papers, see Order re Discharge and Fees (dkt. 190), though stayed disbursement
of the fees until after hearing the Motion to Stay, see Order re Ex Parte Mot. (dkt. 192). Accordingly, the two
pending motions are the Motion for Summary Judgment
and the Motion to Stay.
II. LEGAL STANDARD
A. Summary Judgment
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A fact is material if it could
affect the outcome of the case under governing law. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A
dispute of material fact is genuine if the evidence, viewed
in the light most favorable to the nonmoving party, “is
such that a reasonable jury could return a verdict for the
nonmoving party.” Id.
The party moving for summary judgment bears the initial burden of identifying those portions of the pleadings,
discovery, and affidavits that demonstrate the absence of
a genuine issue of material fact. Celotex Corp. v. Catrett,

12a
477 U.S. 317, 323 (1986). On an issue on which it will have
the burden of proof at trial, the moving party must affirmatively show that no reasonable jury could find other
than in the moving party’s favor. Id. at 331 (Brennan, J.,
dissenting).
Once the moving party meets its initial burden, the
nonmoving party must go beyond the pleadings and show
that there is a genuine issue for trial. Anderson, 477 U.S.
at 250. The nonmoving party does this by citing to specific
parts of the materials in the record or by showing that
the materials cited by the moving party do not compel a
judgment in the moving party’s favor. Fed. R. Civ. P.
56(c). Because the court has no obligation to “scour the
record in search of a genuine issue of triable fact,” the
nonmoving party must “identify with reasonable particularity the evidence that precludes summary judgment.”
Kennan v. Allan, 91 F.3d 1275, 1279 (9th Cir. 1996). If
the nonmoving party fails to raise a genuine issue as to
any material fact, the moving party is entitled to judgment as a matter of law. Anderson, 477 U.S. at 250. In
determining whether there is a genuine issue for trial,
the court does not weigh the evidence, assess the credibility of witnesses, or resolve issues of fact. Id. at 249.
B. Stay
Pursuant to Federal Rule of Civil Procedure 62(b)
(formerly 62(d)2), “[a]t any time after judgment is entered, a party may obtain a stay by providing a bond or
other security. The stay takes effect when the court approves the bond or other security and remains in effect
2

See Fed. R. Civ. P. advisory committee note to 2018 amendment
(“Subdivisions (a), (b), (c), and (d) of former Rule 62 are reorganized . . . . Subdivision 62(b) carries forward in modified form the
supersedeas bond provisions of former Rule 62(d).”).

13a
for the time specified in the bond or other security.”
When a litigant complies with the rule by appealing “and
post[ing] a supersedeas bond with the district court, it
[is] entitled to a stay as a matter of right.” See American
Civil Liberties Union of Nevada v. Masto, 670 F.3d 1046,
1066 (9th Cir. 2012).
III. DISCUSSION
Plaintiffs argue that Bank Melli’s legal challenges
have been resolved, that all of the requirements of TRIA
have been satisfied, and that the time has come for the
Court to enter judgment in their favor. See generally
MSJ. Bank Melli opposes, arguing that the Court should
deny summary judgment because (A) the Blocked Assets
are not “assets of ” Bank Melli; (B) the Blocked Assets
are not validly blocked; (C) there are other arguments
that Bank Melli would like the Supreme Court to address; and (D) even if the Court is inclined to grant summary judgment, the Court should stay enforcement
pending appellate review. See generally Opp’n to MSJ;
Reply re Stay. This Order addresses each argument in
turn, finding persuasive only the argument for a stay.
A. “Assets of ” Bank Melli
Bank Melli’s first argument opposing summary judgment is that TRIA requires ownership, and that Plaintiffs have not met their burden of demonstrating ownership here, because (1) there is a dispute over the ownership of the funds; and (2) Bank Melli’s intangible right to
receive payment is not a property right subject to this
Court’s jurisdiction. See Opp’n to MSJ at 7-11. The
Court rejects both points.
1. Dispute over Ownership of Funds

Bank Melli argues that the Court cannot grant summary judgment for Plaintiffs because there is a genuine
factual dispute about who owns the funds in the Court’s

14a
Registry. See id. at 7-8. Bank Melli argues that “TRIA
permits execution only against ‘blocked assets of [a] terrorist party,’ ” and that the “evidence produced in discovery makes clear that Visa, not Bank Melli, is the owner of
the funds.” Id. at 7 (citing TRIA § 201(a)). It bolsters
this argument by adding that Visa’s repeated assertion
that the funds are “due and owing” to Bank Melli “necessarily means that Bank Melli does not already own
them.” Id. at 8 (citing United States v. Rodrigues, 159
F.3d 439 (9th Cir. 1998), amended on denial of reh’g, 170
F.3d 881 (9th Cir. 1999); Broad. Music, Inc. v. Hirsch,
104 F.3d 1163, 1166 (9th Cir. 1997)).3
Bank Melli has asserted repeatedly that it owns the
funds. See, e.g., Opp’n to Fees Mot. at 12 (arguing that
Visa and Franklin should not be awarded legal fees from
the Blocked Assets because Visa an Franklin’s “legal fees
. . . should be borne by them—not by Bank Melli”); Opp’n
to MSJ at 19 (emphasis added) (seeking stay because if
Blocked Assets “in the Court’s registry are distributed to
the hundreds of Judgment Creditors in this case, as a
practical matter Bank Melli will never be able to recover
them”); Bailey Decl. Ex. 4 (emphasis added) (Bank Melli
1/25/04 letter to Visa: “our funds for acquiring transactions made by VISA cardholders in Iran from 6/6/95 till
cease of operations are $11,587,627.02 which are held with
[Visa International].”). Visa, for its part, “claims no beneficial ownership in the $17,648,962.76 (and any interest
thereon) in the Court’s Registry.” See Bailey Decl. ¶ 13.
Moreover, the Ninth Circuit held unambiguously at
the motion to dismiss phase of the case that Bank Melli
3

The Court already rejected this authority at the motion to dismiss
phase, ruling that these cases “support[ ] the uncontroversial point
that having an interest in property is not necessarily the same thing
as owning property.” See Order Denying MTD at 14.

15a
owns the funds. See Bennett, 825 F.3d at 963 (“The
blocked assets are property of Bank Melli”; discussing
Bank Melli argument “that TRIA § 201(a) . . . [does] not
permit attachment of the assets here because Visa and
Franklin own the blocked assets” and concluding under
California and federal law that “those assets are property
of Bank Melli and may be assigned to judgment creditors.”). That ruling took into account Bank Melli’s argument that the money is only “due and owing” and not
currently in Bank Melli’s possession. See id. at 963-964
(discussing California law re right to funds “that are due
or will become due” and “money owed to Bank Melli”).
That two Annual Reports list Visa as the “owner” of
the funds does not undermine the conclusion that the
Blocked Assets are Bank Melli’s property. Those same
reports identify the accounts as holding Bank Melli
funds—explicitly in the 2010 report, and by referencing
the same account name and value in the 2011 report. See
Bailey Decl. Exs. 6, 7. Indeed, this Court just held, in
granting discharge to Visa and Franklin, that “Bank
Melli’s contention that Visa is the true owner of the funds
is foreclosed by the Ninth Circuit’s ruling . . . and by a
common sense reading of the Annual Reports.” See
Order re Discharge and Fees at 6. Put in terms of
summary judgment, there is no genuine dispute about
the ownership of the funds, because a reasonable jury
could not find that they belong to Visa. See Anderson,
477 U.S. at 248.
2. Intangible Property Rights

Bank Melli next argues that even if it has a “contractual right to obtain payments from Visa and Franklin,”
which is a type of property that satisfies TRIA, “that
would not mean that the blocked assets . . . are property
of Bank Melli.” Opp’n to MSJ at 8-9. Bank Melli asserts

16a
that this is an interpleader action relating only to the
Blocked Assets—and that its “intangible property right”
is beyond the jurisdiction of an interpleader. Opp’n to
MSJ at 9-10 (citing, inter alia, State Farm Fire & Cas.
Co. v. Tashire, 386 U.S. 523, 534 (1967) (“the fund itself is
the target of the claimants”)). It maintains that even if
“an intangible right to receive payment could be seized in
some other case, that would not support the relief sought
here,” because this is an interpleader. Id. at 9.
There are a few problems with this argument. As a
threshold matter, the contention that Bank Melli’s “contractual right to obtain payments” does “not mean that
the blocked assets” are Bank Melli’s property, see id. at
8-9, flies in the face of the Ninth Circuit holding to the
contrary. See Bennett, 825 F.3d at 963. Needless to
say, the Judgment Creditors are not trying to seize an
intangible property right; they are trying to seize the
$17,648,962.76 in the Court’s Registry. See MSJ at 7
(“The Blocked Assets are subject to execution in partial
satisfaction of the Judgment Creditors’ judgments.”). As
for Visa and Franklin’s interpleader complaint, it does
not separate out Bank Melli’s “right . . . to receive payment,” see Opp’n to MSJ at 10, from the Blocked Assets
themselves; rather, it defines the Blocked Assets as
“funds due and owing by contract to Bank Melli pursuant
to a contractual relationship with that bank,” see Compl.
¶ 16. This definition did not trouble the Ninth Circuit,
which held that the Blocked Assets are the property of
Bank Melli because “Bank Melli has a contractual right
to obtain payments from Visa and Franklin” and “[u]nder
California law, those assets are property of Bank Melli
and may be assigned to judgment creditors.” See Bennett, 825 F.3d at 964.

17a
A further problem is that the State Farm case that
Bank Melli relies on (the only controlling authority it
cites), which held that “the fund itself is the target,” was
explaining that the district court could not take the occasion of an interpleader to enjoin claimants from litigating
related suits in different forums. See State Farm, 386
U.S. at 533; see also id. at 535 (interpleader “cannot be
used to solve all the vexing problems of multiparty litigation arising out of a mass tort.”). The Court cautioned
that “the mere existence of such a fund cannot, by use of
interpleader, be employed to accomplish purposes that
exceed the needs of orderly contest with respect to the
fund.” Id. at 534. Here, of course, the only thing taking
place is a contest with respect to the fund. The Bennett
Judgment Creditors filed a complaint in this Court seeking a turnover of the Blocked Assets, held in this district
by Visa and Franklin for the benefit of Iran, see Bennett
Compl. (dkt. 1); Visa and Franklin brought this interpleader action “to obtain a determination as to which [of
the groups of judgment creditors], if any, has priority
with respect to [the Blocked Assets] to satisfy their judgments or their claims,” Compl. ¶ 4; and the Greenbaum
Judgment Creditors, Acosta Judgment Creditors, and
Heiser Judgment Creditors all filed answers asserting
their own entitlement to the Blocked Assets, see Answers
(dkts. 40, 41, 91). As Plaintiffs point out, Bank Melli’s
authority does not stand for the proposition “that a district court presiding over an interpleader proceeding
lacks authority to decide whether particular claimants to
a fund are entitled to those funds . . . where they have
voluntarily decided to litigate their rights as part of that
proceeding.” See Reply re MSJ at 5-6. The Court therefore rejects Bank Melli’s argument that there is no interpleader jurisdiction.

18a
Bank Melli also argues that its “intangible right to receive payment” is beyond the Court’s territorial jurisdiction, because that right is located outside of the United
States. Opp’n to MSJ at 10-11 (quoting Rubin v. Islamic
Republic of Iran, 830 F.3d 470, 475 (7th Cir. 2016) (“property subject to execution ‘must be within the territorial
jurisdiction of the district court.’ ”)). Relying on two
Fifth Circuit cases, Bank Melli contends that where there
is “ ‘an overriding national concern,’ federal law may require that the situs ‘be in still a different place.’ ” Id. at
11 (citing Tabacalera Severiano Jorge, S.A. v. Standard
Cigar Co., 392 F.2d 706, 714-715 (5th Cir. 1968); Callejo v.
Bancomer, S.A., 764 F.2d 1101, 1122 (5th Cir. 1985)).
Bank Melli contends that, like the act of state doctrine at
issue in Tabacalera and Callejo, sovereign immunity implicates an overriding national concern, and so the Court
should find that the situs of the debt is Iran. Id.
A Ninth Circuit case forecloses Bank Melli’s territorial
jurisdiction argument. In Peterson v. Islamic Republic
of Iran, 627 F.3d 1117, 1130 (9th Cir. 2010), a case arising
under FSIA, the Ninth Circuit addressed the question of
whether “Iran’s rights to payment from [a French debtor] constitute ‘property in the United States.’ ” The court
explained that “[e]nforcement proceedings in federal district court are governed by the law of the state in which
the court sits” unless there is an applicable federal law.
Id. The court then explained that California law holds
that “the location of a right to payment . . . is the location
of the debtor,” and that therefore a right to payment is
“assignable only if [the debtor resides] in the United
States.” Id. at 1131. Because the debtor in that case was
a French corporation, “the debt obligation it owe[ ]d to
Iran [was] located in France.” Id. Here, because Visa
International, Bank Melli’s debtor, resides in the United

19a
States, see Bailey Decl. ¶ 3, Bank Melli’s ownership interest in the Blocked Assets is located in the United
States. The Court therefore rejects Bank Melli’s argument that there is no territorial jurisdiction.
B. Funds Invalidly Blocked
Bank Melli next argues that “TRIA allows execution
only against ‘blocked assets’ ” and that the funds here
have not been not validly blocked. Opp’n to MSJ at 11
(quoting TRIA § 201(d)(2)). It argues that EO 13,382 is
no longer in effect, and that EO 13,599 violates its due
process rights. Id. at 11-15. It did not respond to Plaintiffs’ assertion in their Reply brief that EO 13,244 is a
separate and independent ground for the Court to find
the Blocked Assets blocked under TRIA. See Reply re
MSJ at 14-15. The Court holds that the funds are validly
blocked.
1. Executive Order 13,382 and Section 544.402

First, Plaintiffs concede that “Bank Melli’s Executive
Order 13,382 designation was removed,” but they argue
that it still has effect in this case, because of OFAC regulation 31 C.F.R. § 544.402. See MSJ at 12. Section
544.402 provides:
Unless otherwise specifically provided, any . . . revocation of any provision in or appendix to this part
or chapter or of any order, regulation, ruling, instruction, or license issued by or under the direction of the Director of the Office of Foreign Assets
Control does not affect any act done or omitted, or
any civil or criminal suit or proceeding commenced
or pending prior to such . . . revocation.
31 C.F.R. § 544.402 (emphasis added). Plaintiffs’ interpretation of section 544.402 is that the revocation of an
order does not affect a pending civil suit, like this one.

20a
See MSJ at 12. Bank Melli’s interpretation of the same
section is that it applies “only to revocation of orders by
OFAC.” See Opp’n to MSJ at 14. It argues that EO
13,382 was not revoked by OFAC, but as a result of the
Joint Comprehensive Plan of Action (“JCPOA”). Id. (citing JCPOA annex II, § 4.8.1 & attach. 3).
The section is not altogether clear, but it does not
matter. While the JCPOA was the means by which the
United States “commit[ted] to cease the application of,
and to seek such legislative action as may be appropriate
to terminate, or modify to effectuate the termination of,
all nuclear-related sanctions,” such as Bank Melli’s
13,382 designation, see JCPOA annex II, §§ 4, 4.8.2 &
attach. 3, available at https://www.state.gov/documents/
organization/245320.pdf, it was OFAC that effectuated the
revocation, see Changes to Sanctions Lists Administered
by the Office of Foreign Assets Control on Implementation Day Under the Joint Comprehensive Plan of Action,
81 Fed. Reg. 13,562, 13,562 (Mar. 14, 2016) (“On January
16, 2016, OFAC determined,” among other things, that
Bank Melli “was no longer blocked pursuant to . . . E.O.
13382.”). Accordingly, even Bank Melli’s interpretation
of 544.402 has been met.
Bank Melli argues, however, that section 544.402 is
“ineffective as contrary to TRIA.” Id. (quoting Chevron
U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837,
842-843 (1984) (“agency regulation has no effect when it
conflicts with the ‘unambiguously expressed intent of
Congress.’ ”)). It contends that TRIA states only that
“blocked assets” are subject to execution, but says nothing about “formerly blocked assets.” Id. No matter. If
assets are blocked pursuant to Executive Order 13,382
and then remain blocked by operation of section 544.402,

21a
then they remain “blocked assets,” not “formerly blocked
assets.” There is no conflict.
Accordingly, the Blocked Assets are blocked by EO
13,382.
2. Executive Order 13,599

Second, Plaintiffs contend that EO 13,599 also operates to block the funds at issue here. See MSJ at 11-12.
The same day that Bank Melli’s EO 13,382 designation
was removed, OFAC identified Bank Melli on the EO
13,599 List as an entity whose property was blocked. See
81 Fed. Reg. at 13,562 n.1, 13,591 (“The purpose of the
E.O. 13599 list is to clarify that, regardless of their removal from the SDN list, persons that OFAC previously
identified as meeting the definition of the terms ‘Government of Iran’ or ‘Iranian financial institution’ continue
to meet those definitions and continue to be persons
whose property and interests in property are blocked
pursuant to Executive Order 13599 . . . .”); see also 60
Fed. Reg. at 40,884 (identifying Bank Melli as a bank
“determined to be owned and controlled by the Government of Iran.”). Bank Melli argues that EO 13,599 is invalid, however, because it violates Bank Melli’s due process rights. See Opp’n to MSJ at 12-13. It argues that
EO 13,599 “left the President no discretion at all,” “did
not result from any OFAC determination,” “was not
based on any findings unique to Bank Melli,” and denied
Bank Melli a chance to contest its designation. Id. at 13.
Plaintiffs demonstrate that the applicable blocking
provision here, blocking “property and interests in property of the Government of Iran,” is actually not the blocking provision that Congress mandated. See Reply re
MSJ at 10 (citing EO 13599, 77 Fed. Reg. at 6660, § 7(d);
22 U.S.C. § 8513a(c) (“The President shall . . . block and
prohibit all transactions in all property and interests in

22a
property of an Iranian financial institution.”)). This does
away with Bank Melli’s discretion argument. Moreover,
it appears that various entities did make findings specific
to Bank Melli. See id. at 10-11 (collecting quotations
from Congress, Secretary of Treasury, President Obama).
Even the language cited above reflects that Bank Melli’s
13,599 designation is based on OFAC’s previous determination that Bank Melli continued to meet the definition of “Government of Iran” or “Iranian financial institution.” See 81 Fed. Reg. at 13,562 n.1, 13,591. Particularly
illogical is Bank Melli’s complaint that it was denied a
chance to contest its designation: there is no dispute that
Bank Melli is an instrumentality of the Government of
Iran. Bank Melli admitted as much in its Answer in this
case. See Mechling Ex. D (Answer) ¶ 7 (“Bank Melli
admits that it is currently wholly owned by the Islamic
Republic of Iran and that it is an instrumentality of the
Islamic Republic of Iran within the meaning of [FSIA]
§ 1603(b).”).
Accordingly, the Blocked Assets are blocked by EO
13,599.
3. Executive Order 13,224

Third, Plaintiffs also assert that the very recent EO
13,224 blocks the assets in this case. See Reply re MSJ
at 14-15. This is also true. See Mechling Reply Decl. Ex.
A (dkt. 184-2) at 2 (“Bank Melli is being designated
pursuant to E.O. 13224 for assisting in, sponsoring, or
providing financial, material, or technological support for,
or financial or other services to or in support of, the
IRGC-QF, which was previously designated pursuant to
E.O. 13224 on October 25, 2007.”); 66 F.R. 49079 (blocking “all property and interests in property of the following persons . . .” in light of “grave acts of terrorism . . .
constitut[ing] an unusual and extraordinary threat”). EO

23a
13,224 is therefore a third independent basis for finding
that the Blocked Assets are validly blocked.
C. Other Reasons
Bank Melli next argues that there are numerous arguments it could make for why the Court should deny summary judgment, but that the Ninth Circuit has already
rejected those arguments. See Opp’n to MSJ at 15-17.
“Bank Melli acknowledges that this Court is bound by
the Ninth Circuit’s decision.” Id. at 15. It lists the
arguments nonetheless to preserve them for Supreme
Court review. Id. at 16. Accordingly, this Court does not
reach Bank Melli’s “Other Reasons.”
Because Plaintiffs have satisfied the requirements of
TRIA, and because Bank Melli’s arguments are unpersuasive, the Court GRANTS summary judgment for
Plaintiffs.
D. Stay of Enforcement
Lastly, Bank Melli asks the Court to stay any enforcement or execution until after appellate and Supreme
Court review. See Mot. to Stay at 17-20. Bank Melli argues that it is entitled to a stay as a matter of right, and,
in the alternative, that the Court should grant a discretionary stay. Id.
The Court does not grant a discretionary stay, nor
would it. But Bank Melli is entitled to a stay as a matter
of right. Rule 62(b) states that “[a]t any time after judgment is entered, a party may obtain a stay by providing a
bond or other security. The stay takes effect when the
court approves the bond or other security and remains in
effect for the time specified in the bond or other security.”
When a litigant complies with that rule by appealing “and
post[ing] a supersedeas bond with the district court, it
[is] entitled to a stay as a matter of right.” See Masto,

24a
670 F.3d at 1066; see also Matter of Combined Metals
Reduction Co., 557 F.2d 179, 193 (9th Cir. 1977) (“[s]ince
no bond was posted, the grant or denial of the stays was a
matter strictly within the judge’s discretion.”).
Bank Melli argues that “the funds already deposited in
the Court’s registry satisfy [the Rule’s] bond requirement.” Mot. to Stay at 17 (citing Rachel v. Banana Republic, Inc., 831 F.2d 1503, 1505 n.1 (9th Cir. 1987) (“purpose of a supersedeas bond is to secure the appellees
from a loss resulting from the stay of execution”)). Plaintiffs do not really disagree. See Opp’n to Mot. to Stay at
16 (conceding that “ordinarily, courts waive the posting
of a supersedeas bond where the funds at issue in a litigation are deposited with the Court’s Registry.”). Indeed,
Rule 62(b) makes explicit that something like a bond—a
“bond or other security”—will do. See Fed. R. Civ. P.
62(b). Plaintiffs argue, however, that ordinarily the party
requesting the stay claims to own the funds deposited
with the court, and that, “[b]ecause Bank Melli refuses to
acknowledge any ownership interest in or right to the
Blocked Assets . . . the Court should deny Bank Melli’s
motion for a stay.” Opp’n to Mot. to Stay at 16.
But the Rule does not actually require that the party
seeking a stay be, or claim to be, the “owner” of the contested funds. See Fed. R. Civ. P. 62(b). What is important is that the funds deposited with the Court be sufficient to protect Plaintiffs from loss while the execution
is stayed. See Rachel, 831 F.2d at 1505 n.1. The Blocked
Assets in the Registry will do so, to the same extent that
a supersedeas bond would.4 Yes, there remains the pos4

At the motion hearing, the Court raised the question of Plaintiffs’
fees on appeal. However, in the absence of an applicable fee-shifting
statute, Bank Melli need not deposit additional funds to cover such fees.

25a
sibility, however remote, that some future operation of
law will retroactively undo all three of the Executive
Orders that the Court today holds are blocking the funds.
See 31 C.F.R. § 544.402. But it strikes the Court that if
that indeed takes place, then Plaintiffs would not be entitled to the funds. The Court is sympathetic to Plaintiffs’ argument that they are presently entitled to the
funds and that such entitlement should not be jeopardized through delay, but the Court cannot short-circuit the
appellate process or the requirements of civil procedure.
Because Rule 62(b) is met, see Masto, 670 F.3d at 1066,
the Court GRANTS the motion to stay execution until
after appellate and Supreme Court review.
IV. CONCLUSION
For the foregoing reasons, the Court GRANTS the
Motion for Summary Judgment and GRANTS the Motion
to Stay.
IT IS SO ORDERED.
Dated: December 19, 2018



CHARLES R. BREYER
United States District Judge

26a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
DOCKET NOS. 13-15442, 13-16100
————
MICHAEL BENNETT; LINDA BENNETT,
AS CO-ADMINISTRATORS OF THE ESTATE OF
MARIA ANN BENNETT,
Plaintiffs-Appellees,
v.
THE ISLAMIC REPUBLIC OF IRAN,
Defendant,
v.
VISA INC.; FRANKLIN RESOURCES, INC.,
Defendants-third-partyplaintiffs–Appellees,
v.
GREENBERG AND ACOSTA JUDGMENT CREDITORS,
Plaintiff-third-partydefendant–Appellee,
HEISER JUDGMENT CREDITORS,
Plaintiff-fourth-partydefendant–Appellee,
v.
BANK MELLI,
Plaintiff-third-partydefendant–Appellant.

27a
————
ORDER AND AMENDED OPINION
————
June 14, 2016
————
Appeals from the United States District Court
for the Northern District of California
Charles R. Breyer, Senior District Judge, Presiding
————
Argued and Submitted
April 15, 2015—San Francisco, California
————
Before: Sidney R. Thomas,* and Susan P. Graber, Circuit
Judges, and Dee V. Benson,** Senior District Judge.
————
Order;
Opinion by Judge Graber;
Partial Concurrence and Partial Dissent by
Judge Benson
————
ORDER
The opinion and partial dissent filed February 22,
2016, and reported at 817 F.3d 1131, are amended by the

* Chief Judge Thomas was drawn to replace Judge Kozinski. He has
read the briefs, reviewed the record, and listened to the audiorecording of oral argument held on April 15, 2015.
** The Honorable Dee V. Benson, Senior District Judge for the U.S.
District Court for the District of Utah, sitting by designation.

28a
opinion and partial dissent filed concurrently with this
order.
With these amendments, Judges Thomas and Graber
have voted to deny Appellant’s petition for panel rehearing and petition for rehearing en banc. Judge Benson
has voted to grant the petition for panel rehearing and
has recommended granting the petition for rehearing en
banc.
The full court has been advised of the petition for rehearing en banc, and no judge of the court has requested
a vote on it.
Appellant’s petition for panel rehearing and petition
for rehearing en banc are DENIED. No further petitions for panel rehearing or for rehearing en banc may be
filed.
OPINION
GRABER, Circuit Judge:
Approximately 90 United States citizens (or the representatives of their estates) are attempting to collect on
unsatisfied money judgments that they hold against the
Islamic Republic of Iran for deaths and injuries suffered
in terrorist attacks sponsored by Iran. The assets that
are the subject of this interpleader action are monies contractually owed to Bank Melli by Visa Inc. and Franklin
Resources Inc. (“Franklin”). Bank Melli is an instrumentality of Iran. It asserts that Plaintiffs cannot execute on
the assets (1) because Bank Melli enjoys sovereign immunity under the Foreign Sovereign Immunities Act of
1976 (“FSIA”), (2) because the relevant statutory exceptions to sovereign immunity may not be applied retroactively, (3) because the blocked assets are not property
of Bank Melli, and (4) because Bank Melli is a required
party that cannot be joined, thus requiring dismissal un-

29a
der Federal Rule of Civil Procedure 19. We disagree
and, accordingly, affirm the judgment of the district
court.
BACKGROUND LEGAL PRINCIPLES
The jurisdiction of the United States over persons and
property within its territory “is susceptible of no limitation not imposed by itself.” Schooner Exch. v. McFaddon, 11 U.S. (7 Cranch) 116, 136 (1812). Accordingly,
foreign sovereign immunity is “a matter of grace and
comity rather than a constitutional requirement.” Republic of Austria v. Altmann, 541 U.S. 677, 689 (2004).
Courts consistently “defer[ ] to the decisions of the political branches” on whether to take actions against foreign
sovereigns and their instrumentalities. Id. (quoting Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 486
(1983)).
The FSIA, 28 U.S.C. §§ 1330, 1602-1611, establishes a
default rule that foreign states are immune from suit in
United States courts. Id. at § 1604. Congress enacted
the statute to provide a “comprehensive . . . ‘set of legal
standards governing claims of immunity in every civil action against a foreign state or its political subdivisions,
agencies, or instrumentalities.’ ” Altmann, 541 U.S. at
691 (quoting Verlinden B.V., 461 U.S. at 488). The FSIA
provides the exclusive vehicle for subject matter jurisdiction in all civil actions against foreign state defendants.
Bank Markazi v. Peterson, 136 S. Ct. 1310, 1317 n.1
(2016); OBB Personenverkehr AG v. Sachs, 136 S. Ct.
390, 393 (2015); Flatow v. Islamic Republic of Iran, 308
F.3d 1065, 1069 (9th Cir. 2002).
The FSIA includes many exceptions to its general rule
of immunity. 28 U.S.C. §§ 1605-1607. Relevant here, in
1996, Congress added a new exception, stripping a foreign state of its sovereign immunity when (1) the United

30a
States officially designates the foreign state a state sponsor of terrorism and (2) the foreign state is sued “for personal injury or death that was caused by an act of torture, extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support or resources for
such an act.” Id. at § 1605A.
Iran was designated a terrorist party pursuant to section 6(j) of the Export Administration Act of 1979, 50
U.S.C. app. § 2405(j) (effective Jan. 19, 1984). Peterson v.
Islamic Republic of Iran, 627 F.3d 1117, 1123 (9th Cir.
2010); Weinstein v. Islamic Republic of Iran, 609 F.3d
43, 48 (2d Cir. 2010). That designation means that Iran is
not entitled to sovereign immunity for claims under
§ 1605A.
Separately, the FSIA addresses the immunity of sovereign property from execution and attachment. Subject
to enumerated exceptions, a foreign state’s property in
the United States is immune from attachment and execution. 28 U.S.C. § 1609.
In First National City Bank v. Banco Para el Comercio Exterior de Cuba (“Bancec”), 462 U.S. 611, 620-621
(1983), the Supreme Court concluded that the FSIA did
not control whether and to what extent instrumentalities
could be held liable for the debts of their sovereigns.
Applying international law and federal common law, the
Court held that “government instrumentalities established as juridical entities distinct and independent from
their sovereign should normally be treated as such.” Id.
at 626-627. That rule, referred to as the “Bancec presumption,” may be overcome only in limited circumstances. Id. at 628-634. The federal courts later described five “Bancec factors” that may be considered in
determining whether the presumption has been over-

31a
come in any given case. E.g., Flatow, 308 F.3d at 1071
n.9.1
Even after Congress added § 1605(a)(7) (now § 1605A)
to the FSIA in 1996, successful plaintiffs struggled to enforce judgments against Iran when they were harmed by
its terrorist activities. See, e.g., In re Islamic Republic of
Iran Terrorism Litig., 659 F. Supp. 2d 31, 49-58 (D.D.C.
2009) (describing “The Never-Ending Struggle to Enforce Judgments Against Iran”). Once again, Congress
responded by enacting new statutes, this time designed
to facilitate the satisfaction of such judgments by expanding successful plaintiffs’ ability to attach and execute on
the property of agencies and instrumentalities of terrorist states. Bank Markazi, 136 S. Ct. at 1318.
First, in 2002, Congress enacted the Terrorism Risk
Insurance Act of 2002 (“TRIA”), Pub. L. No. 107-297, 116
Stat. 2322. Section 201(a) of the TRIA provides:
Notwithstanding any other provision of law, and except as provided in subsection (b) [of this note, pertaining to Presidential waiver], in every case in
which a person has obtained a judgment against a
1

The five factors are:
(1) the level of economic control by the government;
(2) whether the entity’s profits go to the government;
(3) the degree to which government officials manage the entity or
otherwise have a hand in its daily affairs;
(4) whether the government is the real beneficiary of the entity’s
conduct; and
(5) whether adherence to separate identities would entitle the
foreign state to benefits in United States courts while avoiding its obligations.
Flatow, 308 F.3d at 1071 n.9 (quoting Walter Fuller Aircraft Sales,
Inc. v. Republic of the Philippines, 965 F.2d 1375, 1380 n.7 (5th Cir.
1992)).

32a
terrorist party on a claim based upon an act of terrorism, or for which a terrorist party is not immune
under section 1605A or 1605(a)(7) . . . , the blocked
assets[2] of that terrorist party (including the
blocked assets of any agency or instrumentality of
that terrorist party) shall be subject to execution or
attachment in aid of execution in order to satisfy
such judgment to the extent of any compensatory
damages for which such terrorist party has been
adjudged liable.
TRIA § 201(a) was codified as a statutory note to 28
U.S.C. § 1610 on “Treatment of Terrorist Assets.”
Second, in 2008, Congress amended the FSIA as part
of the National Defense Authorization Act for Fiscal
Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 3, 338.
Among other changes, Congress added a new subsection
to the FSIA, which provides in part that
the property of a foreign state against which a
judgment is entered under section 1605A, and the
property of an agency or instrumentality of such a
state, including property that is a separate juridical
entity or is an interest held directly or indirectly in
a separate juridical entity, is subject to attachment
in aid of execution, and execution, upon that judgment as provided in this section, regardless of [the
same five factors described by the federal courts as
the “Bancec factors”].

2

“Blocked assets” refers to “any asset seized by the Executive
Branch pursuant to either the Trading With the Enemy Act or
the International Emergency Economic Powers Act. See TRIA
§201(d)(2).” Bank Markazi, 135 S. Ct. at 1318 (citations omitted).

33a
28 U.S.C. § 1610(g)(1); see also Bank Markazi, 136 S. Ct.
at 1318 n.2. For ease of reference, we refer to this section as “FSIA § 1610(g).”
FACTUAL AND PROCEDURAL HISTORY
Four groups of individuals sued the Islamic Republic
of Iran for damages arising from deaths and injuries suffered in terrorist attacks sponsored by Iran; in each case,
a final money judgment was entered in favor of the plaintiffs and against Iran. In Estate of Heiser v. Islamic Republic of Iran, 659 F. Supp. 2d 20 (D.D.C. 2009), and Estate of Heiser v. Islamic Republic of Iran, 466 F. Supp.
2d 229 (D.D.C. 2006), the plaintiffs secured judgments for
more than $590 million for the 1996 bombing of the Khobar Towers in Saudi Arabia. In Acosta v. Islamic Republic of Iran, 574 F. Supp. 2d 15 (D.D.C. 2008), the plaintiffs received a judgment of more than $350 million because of a 1990 mass shooting. In Bennett v. Islamic Republic of Iran, 507 F. Supp. 2d 117 (D.D.C. 2007), the
plaintiffs obtained a judgment for damages of nearly $13
million for Iran’s role in the 2002 bombing of a cafeteria
at Hebrew University in Jerusalem. And in Greenbaum
v. Islamic Republic of Iran, 451 F. Supp. 2d 90 (D.D.C.
2006), the plaintiffs were awarded almost $20 million for
damages suffered as a result of the bombing of a Jerusalem restaurant in 2001. Collectively, the judgments total
nearly $1 billion. Although all the judgments were taken
by default, it is undisputed that all are valid final judgments and that Iran owes the amounts of those judgments to the respective plaintiffs.
Bank Melli, Iran’s largest financial institution, is wholly owned by the government of Iran. It is undisputed
that Bank Melli qualifies as an instrumentality of Iran
under the FSIA. Bank Melli was not named as a defendant in any of the four cases described above and was not

34a
itself alleged to have been involved in the underlying terrorist events. On October 25, 2007, the United States
Department of the Treasury, Office of Foreign Assets
Control exercised its authority under Executive Order
No. 13,382, 70 Fed. Reg. 38,567 (June 28, 2005), to block
Bank Melli’s assets in the United States because of its involvement in Iran’s nuclear and missile industries. Bank
Melli’s assets also are blocked pursuant to a 2012 Executive Order blocking the property of Iran and of Iranian
financial institutions. Exec. Order No. 13,599, 77 Fed.
Reg. 6659 (Feb. 8, 2012).3
Visa and Franklin owe about $17.6 million to Bank
Melli pursuant to a commercial relationship that involves
the use of Visa credit cards in Iran. Visa and Franklin
have not turned the funds over to Bank Melli only because the funds are blocked. The Bennett judgment
creditors filed a complaint against Visa and Franklin,
seeking to attach and execute against the blocked assets.
Visa and Franklin responded by initiating this interpleader action, naming as defendants Bank Melli and the
three other sets of judgment creditors. Visa and Franklin sought a determination of the rights to the blocked assets in their possession and a discharge of Visa and
Franklin with regard to those assets. After Bank Melli
entered its appearance, it moved to dismiss the action.
Bank Melli made four arguments for dismissal, each of
which the district court rejected. The court held:
(1) TRIA § 201(a) and FSIA § 1610(g) enable the judgment creditors to attach the monies owed to Bank Melli;
(2) TRIA § 201(a) and FSIA § 1610(g) do not impose retroactive liability; (3) the blocked assets constitute proper3

The recent lifting of a portion of the sanctions imposed on Iran does
not render this interpleader action moot, nor does it affect our analysis of the issues raised here.

35a
ty of Bank Melli; and (4) Bank Melli was not a required
party under Federal Rule of Civil Procedure 19. Bennett
v. Islamic Republic of Iran, 927 F. Supp. 2d 833 (N.D.
Cal. 2013). The district court denied the motion to dismiss and certified the order for interlocutory appeal under 28 U.S.C. § 1292(b). Bennett, 927 F. Supp. 2d at 845846.
STANDARD OF REVIEW
We review de novo: questions of statutory construction, Miranda v. Anchondo, 684 F.3d 844, 849 (9th Cir.
2012); a district court’s ruling on a motion to dismiss for
failure to state a claim or for lack of subject matter jurisdiction, Colony Cove Props., LLC v. City of Carson, 640
F.3d 948, 955 (9th Cir. 2011); the question whether a
statute may be applied retroactively, Scott v. Boos, 215
F.3d 940, 942 (9th Cir. 2000); and legal determinations
underlying a district court’s decision whether an action
can proceed in the absence of a required party under
Rule 19, Kescoli v. Babbitt, 101 F.3d 1304, 1309 (9th Cir.
1996).
DISCUSSION
A. TRIA § 201(a) and FSIA § 1610(g) permit attachment and execution of the monies owed to
Bank Melli.
1. TRIA § 201(a)
We hold that TRIA § 201(a) permits judgment creditors to attach assets held by the instrumentalities of state
sponsors of terrorism. As always, when interpreting a
statute, we begin with its text. Metro One Telecomms.,
Inc. v. Comm’r, 704 F.3d 1057, 1061 (9th Cir. 2012). Section 201(a) of the TRIA applies “[n]otwithstanding any
other provision of law,” “in every case in which a person
has obtained a judgment against a terrorist party on a
claim based upon an act of terrorism, or for which a ter-

36a
rorist party is not immune under section 1605A or
1605(a)(7),” and “in order to satisfy such judgment to the
extent of any compensatory damages for which such terrorist party has been adjudged liable.” TRIA § 201(a)
(emphases added). The statute provides that, in cases
such as this one, “the blocked assets of [the] terrorist
party (including the blocked assets of any agency or instrumentality of that terrorist party) shall be subject to
execution or attachment in aid of execution.” Id. (emphasis added). This wording demonstrates that Congress
knew that the blocked assets of an instrumentality might
otherwise have been excluded from the phrase “blocked
assets of [the] terrorist party” and that Congress acted
to ensure that, instead, the instrumentality’s blocked assets were included. Cf. Alejandre v. Telefonica Larga
Distancia de P.R., Inc., 183 F.3d 1277, 1287, 1288 n.25
(11th Cir. 1999) (stating that a proposed amendment to
the FSIA that would have applied to property that “belongs to an agency or instrumentality of a foreign state”
demonstrated that Congress “knows how to express
clearly an intent to make instrumentalities substantively
liable for the debts of their related foreign governments”
(internal quotation marks omitted)). Accordingly, we
agree with the Second Circuit when it held that it is
“clear beyond cavil that Section 201(a) of the TRIA provides courts with subject matter jurisdiction over postjudgment execution and attachment proceedings against
property held in the hands of an instrumentality of the
judgment-debtor, even if the instrumentality is not itself
named in the judgment.” Weinstein, 609 F.3d at 50.
Bank Melli disputes this reading of § 201(a), arguing
instead that it applies only to instrumentalities that are
alter egos of the state; that is, Bank Melli argues that the
Bancec presumption against the attachment of assets

37a
held by state instrumentalities applies. Bank Melli reasons that, because “including” is a term of illustration,
the words that follow are merely an example of the main
preceding principle. That observation is true but is of no
assistance to Bank Melli. By listing “the blocked assets
of any . . . instrumentality of that terrorist party” as a
specific example of assets that are “subject to execution
or attachment . . . in order to satisfy” a money judgment
obtained under § 1605A or § 1605(a)(7), Congress clearly
instructed courts to allow the instrumentality’s blocked
assets to be reached. Congress also instructed courts to
allow these assets to be reached “[n]otwithstanding any
other provision of law”—that is, regardless of the usual
fiction embodied in Bancec. Congress purposely overrode the Bancec presumption in this context and abrogated attachment immunity with respect to the blocked
assets of instrumentalities of designated state sponsors
of terrorism. Section 201(a) permits the judgment creditors to attach the assets of an instrumentality of a state
sponsor of terrorism. Accordingly, the blocked assets of
Bank Melli that are at issue in this case may be attached.
2. FSIA § 1610(g)

FSIA § 1610(g) allows attachment of and execution
against property held by a foreign terrorist state’s instrumentality “that is a separate juridical entity,” “regardless of ” five factors. As noted above, those enumerated factors are the same five factors identified by the
federal courts as the “Bancec factors” that may be used
to decide whether an instrumentality is an alter ego under Bancec. E.g., Flatow, 308 F.3d at 1071-1072, 1071
n.9. It is clear from the text of the statute that Congress
was referring to, and abrogating, not just the presumption of separate juridical status, but also Bancec specifi-

38a
cally. Therefore, § 1610(g) also permits attachment in
this case.
But Bank Melli contends that, because § 1610(g)
makes assets subject to attachment and execution only
“as provided in this section,” it is not an independent exception to the immunity granted by 28 U.S.C. § 1609.
Bank Melli reasons that subsection (g) applies only if
some other part of § 1610 provides for attachment and
execution. Bank Melli argues that its assets cannot be
attached or executed upon because the assets at issue in
this case were not “used for a commercial activity in the
United States,” a requirement in § 1610(a), and Bank
Melli has not itself “engaged in commercial activity in the
United States,” a requirement in § 1610(b). We are not
persuaded.
We hold that subsection (g) contains a freestanding
provision for attaching and executing against assets of a
foreign state or its agencies or instrumentalities. Subsection (g) covers a different subject than § 1610(a)
through (e): by its express terms, it applies only to “certain actions,” specifically, judgments “entered under section 1605A.” (Emphasis added.) In turn, § 1605A revokes sovereign immunity for damages claims against a
foreign state for personal injury or death caused by “torture, extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support” for such an act.
By definition, such claims do not arise from commercial
activity; they arise from acts of torture (and the like).
Section 1610(g) requires only that a judgment under
§ 1605A have been rendered against the foreign state; in
that event, both the property of the foreign state and the
property of an agency or instrumentality of that state are
subject to attachment and execution. See Peterson, 627
F.3d at 1123 n.2 (stating that § 1610(g) “expanded the

39a
category of foreign sovereign property that can be attached; judgment creditors can now reach any U.S. property in which Iran has any interest, whereas before they
could reach only property belonging to Iran”). To the extent that subsection (g) is inconsistent with subsection (a)
or (b), subsection (g) governs because the particular
(judgments entered under § 1605A) controls over the
general (all judgments entered after a certain date). Morales v. Trans World Airlines, Inc., 504 U.S. 374, 384-385
(1992).
When subsection (g) refers to attachment and execution of the judgment “as provided in this section,” it is referring to procedures contained in § 1610(f ).4 Section
1610(f ), like § 1610(g), relates to judgments obtained under § 1605A and its predecessor, § 1605(a)(7). Subsection
(f )(1)(A) permits attachment and execution of property
that might otherwise be blocked; subsection (f )(1)(B)
prohibits attachment or execution against property of a
foreign state that it expropriated from a natural person;
and subsection (f )(2)(A) provides that the Secretary of
State and Secretary of Treasury will make every effort to
assist a court or creditor in locating property awarded
pursuant to § 1605A. In light of Congress’ mandate to
the executive branch to assist in the collection of judgments in such cases, 28 U.S.C. § 1610(f ), we cannot impute to Congress an empty statutory gesture. See Gates
v. Syrian Arab Republic, 755 F.3d 568, 576 (7th Cir.
2014) (stating that Congress intended the 2008 amendments to the FSIA “to make it easier for terrorism vic4

When Congress enacted subsection (g), subsection (f ) already was
in place. Subsection (g) was added to the statute in 2008. Pub. L.
No. 110-181, div. A, tit. X, § 1083(b)(3), 122 Stat. 3, 341 (2008). Subsection (f ) was enacted in 1998. Pub. L. No. 105-277, § 101(h), 112
Stat. 2681-491 (1998).

40a
tims to obtain judgments and to attach assets”).5 Given
both the text of the statute and Congress’ intention to
make it easier for victims of terrorism to recover judgments, we hold that § 1610(g) is a freestanding provision
for attaching and executing against assets to satisfy a
money judgment premised on a foreign state’s act of terrorism.
Bank Melli argues, and our colleague agrees, that our
reading of § 1610(g) renders § 1610(a)(7) and (b)(3) superfluous.6 But the tension works in the opposite direction.
5

In its Petition for Rehearing or Rehearing En Banc, Bank Melli argues that our reading of the statute must be wrong because, in 2000,
President Clinton waived the enforcement of § 1610(f )(1); it reasons
that “as provided in this section” therefore cannot refer to § 1610(f ).
That argument fails for at least three reasons. First, only subsection
(f )(1) is not being enforced. Pres. Determ. No. 2001-03, 65 Fed. Reg.
66,483 (Oct. 28, 2000). Several other parts of subsection (f )—
described in text—have always remained fully enforced, so subsection (g) refers, at a minimum, to the enforced portions. Second, our
search is only for congressional intent when subsection (g) was enacted. A partial waiver does not reflect congressional intent; if anything, it demonstrates presidential disagreement with congressional
intent. And non-enforcement by the executive branch does not equal
repeal by Congress; regardless of the partial waiver, all of subsection
(f ) remains the law. Third, the blinders-on, technical focus of this
argument loses sight of Congress’ main aim, which is for private
plaintiffs who suffered torture and obtained tort judgments to get
their money from terrorist states.
6

Our colleague gives two other reasons for disagreeing with us on
this point. The first is that § 1610(b)(3) does not require property “to
be involved in terrorism to abrogate attachment immunity.” Partial
dissent at 36. We do not suggest to the contrary. The other reason
is that it would be “an unjustified and unfortunate result,” id. at 38,
to allow attachment and execution of non-commercial property, such
as museum artifacts belonging to Iran. But it is not our province to
decide whether the policy choices embodied in a statute are wise or
unwise; our task is, rather, to discern congressional intent. DayBrite Lighting, Inc. v. Missouri, 342 U.S. 421, 423 (1952).

41a
If § 1610(g) is interpreted to require that, to be subject to
attachment and execution, property must be used by the
foreign state for a “commercial activity,” § 1610(a), or
that the instrumentality must be “engaged in commercial
activity in the United States,” § 1610(b), then we would
have to read into § 1610(g) a limitation that Congress
did not insert. See United States v. Temple, 105 U.S.
(9 Otto) 97, 99 (1881) (holding that the court has “no right
to insert words and phrases, so as to incorporate in the
statute a new and distinct provision”). Section 1610(g)(1)
provides that “the property of a foreign state against
which a judgment is entered under section 1605A, and
the property of an agency or instrumentality of such a
state, . . . is subject to attachment in aid of execution, and
execution.” (Emphases added.) Thus, Congress did not
limit the type of property subject to attachment and execution under § 1610(g) to property connected to commercial activity in the United States. The only requirement
is that property be “the property of ” the foreign state or
its instrumentality.
Two Seventh Circuit cases support our conclusion in
this regard. In Wyatt v. Syrian Arab Republic, 800 F.3d
331, 343 (7th Cir. 2015), cert. denied, 136 S. Ct. 1721
(2016), the court held that the plaintiffs need not comply
with § 1608(e) when proceeding under § 1610(g). The
court noted that § 1608(e) is part of a “more general process” applicable to “suits other than those for statesponsored terrorism, such as more ordinary contract or
tort cases arising out of a foreign state’s commercial activities.” Id. at 333. Section 1610(g), the court noted,
“contains provisions specific to claims for state-sponsored
terrorism.” Id. Those specific provisions allow plaintiffs
with a judgment against a state sponsor of terrorism, obtained pursuant to § 1605A, to attach and execute the

42a
judgment against property of the foreign state and
against property of any agency and instrumentality of
the state. Id. The other provisions of § 1610, contained in
subsections (a) through (c), establish a general process
for judgments against a foreign state not necessarily
resting on state-sponsored terrorism. Id.
Similarly, the court held in Gates that a plaintiff proceeding under § 1610(g) need not comply with § 1610(c).
The court wrote in part:
Sections 1610(a) and (b) are available to satisfy a
wide variety of judgments, but they allow attachment of only specific categories of assets to satisfy
those judgments. See, e.g., § 1610(a) (allowing attachment of foreign state property located in the
United States and used for commercial activity
there); § 1610(b) (allowing attachment of property
of foreign state agency or instrumentality engaged
in United States commercial activity).
By contrast, §1610(g) is available only to holders
of judgments under the § 1605A exception for statesponsored terrorism, but it allows attachment of a
much broader range of assets to satisfy those judgments.
Gates, 755 F.3d at 576.
Regardless of canons of construction—such as the
principle that a specific statute takes precedence over a
general one—our ultimate search is for congressional intent. Chickasaw Nation v. United States, 534 U.S. 84, 94
(2001). And it is quite clear that Congress meant to expand successful plaintiffs’ options for collecting judgments against state sponsors of terrorism.

43a
We acknowledge that § 1610 as a whole is ambiguous.7
In that circumstance, we may consider legislative history.
Id. at 91-92; United States v. Pub. Utils. Comm’n, 345
U.S. 295, 315 (1953). That history suggests that § 1610(g)
was meant to allow attachment and execution with respect to any property whatsoever of the foreign state or
its instrumentality. Senator Lautenberg, one of the
sponsors of the bill that became § 1610(g), stated that the
provision would “allow[ ] attachment of the assets of a
state sponsor of terrorism to be made upon the satisfaction of a ‘simple ownership’ test.” 154 Cong. Rec. S54-01
(Jan. 22, 2008) (statement of Sen. Lautenberg). The
House Conference Report for a substantially similar earlier version of the bill noted that the provision “would . . .
expand the ability of claimants to seek recourse against
the property of that foreign state,” in part “by permitting
any property in which the foreign state has a beneficial
7

We also acknowledge that the United States, appearing as amicus
curiae, disagrees with our interpretation. We are not required to defer to the government’s view because, in deciding this case, we “are
not being asked to supplant a foreign policy decision of the political
branches with the courts’ own unmoored determination.” Zivotofsky
ex rel. Zivotofsky v. Clinton, 132 S. Ct. 1421, 1427 (2012). To the
contrary, the executive branch has approved the building blocks of
the statutory criteria for execution on the property in question,
which we are applying in a routine exercise of statutory interpretation. The President signed the legislation that became § 1610(g),
Pub. L. No. 110-181, President Bush Signs the National Defense Authorization Act for Fiscal Year 2008, 2008 U.S.C.C.A.N. S3 (Jan. 28,
2008); the President has not sought to waive enforcement as was
done with respect to § 1610(f )(1); the Secretary of State listed Iran
as a terrorist state, 49 Fed. Reg. 2836-02 (Jan. 23, 1984); and the
President imposed monetary sanctions on Iran, Exec. Order No.
13,599, 77 Fed. Reg. 6659 (Feb. 5, 2012). And, finally, in “[e]nacting
the FSIA in 1976, Congress transferred from the Executive to the
courts the principal responsibility for determining a foreign state’s
amenability to suit.” Bank Markazi, 136 S. Ct. at 1329.

44a
ownership to be subject to execution of that judgment.”
H.R. Rep. No. 11-447, at 1001 (2007) (Conf. Rep.). The
bill, it continued, “is written to subject any property interest in which the foreign state enjoys a beneficial ownership to attachment and execution.” Id. We have already noted that the basic purpose of adding § 1610(g)
was to enable plaintiffs who have established a foreign
state’s liability under § 1605A and its predecessor, for
terrorist acts, to collect on their judgments. As Senator
Lautenberg put it, the bill was meant “to facilitate victims’ collection of their damages from state sponsors of
terrorism.” 154 Cong. Rec. S54-01 (Jan. 22, 2008)
(statement of Sen. Lautenberg). Our interpretation of
§ 1610(g) more fully furthers that fundamental aim.
Bank Melli also makes three other arguments regarding § 1610(g). We can dispose of those arguments easily.
(1) The district court’s failure to discuss expressly
whether to grant Bank Melli discretionary relief under
the “innocent party” provision of § 1610(g)(3) does not
mean that the court failed to consider whether that provision applied. Bank Melli made its § 1610(g)(3) argument to the district court, and we presume that the court
understood its authority but declined to exercise discretion in Bank Melli’s favor. Cf. United States v. Davis,
264 F.3d 813, 816-817 (9th Cir. 2001) (so holding in the
context of a district court’s silence regarding a requested
downward departure under the United States Sentencing
Guidelines).
(2) There is no conflict between § 1610(g) and the 1955
Treaty of Amity between the United States and Iran,
which requires that the United States respect the juridical status of Iranian companies, protect their property in
accordance with international law, and not discriminate
against them. Treaty of Amity, Economic Relations and

45a
Consular Rights Between the United States of America
and Iran, Aug. 15, 1955, 8 U.S.T. 899, 902-903. As the
Second Circuit held, that treaty provision is intended
simply to ensure that foreign corporations are on equal
footing with domestic corporations. Weinstein, 609 F.3d
at 53. Even if the two provisions were inconsistent, when
a treaty and a later-enacted federal statute conflict, the
subsequent statute controls to the extent of the conflict.
Breard v. Greene, 523 U.S. 371, 376 (1998) (per curiam).
(3) Allowing the Heiser plaintiffs to obtain relief under § 1610(g) by converting their § 1605(a)(7) judgment to
a § 1605A judgment does not violate separation of powers
principles. Bank Melli’s reliance on Plaut v. Spendthrift
Farm, Inc., 514 U.S. 211, 219 (1995), is misplaced. There,
the court held that Congress could not require federal
courts to reopen final judgments. But here, the judgment was not reopened. Instead, the Heiser plaintiffs
have a new collection tool; they can enforce their final
judgment against Iran by attaching and executing on the
property of Iran’s instrumentality. In essence, the statute gives more effect to the final judgment, rather than
attempting to revise or rescind that judgment.
B. The statutes do not impermissibly impose
retroactive liability.
Bank Melli next argues that the judgment creditors
cannot use TRIA § 201(a) or FSIA § 1610(g) because the
terrorist acts that underlie the judgments occurred before the enactment of those statutes. The general default
rule is that a law that increases substantive liability for
past conduct does not operate retroactively. Landgraf v.
USI Film Prods., 511 U.S. 244, 280 (1994).
But the statutes do not impose new liability on Iran.
Section 1605(a)(7) was in effect at the time of the terrorist acts in question. Rather, the statutes simply permit

46a
additional methods of collection. See id. at 275 (noting
that the default rule does not apply to rules of procedure
because of “diminished reliance interests”).
Even if TRIA § 201(a) and FSIA § 1610(g) are viewed
as imposing new liability retroactively, the default rule is
different for statutes that govern foreign sovereign immunity. In Altmann, 541 U.S. at 692, the Supreme Court
concluded that the Landgraf presumption does not apply
to such statutes. To the contrary, when it comes to sovereign immunity for both foreign states and their agencies and instrumentalities, there is a presumption in favor of retroactivity “absent contraindications” from Congress. Id. at 696.
Here, there are no such contraindications. In fact, the
opposite is true. The purpose of the statutes at issue was
to enable not just future litigants, but also current judgment creditors to collect on the final judgments that they
already held—which, as a matter of logic, arose from past
acts. Congress chose to make TRIA § 201(a) applicable in
“every case in which a person has obtained a judgment”
under either the former statute, § 1605(a)(7), or the current statute, § 1605A. TRIA § 201(a) (emphases added).
Similarly, Congress chose to make § 1610(g) applicable to
all judgments entered under § 1605A. Accordingly, these
statutes apply even if they are seen as imposing liability
retroactively, because Congress so intended.
C. The blocked assets are property of Bank Melli.
Bank Melli also contends that TRIA § 201(a) and FSIA
§ 1610(g) do not permit attachment of the assets here because Visa and Franklin own the blocked assets; Bank
Melli does not. Under TRIA § 201(a), to be subject to execution or attachment, the blocked assets must be “assets
of ” the instrumentality. Similarly, § 1610(g) applies to
“the property of ” the instrumentality.

47a
Like most courts, we look to state law to determine
the ownership of assets in this context. Peterson, 627
F.3d at 1130-1131; see also Calderon-Cardona v. Bank of
N.Y. Mellon, 770 F.3d 993, 1000-1001 (2d Cir. 2014) (looking to New York law to determine what type of interest
rendered property attachable under § 1610(g)), cert. denied, 136 S. Ct. 893 (2016); Walker Int’l Holdings, Ltd. v.
Republic of Congo, 415 F.3d 413, 415 (5th Cir. 2005) (applying Texas law to determine attorney fees award in
FSIA action); Hegna v. Islamic Republic of Iran, 380
F.3d 1000, 1007 (7th Cir. 2004) (applying Illinois law to
decide whether property interest was open to challenge
in action under FSIA); Karaha Bodas Co. v. Perusahaan
Pertambangan Minyak Dan Gas Bumi Negara (“Pertamina”), 313 F.3d 70, 83 (2d Cir. 2002) (applying New
York law to determine what actions are subject to enforcement and available to judgment creditors). Here,
California law applies. As we held in Peterson, California
law authorizes a court to order a judgment debtor to assign to the judgment creditor a right to payments that
are due or will become due, even if the right is conditioned on future developments. 627 F.3d at 1130-1131;
Cal. Civ. Proc. Code § 482.080(a)(2) (providing that a
court may order a defendant subject to a writ of attachment to turn over either “evidence of title to property of
or a debt owed to the defendant”); id. at § 680.310
(“ ‘Property’ includes real and personal property and any
interest therein.”); id. at § 708.210 (permitting a judgment creditor to bring an action against a third party to
whom the judgment debtor owes money “to have the interest or debt applied to the satisfaction of the money
judgment”); id. at § 708.510(a) (authorizing a court to
“order the judgment debtor to assign to the judgment
creditor . . . all or part of a right to payment due”). That
is precisely the situation in the present case: Bank Melli

48a
has a contractual right to obtain payments from Visa and
Franklin. Under California law, those assets are property of Bank Melli and may be assigned to judgment
creditors.
But even if federal law should govern this question,
see Heiser v. Islamic Republic of Iran, 735 F.3d 934, 940
(D.C. Cir. 2013) (creating federal rule of decision to interpret ownership requirements in FSIA, based in part
on U.C.C. Article 4A and common law principles), Bank
Melli would not succeed. Federal law and California law
are aligned.
First, we note that Congress has used expansive wording to suggest that immediate and outright ownership of
assets is not required. In the TRIA, Congress provided
that “[n]othing in this subsection shall bar . . . enforcement of any judgment to which this subsection applies . . .
against assets otherwise available under this section or
under any other provision of law.” TRIA § 201(d)(4)
(emphasis added). In FSIA § 1610(g), Congress specified
that “the property of a foreign state against which a
judgment is entered under section 1605A, and the property of an agency or instrumentality of such a state, including property that is a separate juridical entity or is
an interest held directly or indirectly in a separate juridical entity, is subject to attachment in aid of execution,
and execution, upon that judgment as provided in this
section.” (Emphases added.) Thus, interests held by the
instrumentality of a terrorist state, as is the case here,
are subject to attachment under federal law.
Second, in Heiser, only foreign nationals, and not a
foreign country, had an interest in the blocked funds held
by intermediary banks. “Iranian entities were not the
originators of the funds transfers. Nor were they the ultimate beneficiaries.” Heiser, 735 F.3d at 936 (footnote

49a
omitted). By contrast, here, Bank Melli is the ultimate
beneficiary; Visa and Franklin owe money to Bank Melli
for services rendered pursuant to an agreement between
them. Accordingly, Bank Melli has an interest in the
blocked assets.
In summary, California law applies. Under California
law, money owed to Bank Melli may be assigned to judgment creditors. Even if federal law applies, under the
Heiser court’s rationale, attachment and execution are
allowed here because Bank Melli is the intended contractual beneficiary of the contested funds.
D. Because Bank Melli does not enjoy sovereign
immunity, Rule 19 presents no barrier.
Finally, Bank Melli relies on Federal Rule of Civil
Procedure 19 to support its request for dismissal. That
rule provides that a person must be joined as a party if
the person “claims an interest relating to the subject of
the action and is so situated that disposing of the action
in the person’s absence may . . . impair or impede the
person’s ability to protect the interest.” Fed. R. Civ. P.
19(a). And, if the “person who is required to be joined if
feasible cannot be joined, the court must determine
whether, in equity and good conscience, the action should
proceed among the existing parties or should be dismissed.” Fed. R. Civ. P. 19(b).
Bank Melli argues that this case must be dismissed
because it is a required party that cannot be joined and,
further, that the action cannot proceed without it “in
equity and good conscience.” But, because TRIA § 201(a)
and FSIA § 1610(g) confer jurisdiction by creating exceptions to sovereign immunity, Bank Melli can be joined in
this action. Thus it does not matter whether Bank Melli
is otherwise a required party under Rule 19(a); dismissal
is not required. See 28 U.S.C. § 1330 (providing jurisdic-

50a
tion over a foreign state or its instrumentality when it is
not entitled to immunity); Weinstein, 609 F.3d at 49-50
(holding that TRIA § 201(a) removes jurisdictional immunity, as well as immunity from attachment and execution).8
According to Bank Melli, Republic of the Philippines
v. Pimentel, 553 U.S. 851 (2008), requires dismissal. We
disagree. A class of victims of human rights abuses in the
Republic of the Philippines won a $2 billion default judgment against the Estate of Ferdinand Marcos, the former president of that country. Id. at 857-858. The class
attempted to enforce the judgment by attaching assets
owed to Merrill Lynch by a bank incorporated by Marcos
personally. Id. at 858. The Philippines claimed ownership of the bank, and therefore the disputed assets, because the bank had been incorporated through a misuse
of public office. Id. The Philippines also claimed immunity from the suit. Id. Merrill Lynch initiated an interpleader action naming, among other parties, the Republic
of the Philippines and one of its agencies. Id. at 845-855.
The Supreme Court held that the case should be dismissed because “it was improper [for the district court]
to issue a definitive holding regarding a nonfrivolous,
substantive claim made by an absent, required entity
8

Bank Melli’s citations to Ministry of Defense & Support for Armed
Forces of Islamic Republic of Iran v. Cubic Defense Systems, Inc.,
385 F.3d 1206 (9th Cir. 2004), vacated and remanded on other
grounds sub nom. Ministry of Def. & Support for Armed Forces of
Islamic Republic of Iran v. Elahi, 546 U.S. 450 (2006) (per curiam);
and Peterson v. Islamic Republic of Iran, 627 F.3d 1117 (9th Cir.
2010), are inapposite. Neither of those cases addressed the question
whether TRIA § 201(a) or FSIA § 1610(g) confers jurisdiction when
property owned by a terrorist state’s instrumentality is subject to
execution in satisfaction of judgments entered against that terrorist
state.

51a
that was entitled by its sovereign status to immunity
from suit.” Id. at 868.
This case plainly is distinguishable. In Pimentel, the
Republic was a required party that could not be joined
because of sovereign immunity. Here, Bank Melli does
not enjoy sovereign immunity, so it can be joined as a
party, whether or not it is a required party. Unlike the
Republic in Pimentel, therefore, Bank Melli is able to adjudicate its claim to the contested assets.
CONCLUSION
We hold: (1) TRIA § 201(a) and FSIA § 1610(g) authorize attachment and execution of the monies owed to Bank
Melli. (2) Those statutes do not impose liability retroactively but, even if they are viewed as doing so, Altmann
establishes a presumption in favor of retroactivity for
statutes governing sovereign immunity, which is not rebutted here. (3) California law governs the ownership
question; the blocked assets are property of Bank Melli
under principles of California law and, thus, are subject
to attachment and execution under TRIA § 201(a) and
FSIA § 1610(g). The same result would obtain even if
federal law governed. (4) Because Bank Melli can be
joined in this action, the dismissal provision of Federal
Rule of Civil Procedure 19 does not apply.
AFFIRMED.

52a
BENSON, Senior District Judge, concurring in part
and dissenting in part:
I concur with the majority that § 201(a) of the Terrorism Risk Insurance Act (“TRIA”) and § 1610 of the Foreign Sovereign Immunities Act (“FSIA”) permit the
judgment creditors in this case to attach and execute
against monies owed to Bank Melli. However, I respectfully believe the majority erred in finding § 1610(g) to be
a freestanding immunity exception under FSIA. In my
view, judgment creditors relying on § 1610(g) are able to
proceed, regardless of Bank Melli’s sovereign immunity,
because the judgment creditors have sufficiently alleged
Bank Melli is engaged in commerce in the United States
within the meaning of § 1610(b)(3) of FSIA.
FSIA contains “extensive procedural protections for
foreign sovereigns in United States courts.” Wyatt v.
Syrian Arab Republic, 800 F.3d 331, 333 (7th Cir. 2015).
Specifically, § 1609 of FSIA provides a general presumption that property of a foreign state and the property of
an instrumentality or agency of a foreign state is immune
from execution and attachment in United States courts.
See 28 U.S.C. § 1609; 28 U.S.C. § 1603(a). In turn, § 1610
provides a series of exceptions to this general rule.
Prior to 2008, § 1610 provided different rules for attachment immunity depending on whether the party was
seeking immunity as the foreign state or as an agency or
instrumentality of a foreign state. Regarding foreign
states, § 1610(a) denied immunity where: (1) a judgment
creditor obtained a judgment against the foreign state;
(2) the property of the foreign state is located in the
United States; (3) the property is used for “a commercial
activity” in the United States; and (4) one of § 1610(a)’s
seven avenues for abrogating immunity applied. See 28
U.S.C. § 1610(a). Similarly, with respect to agencies and

53a
instrumentalities, § 1610(b) denied immunity where: (1) a
judgment creditor obtained a judgment against an agency or instrumentality of foreign state; (2) the agency or
instrumentality is engaged in commercial activity in the
United States; (3) the property of the agency or instrumentality is located in the United States; and (4) one of
§ 1610(b)’s three avenues for abrogating immunity applied. See 28 U.S.C. § 1610(b).
Prior to 2008, the judgment creditors in this case
would have been required to obtain a judgment against
Bank Melli to utilize the immunity waiver provisions under § 1610(b) to attach Bank Melli’s property.
In 2008, Congress amended FSIA, adding § 1610(g)
and § 1605A. National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 3,
338 (2008). The purpose of the amendments was to relax
the protections of § 1610 in cases of state sponsored terrorism to “make it easier for terrorism victims to obtain
judgments and to attach assets.” Gates v. Syrian Arab
Republic, 755 F.3d 568, 576 (7th Cir. 2014); In re Islamic
Republic of Iran Terrorism Litig., 659 F. Supp. 2d 31, 62
(D.D.C. 2009) (noting, “these latest additions to . . . FSIA
demonstrate that Congress remains focused on eliminating those barriers that have made it nearly impossible for
plaintiffs in these actions to execute civil judgments
against Iran or other state sponsors of terrorism”).
Under § 1610(g), if a judgment creditor obtains a
judgment under § 1605A, the property of the foreign
state and “the property of an agency or instrumentality
of such a state, including property that is a separate juridical entity . . . is subject to attachment . . . and execution, upon that judgment as provided in this section, regardless” of five factors. 28 U.S.C. § 1610(g)(1) (emphasis
added). The five factors enumerated in § 1610(g)(A)

54a
through (E) reflect the Bancec presumption, which requires this Court to treat government entities established as separate juridical entities distinct from their
sovereigns. See First Nat’l City Bank v. Banco Para el
Comercio Exterior de Cuba, 462 U.S. 611, 620-621 (1983);
Flatow v. Islamic Republic of Iran, 308 F.3d 1065, 1071
n.9 (9th Cir. 2009) (outlining the Bancec factors (citing
Walter Fuller Aircraft Sales, Inc. v. Republic of the Philippines, 965 F.2d 1375, 1380 n.7 (5th Cir. 1992))).
Section 1610(g) leads to two straightforward conclusions under FSIA. First, if a party obtains a § 1605A
judgment against a state sponsor of terror, the Bancec
presumption is eliminated, which permits a court to attach and execute against the property of the agency or
instrumentality to satisfy the judgments against the foreign state. See Estate of Heiser v. Islamic Republic of
Iran, 885 F. Supp. 2d 429, 442 (D.D.C. 2012) (“Section
§ 1610(g) subparagraphs (A)-(E) explicitly prohibit consideration of each of the five Bancec factors.”), aff ’d sub
nom. Heiser v. Islamic Republic of Iran, 735 F.3d 934
(D.C. Cir. 2013). Second, the language “as provided in
this section” requires a judgment creditor to find an existing mechanism of attachment under § 1610. Section
1610(g) does not create a new avenue for attachment under FSIA; rather, § 1610(g) broadens the force of § 1610’s
existing avenues for attachment by eliminating the legal
fiction that Bank Melli is a separate juridical entity from
Iran.
In this case, judgment creditors relying on § 1610(g)
may proceed to attach Bank Melli’s property because
Bank Melli’s property is not immune from attachment by
virtue of § 1610(b)(3). Section 1610(b)(3) eliminates attachment immunity if an agency or instrumentality is
“engaged in commercial activity in the United States”

55a
and “the judgment relates to a claim for which the agency or instrumentality is not immune by virtue of section
1605A of this chapter . . . regardless of whether the property is or was involved in the act upon which the claim is
based.” 28 U.S.C. § 1610(b)(3). The judgment creditors
can attach Bank Melli’s property because: (1) the judgment creditors have obtained a judgment against Iran
pursuant to § 1605A; (2) § 1610(g) eliminates the Bancec
presumption, allowing this Court to attach and execute
against Bank Melli’s assets to satisfy the judgment
against Iran; and (3) the judgment creditors have sufficiently ple[d] that Bank Melli is engaged in commercial
activity in the United States.
Section 1603(c) of FSIA defines commercial activity
as: “either a regular course of commercial conduct or a
particular commercial transaction or act. The commercial character of an activity shall be determined by reference to the nature of the course of conduct or particular
transaction or act, rather than by reference to its purpose.” 28 U.S.C. § 1603(c) (emphasis added). Bank Melli
entered into a contract with an American company to
provide an American company a commercial service.
[ER, p. 82-83, ¶ 2 ; ER, p. 64, ¶ 16 (“Visa holds the
Blocked Assets, funds due and owing by contract to Bank
Melli pursuant to a commercial relationship with that
bank . . . ”).] At this stage in the litigation, the Court can
conclude that the judgment creditors relying on § 1610(g)
have sufficiently alleged Bank Melli is engaged in commercial activity in the United States.
The majority disagrees with the aforementioned interpretation and concludes that § 1610(g) creates a freestanding immunity exception under FSIA. The majority
believes a § 1605A judgment creditor may attach Bank
Melli’s property regardless of any commercial component

56a
under § 1610(a) or § 1610(b). In my view, respectfully, the
majority misses the mark in three important respects.
First, the majority erroneously finds that § 1610(g) is a
freestanding exception to immunity by concluding:
Subsection (g) covers a different subject than
§ 1610(a) through (e): by its express terms, it applies only to ‘certain actions,’ specifically, judgments ‘entered under section 1605A.’ (Emphasis
added.) In turn, § 1605A revokes sovereign immunity for damages claims against a foreign state for
personal injury or death caused by ‘torture, extrajudicial killing, aircraft sabotage, hostage taking, or
the provision of material support’ for such an act.
By definition, such claims do not arise from commercial activity; they arise from acts of torture (and
the like).
[Maj. Op., p. 17.] In doing so, the majority misinterprets
the operation of § 1610(a) and (b) waivers in the context
of § 1605A judgments. Under § 1610(b)(3), a judgment
creditor can attach property where the instrumentality is
engaged in commercial activity in the United States.
Furthermore, § 1610(b)(3) provides that attachment immunity is eliminated “regardless of whether the property
is or was involved with the act upon which the claim is
based.” 28 U.S.C. § 1610(b)(3) (emphasis added). Therefore, a § 1605A judgment allows a judgment creditor to
get immunity waived for any property where the instrumentality is engaged in commerce in the United States,
regardless whether the property was involved in the actions that gave rise to the § 1605A waiver of immunity
against the foreign state. Therefore, Bank Melli’s property does not need to be involved in terrorism to abrogate attachment immunity under § 1610(b)(3).

57a
Second, the majority concludes that the “as provided
in this section” language found in § 1610(g) refers to the
procedural aspects of § 1610, namely § 1610(f ). Fair
enough. But, the majority’s conclusion does not mean the
language “as provided in this section” refers only to
§ 1610(f ). Indeed, the majority’s piecemeal reading of
§ 1610(g) renders other portions of § 1610 inoperable. “It
is ‘a cardinal principle of statutory construction’ that ‘a
statute ought, upon the whole, to be so construed that, if
it can be prevented, no clause, sentence, or word shall be
superfluous, void, or insignificant.’ ” TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001) (quoting Duncan v. Walker,
533 U.S. 167, 174 (2001)). This Court should adopt the interpretation of § 1610 that “ ‘ gives effect to every clause
and word.’ ” Marx v. Gen. Revenue Corp., ___ U.S. ___,
133 S. Ct. 1166, 1177 (2013) (citing Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91 (2011)).
The majority ignores the avenues for exemption under
§ 1610(a)(7) and § 1610(b)(3). Section 1610(a)(7) and
§ 1610(b)(3) provide immunity, in addition to requiring
some interplay with commerce, where “the judgment relates to a claim for which the foreign state is not immune
under section 1605A . . . .” If a § 1605A judgment creditor
can waive attachment immunity under § 1610(g) without
proving the property is used in commerce or the instrumentality is engaged in commerce in the United States,
§ 1610(a)(7) and § 1610(b)(3) are rendered superfluous
and obsolete. Conversely, recognizing § 1610(g)’s limited
purpose was to eliminate the Bancec presumption ensures this Court gives effect to every clause and word in
§ 1610 while honoring the purpose of the 2008 FSIA
amendments.
Finally, the majority’s holding ignores the practical
limitation the commerce requirement places on § 1605A

58a
judgments. Reading § 1610(g) as a freestanding immunity exception does not just relax FSIA in the context of
terrorism—it eliminates any immunity protection under
FSIA for state sponsors of terror and their instrumentalities. For example, in Rubin v. Islamic Republic of Iran,
American citizens sued and obtained default judgments
against Iran for injuries and losses that arose out of a suicide bombing carried out by Hamas in Israel. 33 F.
Supp. 3d 1003, 1006 (N.D. Ill. 2014). The Rubin plaintiffs
sought to “attach and execute on numerous ancient Persian artifacts” in possession of two museums in the United States to satisfy their default judgments against Iran.
Id. Like the judgment creditors in this case, the Rubin
plaintiffs argued that § 1610(g) is a freestanding immunity exception and, therefore, the plaintiffs may attach
Iran’s artifacts to satisfy their judgments. Id. at 1013.
The court disagreed, finding: “ The plain language indicates that Section 1610(g) is not a separate basis of attachment, but rather qualifies the previous subsections.”
Id. The court concluded, “the purpose of Section 1610(g)
is to counteract the Supreme Court’s decision in Bancec,
and to allow execution against the assets of separate juridical entities regardless of the protections Bancec may
have offered.” Id. Currently, the Rubin case is pending
appeal in the Seventh Circuit. Rubin v. Islamic Republic
of Iran, 33 F. Supp. 3d 1003 (N.D. Ill. 2014), appeal docketed, No. 14-1935 (7th Cir. Apr. 25, 2014).
Surely this Court’s holding will be argued as precedent to allow the Rubin plaintiffs to seize Persian artifacts to be auctioned off to satisfy the Rubin plaintiffs’
default judgments. This would be an unjustified and unfortunate result. When Congress amended FSIA, the intention was to eliminate the Bancec presumption and relax the rigidity of § 1610 to make it easier for victims of

59a
terrorism to satisfy judgments against state sponsors of
terror. Congress did not, however, intend to open the
floodgates and allow terrorism plaintiffs to attach any
and all Iranian property in the United States. Rather,
Congress intended the commerce limitation to remain in
place.1 If a foreign state is designated as a state sponsor
of terror, the state and the instrumentalities and agencies of the state lose the privilege of doing business in the
United States without running the risk of property being
seized to satisfy judgments.
In sum, I would require judgment creditors relying on
§ 1610(g) to satisfy one of § 1610’s existing avenues for
abrogating attachment immunity. In this case, the judgment creditors have done that. The judgment creditors
have sufficiently alleged Bank Melli is engaged in commerce in the United States within the meaning of
§ 1610(b)(3).

1

TRIA § 201 similarly contains a limitation on attachment and execution. TRIA § 201 requires attachable assets to be defined as
“blocked assets.” Section 201(d)(2)(A) defines a “blocked asset” as
any asset “seized or frozen by the United States under section 5(b) of
the Trading With the Enemy Act (50 U.S.C. App. 5(b)) or under sections 202 and 203 of the International Emergency Economic Powers
Act (50 U.S.C. 1701; 1702).”

60a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
DOCKET NOS. 13-15442, 13-16100
————
MICHAEL BENNETT; LINDA BENNETT,
AS CO-ADMINISTRATORS OF THE ESTATE OF
MARIA ANN BENNETT,
Plaintiffs-Appellees,
v.
THE ISLAMIC REPUBLIC OF IRAN,
Defendant,
v.
VISA INC.; FRANKLIN RESOURCES, INC.,
Defendants-third-partyplaintiffs–Appellees,
v.
GREENBERG AND ACOSTA JUDGMENT CREDITORS,
Plaintiff-third-partydefendant–Appellee,
HEISER JUDGMENT CREDITORS,
Plaintiff-fourth-partydefendant–Appellee,
v.
BANK MELLI,
Plaintiff-third-partydefendant–Appellant.

61a
————
ORDER AND AMENDED OPINION
————
February 22, 2016
————
Appeals from the United States District Court
for the Northern District of California
Charles R. Breyer, Senior District Judge, Presiding
————
Argued and Submitted
April 15, 2015—San Francisco, California
————
Before: Sidney R. Thomas,* and Susan P. Graber, Circuit
Judges, and Dee V. Benson,** Senior District Judge.
————
Opinion by Judge Graber;
Partial Concurrence and Partial Dissent by
Judge Benson
————
ORDER
The opinion filed August 26, 2015, and reported at 799
F.3d 1281, is withdrawn. Because the court’s opinion is
withdrawn, Appellant Bank Melli’s petition for panel rehearing and petition for rehearing en banc is moot. A
superseding opinion will be filed concurrently with this
* Chief Judge Thomas was drawn to replace Judge Kozinski. He has
read the briefs, reviewed the record, and listened to the audiorecording of oral argument held on April 15, 2015.
** The Honorable Dee V. Benson, Senior District Judge for the U.S.
District Court for the District of Utah, sitting by designation.

62a
order. Further petitions for rehearing and petitions for
rehearing en banc may be filed.
OPINION
GRABER, Circuit Judge:
Approximately 90 United States citizens (or the representatives of their estates) are attempting to collect on
unsatisfied money judgments that they hold against the
Islamic Republic of Iran for deaths and injuries suffered
in terrorist attacks sponsored by Iran. The assets that
are the subject of this interpleader action are monies contractually owed to Bank Melli by Visa Inc. and Franklin
Resources Inc. (“Franklin”). Bank Melli is an instrumentality of Iran. It asserts that Plaintiffs cannot execute on
the assets (1) because Bank Melli enjoys sovereign immunity under the Foreign Sovereign Immunities Act of
1976 (“FSIA”), (2) because the relevant statutory exceptions to sovereign immunity may not be applied retroactively, (3) because the blocked assets are not property
of Bank Melli, and (4) because Bank Melli is a required
party that cannot be joined, thus requiring dismissal under Federal Rule of Civil Procedure 19. We disagree
and, accordingly, affirm the judgment of the district
court.
BACKGROUND LEGAL PRINCIPLES
The jurisdiction of the United States over persons and
property within its territory “is susceptible of no limitation not imposed by itself.” Schooner Exch. v. McFaddon, 11 U.S. (7 Cranch) 116, 136 (1812). Accordingly,
foreign sovereign immunity is “a matter of grace and
comity rather than a constitutional requirement.” Republic of Austria v. Altmann, 541 U.S. 677, 689 (2004).
Courts consistently “defer[ ] to the decisions of the political branches” on whether to take actions against foreign
sovereigns and their instrumentalities. Id. (quoting Ver-

63a
linden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 486
(1983)).
The FSIA, 28 U.S.C. §§ 1330, 1602-1611, establishes a
default rule that foreign states are immune from suit in
United States courts. Id. at § 1604. Congress enacted
the statute to provide a “comprehensive . . . ‘set of legal
standards governing claims of immunity in every civil action against a foreign state or its political subdivisions,
agencies, or instrumentalities.’ ” Altmann, 541 U.S. at
691 (quoting Verlinden B.V., 461 U.S. at 488). The FSIA
provides the exclusive vehicle for subject matter jurisdiction in all civil actions against foreign state defendants.
OBB Personenverkehr AG v. Sachs, 136 S. Ct. 390, 393
(2015); Flatow v. Islamic Republic of Iran, 308 F.3d
1065, 1069 (9th Cir. 2002).
The FSIA includes many exceptions to its general rule
of immunity. 28 U.S.C. §§ 1605-1607. Relevant here, in
1996, Congress added a new exception, stripping a foreign state of its sovereign immunity when (1) the United
States officially designates the foreign state a state sponsor of terrorism and (2) the foreign state is sued “for personal injury or death that was caused by an act of torture, extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support or resources for
such an act.” 28 U.S.C. § 1605.
Iran was designated a terrorist party pursuant to section 6(j) of the Export Administration Act of 1979, 50
U.S.C. app. § 2405(j) (effective Jan. 19, 1984). Peterson v.
Islamic Republic of Iran, 627 F.3d 1117, 1123 (9th Cir.
2010); Weinstein v. Islamic Republic of Iran, 609 F.3d
43, 48 (2d Cir. 2010). That designation means that Iran is
not entitled to sovereign immunity for claims under
§ 1605A.

64a
Separately, the FSIA addresses the immunity of sovereign property from execution and attachment. Subject
to enumerated exceptions, a foreign state’s property in
the United States is immune from attachment and execution. 28 U.S.C. § 1609.
In First National City Bank v. Banco Para el Comercio Exterior de Cuba (“Bancec”), 462 U.S. 611, 620-621
(1983), the Supreme Court concluded that the FSIA did
not control whether and to what extent instrumentalities
could be held liable for the debts of their sovereigns.
Applying international law and federal common law, the
Court held that “government instrumentalities established as juridical entities distinct and independent from
their sovereign should normally be treated as such.” Id.
at 626-627. That rule, referred to as the “Bancec presumption,” may be overcome only in limited circumstances. Id. at 628-634. The federal courts later described five “Bancec factors” that may be considered in
determining whether the presumption has been overcome in any given case. E.g., Flatow, 308 F.3d at 1071
n.9.1

1

The five factors are:
(1) the level of economic control by the government;
(2) whether the entity’s profits go to the government;
(3) the degree to which government officials manage the entity or
otherwise have a hand in its daily affairs;
(4) whether the government is the real beneficiary of the entity’s
conduct; and
(5) whether adherence to separate identities would entitle the
foreign state to benefits in United States courts while avoiding its obligations.
Flatow, 308 F.3d at 1071 n.9 (quoting Walter Fuller Aircraft Sales,
Inc. v. Republic of the Philippines, 965 F.2d 1375, 1380 n.7 (5th Cir.
1992)).

65a
Even after Congress added § 1605(a)(7) (now § 1605A)
to the FSIA in 1996, successful plaintiffs struggled to enforce judgments against Iran when they were harmed by
its terrorist activities. See, e.g., In re Islamic Republic of
Iran Terrorism Litig., 659 F. Supp. 2d 31, 49-58 (D.D.C.
2009) (describing “The Never-Ending Struggle to Enforce Judgments Against Iran”). Once again, Congress
responded by enacting new statutes, this time designed
to facilitate the satisfaction of such judgments by expanding successful plaintiffs’ ability to attach and execute on
the property of agencies and instrumentalities of terrorist states.
First, in 2002 Congress enacted the Terrorism Risk
Insurance Act of 2002 (“TRIA”), Pub. L. No. 107-297, 116
Stat. 2322. Section 201(a) of the TRIA provides:
Notwithstanding any other provision of law, and except as provided in subsection (b) [of this note, pertaining to Presidential waiver], in every case in
which a person has obtained a judgment against a
terrorist party on a claim based upon an act of terrorism, or for which a terrorist party is not immune
under section 1605A or 1605(a)(7) . . . , the blocked
assets[2] of that terrorist party (including the
blocked assets of any agency or instrumentality of
that terrorist party) shall be subject to execution or
attachment in aid of execution in order to satisfy
such judgment to the extent of any compensatory
damages for which such terrorist party has been
adjudged liable.
TRIA § 201(a) was codified as a statutory note to 28
U.S.C. § 1610 on “Treatment of Terrorist Assets.”
2

The term “blocked assets” refers generally to assets that have been
seized or frozen by the United States. TRIA § 201(d)(2)(A).

66a
Second, in 2008, Congress amended the FSIA as part
of the National Defense Authorization Act for Fiscal
Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 3, 338.
Among other changes, Congress added a new subsection
to the FSIA, which provides in part that
the property of a foreign state against which a
judgment is entered under section 1605A, and the
property of an agency or instrumentality of such a
state, including property that is a separate juridical
entity or is an interest held directly or indirectly in
a separate juridical entity, is subject to attachment
in aid of execution, and execution, upon that judgment as provided in this section, regardless of [the
same five factors described by the federal courts as
the “Bancec factors”].
28 U.S.C. § 1610(g)(1). For ease of reference, we refer to
this section as “FSIA § 1610(g).”
FACTUAL AND PROCEDURAL HISTORY
Four groups of individuals sued the Islamic Republic
of Iran for damages arising from deaths and injuries suffered in terrorist attacks sponsored by Iran; in each case,
a final money judgment was entered in favor of the plaintiffs and against Iran. In Estate of Heiser v. Islamic Republic of Iran, 659 F. Supp. 2d 20 (D.D.C. 2009), and Estate of Heiser v. Islamic Republic of Iran, 466 F. Supp.
2d 229 (D.D.C. 2006), the plaintiffs secured judgments for
more than $590 million for the 1996 bombing of the Khobar Towers in Saudi Arabia. In Acosta v. Islamic Republic of Iran, 574 F. Supp. 2d 15 (D.D.C. 2008), the plaintiffs received a judgment of more than $350 million because of a 1990 mass shooting. In Bennett v. Islamic Republic of Iran, 507 F. Supp. 2d 117 (D.D.C. 2007), the
plaintiffs obtained a judgment for damages of nearly $13
million for Iran’s role in the 2002 bombing of a cafeteria

67a
at Hebrew University in Jerusalem. And in Greenbaum
v. Islamic Republic of Iran, 451 F. Supp. 2d 90 (D.D.C.
2006), the plaintiffs were awarded almost $20 million for
damages suffered as a result of the bombing of a Jerusalem restaurant in 2001. Collectively, the judgments total
nearly $1 billion. Although all the judgments were taken
by default, it is undisputed that all are valid final judgments and that Iran owes the amounts of those judgments to the respective plaintiffs.
Bank Melli, Iran’s largest financial institution, is wholly owned by the government of Iran. It is undisputed
that Bank Melli qualifies as an instrumentality of Iran
under the FSIA. Bank Melli was not named as a defendant in any of the four cases described above and was not
itself alleged to have been involved in the underlying terrorist events. On October 25, 2007, the United States
Department of the Treasury, Office of Foreign Assets
Control exercised its authority under Executive Order
No. 13,382, 70 Fed. Reg. 38,567 (June 28, 2005), to block
Bank Melli’s assets in the United States because of its involvement in Iran’s nuclear and missile industries. Bank
Melli’s assets also are blocked pursuant to a 2012 Executive Order blocking the property of Iran and of Iranian
financial institutions. Executive Order No. 13,599, 77
Fed. Reg. 6659 (Feb. 8, 2012).3
Visa and Franklin owe about $17.6 million to Bank
Melli pursuant to a commercial relationship that involves
the use of Visa credit cards in Iran. Visa and Franklin
have not turned the funds over to Bank Melli only because the funds are blocked. The Bennett judgment
creditors filed a complaint against Visa and Franklin,
3

The recent lifting of a portion of the sanctions imposed on Iran does
not render this interpleader action moot, nor does it affect our analysis of the issues raised here.

68a
seeking to attach and execute against the blocked assets.
Visa and Franklin responded by initiating this interpleader action, naming as defendants Bank Melli and the
three other sets of judgment creditors. Visa and Franklin sought a determination of the rights to the blocked assets in their possession and a discharge of Visa and
Franklin with regard to those assets. After Bank Melli
entered its appearance, it moved to dismiss the action.
Bank Melli made four arguments for dismissal, each of
which the district court rejected. The court held:
(1) TRIA § 201(a) and FSIA § 1610(g) enable the judgment creditors to attach the monies owed to Bank Melli;
(2) TRIA § 201(a) and FSIA § 1610(g) do not impose retroactive liability; (3) the blocked assets constitute property of Bank Melli; and (4) Bank Melli was not a required
party under Federal Rule of Civil Procedure 19. Bennett
v. Islamic Republic of Iran, 927 F. Supp. 2d 833 (N.D.
Cal. 2013). The district court denied the motion to dismiss and certified the order for interlocutory appeal under 28 U.S.C. § 1292(b). Bennett, 927 F. Supp. 2d at 845846.
STANDARD OF REVIEW
We review de novo: questions of statutory construction, Miranda v. Anchondo, 684 F.3d 844, 849 (9th Cir.
2012); a district court’s ruling on a motion to dismiss for
failure to state a claim or for lack of subject matter jurisdiction, Colony Cove Props., LLC v. City of Carson, 640
F.3d 948, 955 (9th Cir. 2011); the question whether a
statute may be applied retroactively, Scott v. Boos, 215
F.3d 940, 942 (9th Cir. 2000); and legal determinations
underlying a district court’s decision whether an action
can proceed in the absence of a required party under
Rule 19, Kescoli v. Babbitt, 101 F.3d 1304, 1309 (9th Cir.
1996).

69a
DISCUSSION
A. TRIA § 201(a) and FSIA § 1610(g) permit attachment and execution of the monies owed to
Bank Melli.
1. TRIA § 201(a)
We hold that TRIA § 201(a) permits judgment creditors to attach assets held by the instrumentalities of state
sponsors of terrorism. As always, when interpreting a
statute, we begin with its text. Metro One Telecomms.,
Inc. v. Comm’r, 704 F.3d 1057, 1061 (9th Cir. 2012). Section 201(a) of the TRIA applies “[n]otwithstanding any
other provision of law,” “in every case in which a person
has obtained a judgment against a terrorist party on a
claim based upon an act of terrorism, or for which a terrorist party is not immune under section 1605A or
1605(a)(7),” and “in order to satisfy such judgment to the
extent of any compensatory damages for which such terrorist party has been adjudged liable.” TRIA § 201(a)
(emphases added). The statute provides that, in cases
such as this one, “the blocked assets of [the] terrorist
party (including the blocked assets of any agency or instrumentality of that terrorist party) shall be subject to
execution or attachment in aid of execution.” Id. (emphasis added). This wording demonstrates that Congress
knew that the blocked assets of an instrumentality might
otherwise have been excluded from the phrase “blocked
assets of [the] terrorist party” and that Congress acted
to ensure that, instead, the instrumentality’s blocked assets were included. Cf. Alejandre v. Telefonica Larga
Distancia de P.R., Inc. 183 F.3d 1277, 1287-1288, 1287
n.25 (11th Cir. 1999) (stating that a proposed amendment
to the FSIA that would have applied to property that
“belongs to an agency or instrumentality of a foreign
state” demonstrated that Congress “knows how to ex-

70a
press clearly an intent to make instrumentalities substantively liable for the debts of their related foreign
governments” (internal quotation marks omitted)). Accordingly, we agree with the Second Circuit when it held
that it is “clear beyond cavil that Section 201(a) of the
TRIA provides courts with subject matter jurisdiction
over post-judgment execution and attachment proceedings against property held in the hands of an instrumentality of the judgment-debtor, even if the instrumentality
is not itself named in the judgment.” Weinstein, 609
F.3d at 50.
Bank Melli disputes this reading of § 201(a), arguing
instead that it applies only to instrumentalities that are
alter egos of the state; that is, Bank Melli argues that the
Bancec presumption against the attachment of assets
held by state instrumentalities applies. Bank Melli reasons that, because “including” is a term of illustration,
the words that follow are merely an example of the main
preceding principle. That observation is true but is of no
assistance to Bank Melli. By listing “the blocked assets
of any . . . instrumentality of that terrorist party” as a
specific example of assets that are “subject to execution
or attachment . . . in order to satisfy” a money judgment
obtained under § 1605A or 1605(a)(7), Congress clearly
instructed courts to allow the instrumentality’s blocked
assets to be reached. Congress also instructed courts to
allow these assets to be reached “[n]otwithstanding any
other provision of law”—that is, regardless of the usual
fiction embodied in Bancec. Congress purposely overrode the Bancec presumption in this context and abrogated attachment immunity with respect to the blocked
assets of instrumentalities of designated state sponsors
of terrorism. Section 201(a) permits the judgment creditors to attach the assets of an instrumentality of a state

71a
sponsor of terrorism. Accordingly, the blocked assets of
Bank Melli that are at issue in this case may be attached.
2. FSIA §1610(g)

FSIA § 1610(g) allows attachment of and execution
against property held by a foreign terrorist state’s instrumentality “that is a separate juridical entity,” “regardless of ” five factors. As noted above, those enumerated factors are the same five factors identified by the
federal courts as the “Bancec factors” that may be used
to decide whether an instrumentality is an alter ego under Bancec. E.g., Flatow, 308 F.3d at 1071-1072, 1071
n.9. It is clear from the text of the statute that Congress
was referring to, and abrogating, not just the presumption of separate juridical status, but also Bancec specifically. Therefore, § 1610(g) also permits attachment in
this case.
But Bank Melli contends that, because § 1610(g)
makes assets subject to attachment and execution only
“as provided in this section,” it is not an independent exception to the immunity granted by 28 U.S.C. § 1609.
Bank Melli reasons that subsection (g) applies only if
some other part of § 1610 provides for attachment and
execution. Bank Melli argues that its assets cannot be
attached or executed upon because the assets at issue in
this case were not “used for a commercial activity in the
United States,” a requirement in § 1610(a), and Bank
Melli has not itself “engaged in commercial activity in the
United States,” a requirement in § 1610(b). We are not
persuaded.
We hold that subsection (g) contains a freestanding
provision for attaching and executing against assets of a
foreign state or its agencies or instrumentalities. Subsection (g) covers a different subject than § 1610(a)
through (e): by its express terms, it applies only to “cer-

72a
tain actions,” specifically, judgments “entered under section 1605A.” (Emphasis added.) In turn, § 1605A revokes sovereign immunity for damages claims against a
foreign state for personal injury or death caused by “torture, extrajudicial killing, aircraft sabotage, hostage taking, or the provision of material support” for such an act.
By definition, such claims do not arise from commercial
activity; they arise from acts of torture (and the like).
Section 1610(g) requires only that a judgment under
§ 1605A have been rendered against the foreign state; in
that event, both the property of the foreign state and the
property of an agency or instrumentality of that state are
subject to attachment and execution. See Peterson, 627
F.3d at 1123 n.2 (stating that § 1610(g) “expanded the
category of foreign sovereign property that can be attached; judgment creditors can now reach any U.S. property in which Iran has any interest, whereas before they
could reach only property belonging to Iran”). To the extent that subsection (g) is inconsistent with subsection (a)
or (b), subsection (g) governs because the particular
(judgments entered under § 1605A) controls over the
general (all judgments entered after a certain date). Morales v. Trans World Airlines, Inc., 504 U.S. 374, 384-385
(1992).
When subsection (g) refers to attachment and execution of the judgment “as provided in this section,” it is referring to procedures contained in § 1610(f ).4 Section
1610(f ), like § 1610(g), relates to judgments obtained un4

When Congress enacted subsection (g), subsection (f ) already was
in place. Subsection (g) was added to the statute in 2008. Pub. L.
No. 110-181, div. A, tit. X, § 1083(b)(3), 122 Stat. 3, 341 (2008). Subsection (f ) was enacted in 1990, when the exceptions to the FSIA
were first codified. Pub. L. No. 101-650, tit. III, § 325(b)(9), 104 Stat.
5089, 5121 (1990).

73a
der § 1605A and its predecessor, § 1605(a)(7). Subsection
(f )(1)(A) permits attachment and execution of property
that might otherwise be blocked; subsection (f )(1)(B)
prohibits attachment or execution against property of a
foreign state that it expropriated from a natural person;
and subsection (f )(2)(A) provides that the Secretary of
State and Secretary of Treasury will make every effort to
assist a court or creditor in locating property awarded
pursuant to § 1605A. In light of Congress’ mandate to
the executive branch to assist in the collection of judgments in such cases, 28 U.S.C. § 1610(f ), we cannot impute to Congress an empty statutory gesture. See Gates
v. Syrian Arab Republic, 755 F.3d 568, 576 (7th Cir.
2014) (stating that Congress intended the 2008 amendments to the FSIA “to make it easier for terrorism victims to obtain judgments and to attach assets”). Given
both the text of the statute and Congress’ intention to
make it easier for victims of terrorism to recover judgments, we hold that § 1610(g) is a freestanding provision
for attaching and executing against assets to satisfy a
money judgment premised on a foreign state’s act of terrorism.
Bank Melli argues, and our colleague agrees, that our
reading of § 1610(g) renders § 1610(a)(7) and (b)(3) superfluous.5 But the tension works in the opposite direction.

5

Our colleague gives two other reasons for disagreeing with us on
this point. The first is that § 1610(b)(3) does not require property “to
be involved in terrorism to abrogate attachment immunity under
§ 1610(b)(3).” (Partial dissent at 33.) We do not suggest to the contrary. The other reason is that it would be “an unjustified and unfortunate result,” id. at 9, to allow attachment and execution of noncommercial property, such as museum artifacts belonging to Iran.
But it is not our province to decide whether the policy choices embodied in a statute are wise or unwise; our task is, rather, to discern

74a
If § 1610(g) is interpreted to require that, to be subject to
attachment and execution, property must be used by the
foreign state for a “commercial activity,” § 1610(a), or
that the instrumentality must be “engaged in commercial
activity in the United States,” § 1610(b), then we would
have to read into § 1610(g) a limitation that Congress
did not insert. See United States v. Temple, 105 U.S.
(9 Otto) 97, 99 (1881) (holding that the court has “no right
to insert words and phrases, so as to incorporate in the
statute a new and distinct provision”). Section 1610(g)(1)
provides that “the property of a foreign state against
which a judgment is entered under section 1605A, and
the property of an agency or instrumentality of such a
state, . . . is subject to attachment in aid of execution, and
execution.” (Emphases added.) Thus, Congress did not
limit the type of property subject to attachment and execution under § 1610(g) to property connected to commercial activity in the United States. The only requirement
is that property be “the property of ” the foreign state or
its instrumentality.
Two Seventh Circuit cases support our conclusion in
this regard. In Wyatt v. Syrian Arab Republic, 800 F.3d
331, 343 (7th Cir. 2015), the court held that the plaintiffs
need not comply with § 1608(e) when proceeding under
§ 1610(g). The court noted that § 1608(e) is part of a
“more general process” applicable to “suits other than
those for state-sponsored terrorism, such as more ordinary contract or tort cases arising out of a foreign state’s
commercial activities.” Id. at 333. Section 1610(g), the
court noted, “contains provisions specific to claims for
state-sponsored terrorism.” Id. Those specific provisions allow plaintiffs with a judgment against a state
congressional intent. Day-Brite Lighting, Inc. v. Missouri, 342 U.S.
421, 423 (1952).

75a
sponsor of terrorism, obtained pursuant to § 1605A, to attach and execute the judgment against property of the
foreign state and against property of any agency and instrumentality of the state. Id. The other provisions of
§ 1610, contained in subsections (a) through (c), establish
a general process for judgments against a foreign state
not necessarily resting on state-sponsored terrorism. Id.
Similarly, the court held in Gates that a plaintiff proceeding under § 1610(g) need not comply with § 1610(c).
The court wrote in part:
Sections 1610(a) and (b) are available to satisfy a
wide variety of judgments, but they allow attachment of only specific categories of assets to satisfy
those judgments. See, e.g., § 1610(a) (allowing attachment of foreign state property located in the
United States and used for commercial activity
there); § 1610(b) (allowing attachment of property
of foreign state agency or instrumentality engaged
in United States commercial activity).
By contrast, § 1610(g) is available only to holders
of judgments under the § 1605A exception for statesponsored terrorism, but it allows attachment of a
much broader range of assets to satisfy those judgments.
Gates, 755 F.3d at 576.
Regardless of canons of construction—such as the
principle that a specific statute takes precedence over a
general one—our ultimate search is for congressional intent. Chickasaw Nation v. United States, 534 U.S. 84, 94
(2001). And it is quite clear that Congress meant to expand successful plaintiffs’ options for collecting judgments against state sponsors of terrorism.

76a
We acknowledge that § 1610 as a whole is ambiguous.
In that circumstance, we may consider legislative history.
Id. at 91-92; United States v. Pub. Utils. Comm’n, 345
U.S. 295, 315 (1953). That history suggests that § 1610(g)
was meant to allow attachment and execution with respect to any property whatsoever of the foreign state or
its instrumentality. Senator Lautenberg, one of the
sponsors of the bill that became § 1610(g), stated that the
provision would “allow[ ] attachment of the assets of a
state sponsor of terrorism to be made upon the satisfaction of a ‘simple ownership’ test.” 154 Cong. Rec. S54-01
(Jan. 22, 2008) (statement of Sen. Lautenberg). The
House Conference Report for a substantially similar earlier version of the bill noted that the provision “would . . .
expand the ability of claimants to seek recourse against
the property of that foreign state,” in part “by permitting
any property in which the foreign state has a beneficial
ownership to be subject to execution of that judgment.”
H.R. Rep. No. 11-447, at 1001 (2007) (Conf. Rep.). The
bill, it continued, “is written to subject any property interest in which the foreign state enjoys a beneficial ownership to attachment and execution.” Id. We have already noted that the basic purpose of adding § 1610(g)
was to enable plaintiffs who have established a foreign
state’s liability under § 1605A and its predecessor, for
terrorist acts, to collect on their judgments. As Senator
Lautenberg put it, the bill was meant “to facilitate victims’ collection of their damages from state sponsors of
terrorism.” 154 Cong. Rec. S54-01 (Jan. 22, 2008)
(statement of Sen. Lautenberg). Our interpretation of
§ 1610(g) more fully furthers that fundamental aim.
Bank Melli also makes three other arguments regarding § 1610(g). We can dispose of those arguments easily.

77a
(1) The district court’s failure to discuss expressly
whether to grant Bank Melli discretionary relief under
the “innocent party” provision of § 1610(g)(3) does not
mean that the court failed to consider whether that provision applied. Bank Melli made its § 1610(g)(3) argument to the district court, and we presume that the court
understood its authority but declined to exercise discretion in Bank Melli’s favor. Cf. United States v. Davis,
264 F.3d 813, 816-817 (9th Cir. 2001) (so holding in the
context of a district court’s silence regarding a requested
downward departure under the Sentencing Guidelines).
(2) There is no conflict between § 1610(g) and the 1955
Treaty of Amity between the United States and Iran,
which requires that the United States respect the juridical status of Iranian companies, protect their property in
accordance with international law, and not discriminate
against them. Treaty of Amity, Economic Relations and
Consular Rights Between the United States of America
and Iran, Aug. 15, 1955, 8 U.S.T. 899, 902-903. As the
Second Circuit held, that treaty provision is intended
simply to ensure that foreign corporations are on equal
footing with domestic corporations. Weinstein, 609 F.3d
at 53. Even if the two provisions were inconsistent, when
a treaty and a later-enacted federal statute conflict, the
subsequent statute controls to the extent of the conflict.
Breard v. Greene, 523 U.S. 371, 376 (1998) (per curiam).
(3) Allowing the Heiser plaintiffs to obtain relief under § 1610(g) by converting their § 1605(a)(7) judgment to
a § 1605A judgment does not violate separation of powers
principles. Bank Melli’s reliance on Plaut v. Spendthrift
Farm, Inc., 514 U.S. 211, 219 (1995), is misplaced. There,
the court held that Congress could not require federal
courts to reopen final judgments. But here, the judgment was not reopened. Instead, the Heiser plaintiffs

78a
have a new collection tool; they can enforce their final
judgment against Iran by attaching and executing on the
property of Iran’s instrumentality. In essence, the statute gives more effect to the final judgment, rather than
attempting to revise or rescind that judgment.
B. The statutes do not impermissibly impose
retroactive liability.
Bank Melli next argues that the judgment creditors
cannot use TRIA § 201(a) or FSIA § 1610(g) because the
terrorist acts that underlie the judgments occurred before the enactment of those statutes. The general default
rule is that a law that increases substantive liability for
past conduct does not operate retroactively. Landgraf v.
USI Film Prods., 511 U.S. 244, 280 (1994).
But the statutes do not impose new liability on Iran.
Section 1605(a)(7) was in effect at the time of the terrorist acts in question. Rather, the statutes simply permit
additional methods of collection. See id. at 275 (noting
that the default rule does not apply to rules of procedure
because of “diminished reliance interests”).
Even if TRIA § 201(a) and FSIA § 1610(g) are viewed
as imposing new liability retroactively, the default rule is
different for statutes that govern foreign sovereign immunity. In Altmann, 541 U.S. at 692, the Supreme Court
concluded that the Landgraf presumption does not apply
to such statutes. To the contrary, when it comes to sovereign immunity for both foreign states and their agencies and instrumentalities, there is a presumption in favor of retroactivity “absent contraindications” from Congress. Id. at 696.
Here, there are no such contraindications. In fact, the
opposite is true. The purpose of the statutes at issue was
to enable not just future litigants, but also current judgment creditors to collect on the final judgments that they

79a
already held—which, as a matter of logic, arose from past
acts. Congress chose to make TRIA § 201(a) applicable in
“every case in which a person has obtained a judgment”
under either the former statute, § 1605(a)(7), or the current statute, § 1605A. TRIA § 201(a) (emphases added).
Similarly, Congress chose to make § 1610(g) applicable to
all judgments entered under § 1605A. Accordingly, these
statutes apply even if they are seen as imposing liability
retroactively, because Congress so intended.
C. The blocked assets are property of Bank Melli.
Bank Melli also contends that TRIA § 201(a) and FSIA
§ 1610(g) do not permit attachment of the assets here because Visa and Franklin own the blocked assets; Bank
Melli does not. Under TRIA § 201(a), to be subject to execution or attachment, the blocked assets must be “assets
of ” the instrumentality. Similarly, § 1610(g) applies to
“the property of ” the instrumentality.
Like most courts, we look to state law to determine
the ownership of assets in this context. Peterson, 627
F.3d at 1130-1131; see also Calderon-Cardona v. Bank of
N.Y. Mellon, 770 F.3d 993, 1000-1001 (2d Cir. 2014) (looking to New York law to determine what type of interest
rendered property attachable under § 1610(g)), cert. denied, 136 S. Ct. 893 (2016); Walker Int’l Holdings, Ltd. v.
Republic of Congo, 415 F.3d 413, 415 (5th Cir. 2005) (applying Texas law to determine attorney fees award in
FSIA action); Hegna v. Islamic Republic of Iran, 380
F.3d 1000, 1007 (7th Cir. 2004) (applying Illinois law to
decide whether property interest was open to challenge
in action under FSIA); Karaha Bodas Co. v. Perusahaan
Pertambangan Minyak Dan Gas Bumi Negara (“Pertamina”), 313 F.3d 70, 83 (2d Cir. 2002) (applying New
York law to determine what actions are subject to enforcement and available to judgment creditors). Here,

80a
California law applies. As we held in Peterson, California
law authorizes a court to order a judgment debtor to assign to the judgment creditor a right to payments that
are due or will become due, even if the right is conditioned on future developments. 627 F.3d at 1130-1131;
Cal. Civ. Proc. Code § 482.080(a)(2) (providing that a
court may order a defendant subject to a writ of attachment to turn over either “evidence of title to property of
or a debt owed to the defendant”); id. at § 680.310
(“ ‘Property’ includes real and personal property and any
interest therein.”); id. at § 708.210 (permitting a judgment creditor to bring an action against a third party to
whom the judgment debtor owes money “to have the interest or debt applied to the satisfaction of the money
judgment”); id. at § 708.510(a) (authorizing a court to
“order the judgment debtor to assign to the judgment
creditor . . . all or part of a right to payment due”). That
is precisely the situation in the present case: Bank Melli
has a contractual right to obtain payments from Visa and
Franklin. Under California law, those assets are property of Bank Melli and may be assigned to judgment
creditors.
But even if federal law should govern this question,
see Heiser v. Islamic Republic of Iran, 735 F.3d 934, 940
(D.C. Cir. 2013) (creating federal rule of decision to interpret ownership requirements in FSIA, based in part
on U.C.C. Article 4A and common law principles), Bank
Melli would not succeed. Federal law and California law
are aligned.
First, we note that Congress has used expansive wording to suggest that immediate and outright ownership of
assets is not required. In the TRIA, Congress provided
that “[n]othing in this subsection shall bar . . . enforcement of any judgment to which this subsection applies . . .

81a
against assets otherwise available under this section or
under any other provision of law.” TRIA § 201(d)(4)
(emphasis added). In § 1610(g), Congress specified that
“the property of a foreign state against which a judgment
is entered under section 1605A, and the property of an
agency or instrumentality of such a state, including
property that is a separate juridical entity or is an interest held directly or indirectly in a separate juridical entity, is subject to attachment in aid of execution, and execution, upon that judgment as provided in this section.”
(Emphases added.) Thus, interests held by the instrumentality of a terrorist state, as is the case here, are subject to attachment under federal law.
Second, in Heiser, only foreign nationals, and not a
foreign country, had an interest in the blocked funds held
by intermediary banks. “Iranian entities were not the
originators of the funds transfers. Nor were they the ultimate beneficiaries.” Heiser, 735 F.3d at 936 (footnote
omitted). By contrast, here, Bank Melli is the ultimate
beneficiary; Visa and Franklin owe money to Bank Melli
for services rendered pursuant to an agreement between
them. Accordingly, Bank Melli has an interest in the
blocked assets.
In summary, California law applies. Under California
law, money owed to Bank Melli may be assigned to
judgment creditors. Even if federal law applies, under
the Heiser court’s rationale, attachment and execution
are allowed here because Bank Melli is the intended contractual beneficiary of the contested funds.
D. Because Bank Melli does not enjoy sovereign
immunity, Rule 19 presents no barrier.
Finally, Bank Melli relies on Federal Rule of Civil
Procedure 19 to support its request for dismissal. That
rule provides that a person must be joined as a party if

82a
the person “claims an interest relating to the subject of
the action and is so situated that disposing of the action
in the person’s absence may . . . impair or impede the
person’s ability to protect the interest.” Fed. R. Civ. P.
19(a). And, if the “person who is required to be joined if
feasible cannot be joined, the court must determine
whether, in equity and good conscience, the action should
proceed among the existing parties or should be dismissed.” Fed. R. Civ. P. 19(b).
Bank Melli argues that this case must be dismissed
because it is a required party that cannot be joined and,
further, that the action cannot proceed without it “in
equity and good conscience.” But, because TRIA § 201(a)
and FSIA § 1610(g) confer jurisdiction by creating exceptions to sovereign immunity, Bank Melli can be joined in
this action. Thus it does not matter whether Bank Melli
is otherwise a required party under Rule 19(a); dismissal
is not required.
According to Bank Melli, Republic of the Philippines
v. Pimentel, 553 U.S. 851 (2008), requires dismissal. We
disagree. A class of victims of human rights abuses in the
Republic of the Philippines won a $2 billion default judgment against the Estate of Ferdinand Marcos, the former president of that country. Id. at 857-858. The class
attempted to enforce the judgment by attaching assets
owed to Merrill Lynch by a bank incorporated by Marcos
personally. Id. at 858. The Philippines claimed ownership of the bank, and therefore the disputed assets, because the bank had been incorporated through a misuse
of public office. Id. The Philippines also claimed immunity from the suit. Id. Merrill Lynch initiated an interpleader action naming, among other parties, the Republic
of the Philippines and one of its agencies. Id. at 845-855.
The Supreme Court held that the case should be dis-

83a
missed because “it was improper [for the district court]
to issue a definitive holding regarding a nonfrivolous,
substantive claim made by an absent, required entity
that was entitled by its sovereign status to immunity
from suit.” Id. at 868.
This case plainly is distinguishable. In Pimentel, the
Republic was a required party that could not be joined
because of sovereign immunity. Here, Bank Melli does
not enjoy sovereign immunity, so it can be joined as a
party, whether or not it is a required party. Unlike the
Republic in Pimentel, therefore, Bank Melli is able to adjudicate its claim to the contested assets.
CONCLUSION
We hold: (1) TRIA § 201(a) and FSIA § 1610(g) authorize attachment and execution of the monies owed to Bank
Melli. (2) Those statutes do not impose liability retroactively but, even if they are viewed as doing so, Altmann
establishes a presumption in favor of retroactivity for
statutes governing sovereign immunity, which is not rebutted here. (3) California law governs the ownership
question; the blocked assets are property of Bank Melli
under principles of California law and, thus, are subject
to attachment and execution under TRIA § 201(a) and
FSIA § 1610(g). The same result would obtain even if
federal law governed. (4) Because Bank Melli can be
joined in this action, the dismissal provision of Federal
Rule of Civil Procedure 19 does not apply.
AFFIRMED.

84a
BENSON, Senior District Judge, concurring in part
and dissenting in part:
I concur with the majority that § 201(a) of the Terrorism Risk Insurance Act (“TRIA”) and § 1610 of the Foreign Sovereign Immunities Act (“FSIA”) permit the
judgment creditors in this case to attach and execute
against monies owed to Bank Melli. However, I respectfully believe the majority erred in finding § 1610(g) to be
a freestanding immunity exception under FSIA. In my
view, judgment creditors relying on § 1610(g) are able to
proceed, regardless of Bank Melli’s sovereign immunity,
because the judgment creditors have sufficiently alleged
Bank Melli is engaged in commerce in the United States
within the meaning of § 1610(b)(3) of FSIA.
FSIA contains “extensive procedural protections for
foreign sovereigns in United States courts.” Wyatt v.
Syrian Arab Republic, 800 F.3d 331, 333 (7th Cir. 2015).
Specifically, § 1609 of FSIA provides a general presumption that property of a foreign state and the property of
an instrumentality or agency of a foreign state is immune
from execution and attachment in United States courts.
See 28 U.S.C. § 1609; 28 U.S.C. § 1603(a). In turn, § 1610
provides a series of exceptions to this general rule.
Prior to 2008, § 1610 provided different rules for attachment immunity depending on whether the party was
seeking immunity as the foreign state or as an agency or
instrumentality of a foreign state. Regarding foreign
states, § 1610(a) denied immunity where: (1) a judgment
creditor obtained a judgment against the foreign state;
(2) the property of the foreign state is located in the
United States; (3) the property is used for “a commercial
activity” in the United States; and (4) one of § 1610(a)’s
seven avenues for abrogating immunity applied. See 28
U.S.C. § 1610(a). Similarly, with respect to agencies and

85a
instrumentalities, § 1610(b) denied immunity where: (1) a
judgment creditor obtained a judgment against an agency or instrumentality of foreign state; (2) the agency or
instrumentality is engaged in commercial activity in the
United States; (3) the property of the agency or instrumentality is located in the United States; and (4) one of
§ 1610(b)’s three avenues for abrogating immunity applied. See 28 U.S.C. § 1610(b).
Prior to 2008, the judgment creditors in this case
would have been required to obtain a judgment against
Bank Melli to utilize the immunity waiver provisions under § 1610(b) to attach Bank Melli’s property.
In 2008, Congress amended FSIA, adding § 1610(g)
and § 1605A. National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 3,
338 (2008). The purpose of the amendments was to relax
the protections of § 1610 in cases of state sponsored terrorism to “make it easier for terrorism victims to obtain
judgments and to attach assets.” Gates v. Syrian Arab
Republic, 755 F.3d 568, 576 (7th Cir. 2014); In re Islamic
Republic of Iran Terrorism Litig., 659 F. Supp. 2d 31, 62
(D.D.C. 2009) (noting, “these latest additions to . . . FSIA
demonstrate that Congress remains focused on eliminating those barriers that have made it nearly impossible for
plaintiffs in these actions to execute civil judgments
against Iran or other state sponsors of terrorism”).
Under § 1610(g), if a judgment creditor obtains a
judgment under § 1605A, the property of the foreign
state and “the property of an agency or instrumentality
of such a state, including property that is a separate juridical entity . . . is subject to attachment . . . and execution, upon that judgment as provided in this section, regardless” of five factors. 28 U.S.C. § 1610(g)(1) (emphasis
added). The five factors enumerated in § 1610(g)(A)

86a
through (E) reflect the Bancec presumption, which requires this Court to treat government entities established as separate juridical entities distinct from their
sovereigns. See First Nat’l City Bank v. Banco Para el
Comercio Exterior de Cuba, 462 U.S. 611, 620-621 (1983);
Flatow v. Islamic Republic of Iran, 308 F.3d 1065, 1071
n.9 (9th Cir. 2009) (outlining the Bancec factors (citing
Walter Fuller Aircraft Sales, Inc. v. Republic of the Philippines, 965 F.2d 1375, 1380 n.7 (5th Cir. 1992))).
Section 1610(g) leads to two straightforward conclusions under FSIA. First, if a party obtains a § 1605A
judgment against a state sponsor of terror, the Bancec
presumption is eliminated, which permits a court to attach and execute against the property of the agency or
instrumentality to satisfy the judgments against the foreign state. See Estate of Heiser v. Islamic Republic of
Iran, 885 F. Supp. 2d 429, 442 (D.D.C. 2012) (“Section
§ 1610(g) subparagraphs (A)-(E) explicitly prohibit consideration of each of the five Bancec factors.”), aff ’d sub
nom. Heiser v. Islamic Republic of Iran, 735 F.3d 934
(D.C. Cir. 2013). Second, the language “as provided in
this section” requires a judgment creditor to find an existing mechanism of attachment under § 1610. Section
1610(g) does not create a new avenue for attachment under FSIA; rather, § 1610(g) broadens the force of § 1610’s
existing avenues for attachment by eliminating the legal
fiction that Bank Melli is a separate juridical entity from
Iran.
In this case, judgment creditors relying on § 1610(g)
may proceed to attach Bank Melli’s property because
Bank Melli’s property is not immune from attachment by
virtue of § 1610(b)(3). Section 1610(b)(3) eliminates attachment immunity if an agency or instrumentality is
“engaged in commercial activity in the United States”

87a
and “the judgment relates to a claim for which the agency or instrumentality is not immune by virtue of section
1605A of this chapter . . . regardless of whether the property is or was involved in the act upon which the claim is
based.” 28 U.S.C. § 1610(b)(3). The judgment creditors
can attach Bank Melli’s property because: (1) the judgment creditors have obtained a judgment against Iran
pursuant to § 1605A; (2) § 1610(g) eliminates the Bancec
presumption, allowing this Court to attach and execute
against Bank Melli’s assets to satisfy the judgment
against Iran; and (3) the judgment creditors have sufficiently ple[d] that Bank Melli is engaged in commercial
activity in the United States.
Section 1603(c) of FSIA defines commercial activity
as: “either a regular course of commercial conduct or a
particular commercial transaction or act. The commercial character of an activity shall be determined by reference to the nature of the course of conduct or particular
transaction or act, rather than by reference to its purpose.” 28 U.S.C. § 1603(c) (emphasis added). Bank Melli
entered into a contract with an American company to
provide an American company a commercial service. At
this stage in the litigation, the Court can conclude that
the judgment creditors relying on § 1610(g) have sufficiently alleged Bank Melli is engaged in commercial activity in the United States.
The majority disagrees with the aforementioned interpretation and concludes that § 1610(g) creates a freestanding immunity exception under FSIA. The majority
believes a § 1605A judgment creditor may attach Bank
Melli’s property regardless of any commercial component
under § 1610(a) or § 1610(b). In my view, respectfully, the
majority misses the mark in three important respects.

88a
First, the majority erroneously finds that § 1610(g) is a
freestanding exception to immunity by concluding:
Subsection (g) covers a different subject than
§ 1610(a) through (e): by its express terms, it applies only to ‘certain actions,’ specifically, judgments ‘entered under section 1605A.’ (Emphasis
added.) In turn, § 1605A revokes sovereign immunity for damages claims against a foreign state for
personal injury or death caused by ‘torture, extrajudicial killing, aircraft sabotage, hostage taking, or
the provision of material support’ for such an act.
By definition, such claims do not arise from commercial activity; they arise from acts of torture (and
the like).
[Maj. Op., p. 16.] In doing so, the majority misinterprets
the operation of § 1610(a) and (b) waivers in the context
of § 1605A judgments. Under § 1610(b)(3), a judgment
creditor can attach property where the instrumentality is
engaged in commercial activity in the United States.
Furthermore, § 1610(b)(3) provides that attachment immunity is eliminated “regardless of whether the property
is or was involved with the act upon which the claim is
based.” 28 U.S.C. § 1610(b)(3) (emphasis added). Therefore, a § 1605A judgment allows a judgment creditor to
get immunity waived for any property where the instrumentality is engaged in commerce in the United States,
regardless whether the property was involved in the actions that gave rise to the § 1605A waiver of immunity
against the foreign state. Therefore, Bank Melli’s property does not need to be involved in terrorism to abrogate attachment immunity under § 1610(b)(3).
Second, the majority concludes that the “as provided
in this section” language found in § 1610(g) refers to the
procedural aspects of § 1610, namely § 1610(f ). Fair

89a
enough. But, the majority’s conclusion does not mean the
language “as provided in this section” refers only to
§ 1610(f ). Indeed, the majority’s piecemeal reading of
§ 1610(g) renders other portions of § 1610 inoperable. “It
is ‘a cardinal principle of statutory construction’ that ‘a
statute ought, upon the whole, to be so construed that, if
it can be prevented, no clause, sentence, or word shall be
superfluous, void, or insignificant.’ ” TRW Inc. v. Andrews, 534 U.S. 19, 31 (2001) (quoting Duncan v. Walker,
533 U.S. 167, 174 (2001)). This Court should adopt the interpretation of § 1610 that “ ‘ gives effect to every clause
and word.’ ” Marx v. Gen. Revenue Corp., ___U.S.___,
133 S. Ct. 1166, 1177 (2013) (citing Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91 (2011)).
The majority ignores the avenues for exemption under
§ 1610(a)(7) and § 1610(b)(3). Section 1610(a)(7) and
§ 1610(b)(3) provide immunity, in addition to requiring
some interplay with commerce, where “the judgment relates to a claim for which the foreign state is not immune
under section 1605A . . . .” If a § 1605A judgment creditor
can waive attachment immunity under § 1610(g) without
proving the property is used in commerce or the instrumentality is engaged in commerce in the United States,
§ 1610(a)(7) and § 1610(b)(3) are rendered superfluous
and obsolete. Conversely, recognizing § 1610(g)’s limited
purpose was to eliminate the Bancec presumption ensures this Court gives effect to every clause and word in
§ 1610 while honoring the purpose of the 2008 FSIA
amendments.
Finally, the majority’s holding ignores the practical
limitation the commerce requirement places on § 1605A
judgments. Reading § 1610(g) as a freestanding immunity exception does not just relax FSIA in the context of
terrorism—it eliminates any immunity protection under

90a
FSIA for state sponsors of terror and their instrumentalities. For example, in Rubin v. Islamic Republic of Iran,
American citizens sued and obtained default judgments
against Iran for injuries and losses that arose out of a suicide bombing carried out by Hamas in Israel. 33 F.
Supp. 3d 1003, 1006 (N.D. Ill. 2014). The Rubin plaintiffs
sought to “attach and execute on numerous ancient Persian artifacts” in possession of two museums in the United States to satisfy their default judgments against Iran.
Id. Like the judgment creditors in this case, the Rubin
plaintiffs argued that § 1610(g) is a freestanding immunity exception and, therefore, the plaintiffs may attach
Iran’s artifacts to satisfy their judgments. Id. at 1013.
The court disagreed, finding: “ The plain language indicates that Section 1610(g) is not a separate basis of attachment, but rather qualifies the previous subsections.”
Id. The court concluded, “the purpose of Section 1610(g)
is to counteract the Supreme Court’s decision in Bancec,
and to allow execution against the assets of separate juridical entities regardless of the protections Bancec may
have offered.” Id. Currently, the Rubin case is pending
appeal in the Seventh Circuit. Rubin v. Islamic Republic
of Iran, 33 F. Supp. 3d 1003 (N.D. Ill. 2014), appeal docketed, No. 14-1935 (7th Cir. Apr. 25, 2014).
Surely this Court’s holding will be argued as precedent to allow the Rubin plaintiffs to seize Persian artifacts to be auctioned off to satisfy the Rubin plaintiffs’
default judgments. This would be an unjustified and unfortunate result. When Congress amended FSIA, the intention was to eliminate the Bancec presumption and relax the rigidity of § 1610 to make it easier for victims of
terrorism to satisfy judgments against state sponsors of
terror. Congress did not, however, intend to open the
floodgates and allow terrorism plaintiffs to attach any

91a
and all Iranian property in the United States. Rather,
Congress intended the commerce limitation to remain in
place.1 If a foreign state is designated as a state sponsor
of terror, the state and the instrumentalities and agencies of the state lose the privilege of doing business in the
United States without running the risk of property being
seized to satisfy judgments.
In sum, I would require judgment creditors relying on
§ 1610(g) to satisfy one of § 1610’s existing avenues for
abrogating attachment immunity. In this case, the judgment creditors have done that. The judgment creditors
have sufficiently alleged Bank Melli is engaged in commerce in the United States within the meaning of
§ 1610(b)(3).

1

TRIA § 201 similarly contains a limitation on attachment and execution. TRIA § 201 requires attachable assets to be defined as
“blocked assets.” Section 201(d)(2)(A) defines a “blocked asset” as
any asset “seized or frozen by the United States under section 5(b) of
the Trading With the Enemy Act (50 U.S.C. App. 5(b)) or under sections 202 and 203 of the International Emergency Economic Powers
Act (50 U.S.C. 1701; 1702).”

92a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
DOCKET NOS. 13-15442, 13-16100
————
MICHAEL BENNETT; LINDA BENNETT,
AS CO-ADMINISTRATORS OF THE ESTATE OF
MARIA ANN BENNETT,
Plaintiffs-Appellees,
v.
THE ISLAMIC REPUBLIC OF IRAN,
Defendant,
v.
VISA INC.; FRANKLIN RESOURCES, INC.,
Defendants-third-partyplaintiffs–Appellees,
v.
GREENBERG AND ACOSTA JUDGMENT CREDITORS,
Plaintiff-third-partydefendant–Appellee,
HEISER JUDGMENT CREDITORS,
Plaintiff-fourth-partydefendant–Appellee,
v.
BANK MELLI,
Plaintiff-third-partydefendant–Appellant.

93a
————
OPINION
————
August 26, 2015
————
Appeals from the United States District Court
for the Northern District of California
Charles R. Breyer, Senior District Judge, Presiding
————
Argued and Submitted
April 15, 2015—San Francisco, California
————
Before: Alex Kozinski and Susan P. Graber, Circuit
Judges, and Dee V. Benson,* Senior District Judge.
————
Opinion by Judge Kozinski
————
KOZINSKI, Circuit Judge:
Congress has enacted two statutes to help victims of
terrorism collect on money judgments against the foreign
states responsible for sponsoring the attacks. We consider whether victims can collect from an instrumentality
of a state that has sponsored terrorism when the instrumentality is a separate juridical entity that wasn’t a party
to the underlying lawsuit.
I. Background
The Foreign Sovereign Immunities Act (FSIA) is the
sole basis for jurisdiction over foreign states in U.S.
* The Honorable Dee V. Benson, Senior District Judge for the U.S.
District Court for the District of Utah, sitting by designation.

94a
courts. 28 U.S.C. § 1330. Under the FSIA, foreign sovereigns are generally immune from jurisdiction, except for
a few carefully delineated exceptions. One such exception is for claims arising out of acts of state-sponsored terrorism. See id. at § 1605A.
Four groups of individuals—the Bennett, Greenbaum,
Acosta and Heiser creditors—hold separate judgments
obtained in U.S. courts against the Republic of Iran,
based on various terrorist attacks that occurred between
1990 and 2002. The Bennett creditors are owed almost
$13 million in damages for Iran’s role in the 2002 bombing of a cafeteria at Hebrew University in Jerusalem.
The Greenbaum creditors are owed almost $20 million for
a 2001 bombing of a Jerusalem restaurant. The Acosta
creditors are owed over $350 million for Iran’s part in a
1990 mass shooting. And, finally, the Heiser creditors
are owed over $590 million for the 1996 bombing of the
Khobar Towers in Saudi Arabia. All judgments were by
default, but no one disputes that they are valid and that
all four sets of creditors are owed money by Iran.
However, winning a money judgment against a foreign
state isn’t the end of the story, because sovereign immunity separately protects the assets of a foreign sovereign
from attachment. For years, the state-sponsored terrorism exception to the FSIA created an anomaly—it abrogated a foreign sovereign’s immunity from judgment, but
not its immunity from collection. Terrorism victims
therefore had a right without a meaningful remedy.
Congress subsequently enacted two statutes closing
this loophole: section 201(a) of the Terrorism Risk Insurance Act (TRIA) and 28 U.S.C. § 1610(g). Section 201
was enacted to “deal comprehensively with the problem
of enforcement of judgments rendered on behalf of victims of terrorism . . . by enabling them to satisfy such

95a
judgments through the attachment of blocked assets of
terrorist parties.” H.R. Rep. No. 107-779, at 27 (2002)
(Conf. Rep). “Blocked assets” are those that have been
seized or frozen by the federal government. The TRIA
provides that “the blocked assets of [a] terrorist party
(including the blocked assets of any agency or instrumentality of that terrorist party) shall be subject to
execution.” Terrorism Risk Insurance Act of 2002, Pub.
L. No. 107-297, § 201(a), 116 Stat. 2322, 2337 (codified at
28 U.S.C. § 1610 Note “Satisfaction of Judgments from
Blocked Assets of Terrorists, Terrorist Organizations,
and State Sponsors of Terrorism”).
Section 1610(g), enacted in 2008 as an amendment to
the FSIA, extended the TRIA’s abrogation of asset immunity to funds that were not blocked. It provides that
“the property of a foreign state against which a judgment
is entered under [this statute], and the property of an
agency or instrumentality of such a state, including property that is a separate juridical entity or is an interest
held directly or indirectly in a separate juridical entity, is
subject to attachment in aid of execution . . . upon that
judgment as provided in this section.”
28 U.S.C.
§ 1610(g).
These two statutes give creditors a theoretical avenue
to collect on the judgments they’ve obtained. But, of
course, they have to find the money first—and Iranian
assets within the United States are notoriously hard to
come by. An opportunity arose in 2007, when the Department of Treasury issued a blocking order prohibiting
certain Iranian assets in the United States from being
transferred back to Iran. That blocking order was based
on Iran’s illicit nuclear program, not its state-sponsored
terrorism. Nonetheless, it meant that various financial
institutions had money owed to Iran sitting in accounts

96a
within the United States. The creditors here saw a rare
chance to collect on their judgments and filed a complaint
seeking access to $17.6 million in blocked assets held by
Visa and Franklin1 but owed to Bank Melli—Iran’s national bank. Fearing they might be liable to Bank Melli if
they simply handed the money over to the creditors, Visa
and Franklin responded by filing a third-party complaint
to interplead Bank Melli and obtain final resolution of
who was entitled to the funds. Visa and Franklin deposited the funds into the district court’s registry. Bank
Melli made an appearance and moved to dismiss. The
district court denied that motion but certified its order
for interlocutory appeal under 28 U.S.C. § 1292(b). We
review de novo. See Colony Cove Props., LLC v. City of
Carson, 640 F.3d 948, 955 (9th Cir. 2011).
II. Discussion
Bank Melli makes four distinct arguments as to why
the creditors shouldn’t be able to collect from the funds
held by Visa and Franklin. First, it argues that the assets are protected by sovereign immunity notwithstanding the TRIA and section 1610(g), because those statutes
waive sovereign immunity only for the “terrorist party”—Iran—and Bank Melli is a separate juridical entity
from Iran. Second, it asserts that Federal Rule of Civil
Procedure 19 requires dismissal of this entire action, because Bank Melli is an indispensable party that cannot be
joined. Third, it argues that applying the TRIA and section 1610(g) to the judgments at issue here would be impermissibly retroactive, because the creditors obtained
their judgments against Iran before the statutes’ enact1

Visa allegedly owes Bank Melli the money for the bank’s facilitation
of Visa cards in Iran. When the blocking order was issued, Visa invested the assets owed to Bank Melli in a mutual fund held by
Franklin, an investment company.

97a
ment. And, finally, Bank Melli claims that the frozen assets aren’t subject to the TRIA or section 1610(g) because those statutes extend only to assets “owned” by the
foreign entity. Because the assets here are technically in
the possession of Visa and Franklin, Bank Melli argues
that they aren’t yet “owned” by Bank Melli.
1. Foreign Sovereign Immunity
Bank Melli argues that the TRIA and section 1610(g)
do not abrogate the asset immunity of all of a terrorist
state’s instrumentalities, only those that are alter egos of
the state. For this proposition, Bank Melli relies principally on the Supreme Court’s holding in First National
City Bank v. Banco Para El Comercio Exterior de Cuba
(“Bancec”), that “government instrumentalities established as juridical entities distinct and independent from
their sovereign should normally be treated as such.” 462
U.S. 611, 626-627 (1983). Under Bancec, the only conditions under which an instrumentality may be equated
with the sovereign are (1) when it is “so extensively controlled by its owner that a relationship of principal and
agent is created” or (2) when failure to regard them as
equivalent “would work fraud or injustice.” Id. at 629 (internal quotation marks omitted). Bank Melli contends
that the TRIA and section 1610(g) incorporate Bancec’s
distinction between instrumentalities that are separate
juridical entities and those that are alter egos, and abrogates immunity only as to those instrumentalities that,
unlike Bank Melli, fall within Bancec’s two exceptions.
We cannot reconcile Bank Melli’s argument with the
plain text of either statute. Section 201(a) of the TRIA
specifically states that “the blocked assets of [a] terrorist
party (including the blocked assets of any agency or instrumentality of that terrorist party) shall be subject to
execution.” § 201(a) (emphasis added). Bank Melli ar-

98a
gues that the parenthetical phrase is merely illustrative
and does not purport to expand the meaning of “terrorist
party” beyond Bancec. But we must assume Congress
meant what it said when it used the term “any agency or
instrumentality.” See United States v. Gonzales, 520
U.S. 1, 5 (1997). “Read naturally, the word ‘any’ has an
expansive meaning, that is, ‘one or some indiscriminately
of whatever kind.’ ” Id. (quoting Webster’s Third New
International Dictionary 97 (1976)). Because “Congress
did not add any language limiting the breadth of that
word,” we must read the statute as referring to all instrumentalities. Id.
Furthermore, Bank Melli’s interpretation “flouts the
rule that a statute should be construed so that effect is
given to all its provisions, [and] no part will be inoperative or superfluous.” Clark v. Rameker, 134 S. Ct.
2242, 2248 (2014) (internal quotation marks omitted).
Because an alter ego under Bancec is the terrorist party,
there would be no need for Congress to separately provide for attachment against instrumentalities unless it
sought to extend coverage to those instrumentalities that
cannot be equated with the terrorist party itself.
We therefore agree with the Second Circuit that it is
“clear beyond cavil that Section 201(a) of the TRIA provides courts with subject matter jurisdiction over postjudgment execution and attachment proceedings against
property held in the hands of an instrumentality of the
judgment-debtor, even if the instrumentality is not itself
named in the judgment.” Weinstein v. Islamic Republic
of Iran, 609 F.3d 43, 50 (2d Cir. 2010).
Congress spoke even more clearly in section 1610(g).
Section 1610(g) allows attachment against property held
by an instrumentality “that is a separate juridical entity,”
“regardless of ” the five factors that several courts—

99a
including ours—have considered when deciding whether
an instrumentality is an alter ego under Bancec. See
Flatow v. Islamic Republic of Iran, 308 F.3d 1065, 10711072 & n.9 (9th Cir. 2002). By specifically referencing—
and disavowing—Bancec’s test, section 1610(g) makes
unmistakably clear that whether or not an instrumentality is an alter ego is irrelevant to determining whether its
assets are attachable.
Bank Melli argues that section 1610(g) doesn’t permit
attachment because the 1955 Treaty of Amity between
the U.S. and Iran requires that Iranian companies “have
their juridical status recognized,” prohibits “unreasonable or discriminatory measures” against them and requires that their property be protected in accordance
with international law. Treaty of Amity, Economic Relations and Consular Rights Between the United States of
America and Iran, Aug. 15, 1955, 8 U.S.T. 899, 902-903.
But we cannot read a 60-year-old treaty provision as barring application of the plain text of a later-enacted federal law. See Breard v. Greene, 523 U.S. 371, 376 (1998)
(per curiam). In any event, there’s nothing unreasonable, discriminatory or in violation of international law
about waiving sovereign immunity for terrorism-based
judgments. Bank Melli’s assets aren’t subject to attachment because it’s an Iranian company, but because it’s an
instrumentality of a state that has sponsored terrorism.
Finally, Bank Melli reads section 1610(g)—which allows attachment in aid of execution upon judgments “as
provided in this section”—to mean that attachment immunity is abrogated only if some other provision of section 1610 independently authorizes the attachment. But
the other provisions of section 1610 that abrogate attachment immunity already apply to instrumentalities
with separate juridical status. See 28 U.S.C. § 1610(a)

100a
(abrogating attachment immunity of property of a foreign state when the property is “used for commercial activity in the United States”); id. (defining “foreign state”
by reference to section 1603(a), which states that a “foreign state” includes an instrumentality “which is a separate legal person”); id. at § 1610(b) (abrogating attachment immunity of an instrumentality “engaged in commercial activity in the United States”). And the plain
text of section 1610(g) requires only that the foreign state
be subject to a section 1605A judgment before the property of an instrumentality becomes available for collection. Id. at § 1610(g) (subjecting to attachment “the property of a foreign state against which a judgment is entered under section 1605A, and the property of an agency or instrumentality of such a state” (emphasis added)).
Thus, reading section 1610(g) to require attachment immunity to be grounded in some other subsection of section 1610 would render section 1610(g) a nullity.
In short, both the TRIA and section 1610(g) provide
independently sufficient grounds for abrogating Bank
Melli’s asset immunity for terrorism-based judgments.
2. Rule 19
Federal Rule of Civil Procedure 19 requires that a
person be joined if he “claims an interest relating to the
subject of the action and is so situated that disposing of
the action in the person’s absence may . . . impair or impede the person’s ability to protect the interest[ ] or . . .
leave an existing party subject to a substantial risk of incurring double, multiple, or otherwise inconsistent obligations because of the interest.” Fed. R. Civ. P. 19(a).
“If a person who is required to be joined if feasible cannot be joined, the court must determine whether, in equity and good conscience, the action should proceed among
the existing parties or should be dismissed.” Id. at 19(b).

101a
Bank Melli argues that this case must be dismissed because it is an indispensable party to the lawsuit that cannot be joined, and the action cannot “in equity and good
conscience” proceed without it. According to Bank Melli,
the case is controlled by the Supreme Court’s holding in
Republic of Philippines v. Pimentel, that when “sovereign immunity is asserted, and the claims of the sovereign are not frivolous, dismissal of the action must be ordered where there is a potential for injury to the interests of the absent sovereign.” 553 U.S. 851, 867 (2008).
Pimentel is inapposite. In Pimentel, the judgment at
issue wasn’t against the sovereign—the Republic of Philippines—but rather against the estate of its former dictator, Ferdinand Marcos. The Philippines asserted a right
to certain of Marcos’s assets being held in the United
States, out of which various creditors were trying to satisfy their judgments against Marcos. No one disputed
that the Philippines was a required party, because—as a
type of creditor itself—it clearly had a legal interest in
how the funds were disposed of. Nor was there a dispute
that the Philippines was sovereignly immune and therefore couldn’t be joined.
Here, by contrast, the sovereign is a judgment debtor,
not a creditor. Iran has already had a full and fair opportunity to assert its interests in court. It is undisputed
that Iran owes money to the creditors and that the money held by Visa and Franklin is owed to Iran. Iran,
therefore, has no further interests to assert. Nor does
Bank Melli have an independent interest to assert: Because its attachment immunity with respect to the funds
held by Visa and Franklin is abrogated by the TRIA and
section 1610(g), Bank Melli is Iran for the limited purposes of this interpleader action. This is solely a collection proceeding, and a judgment debtor isn’t generally

102a
considered an indispensable party to an action to enforce
its debts. See Restatement (Second) of Judgments § 8
(1982) (suggesting courts may enforce attachment of
property absent the judgment debtor because he “may
make an appearance to contest the court’s jurisdiction
over the property without thereby submitting to the jurisdiction of the court”); cf. Cal. Civ. Proc. Code § 708.220
(“judgment debtor . . . [is] not an indispensable party” to
an enforcement proceeding). Therefore, none of Rule
19(a)’s prerequisites for dismissal has been met: The
court can “accord complete relief among existing parties”; Bank Melli’s ability to protect its interests isn’t impaired; and there’s no “substantial risk of an existing party incurring double, multiple, or otherwise inconsistent
obligations.” Fed. R. Civ. P. 19(a).
Even if that were not so, Rule 19(a) is inapposite because Bank Melli can be joined in this action. Unlike the
Philippines in Pimentel, Bank Melli is not protected by
sovereign immunity in this proceeding, because, as discussed above, Congress has abrogated the immunity of
instrumentalities of terrorist parties in collection actions.
Finally, to hold, as Bank Melli urges, that Rule 19 requires dismissal in this case would effectively eviscerate
section 201 of the TRIA and section 1610(g). A collection
action against a state inherently involves attempting to
obtain funds owned by an entity capable of asserting sovereign immunity. If dismissal is required every time
such an entity sets forth a “non-frivolous” argument as to
why it shouldn’t have to pay, collection will be impossible
as a practical matter. Nothing in Pimentel or Rule 19
dictates such an absurd result.
3. Retroactivity
Bank Melli next argues that the creditors cannot use
the TRIA and section 1610(g) to collect on their judg-

103a
ments because those judgments predated the enactment
of the two collection statutes. When, as here, Congress
has not explicitly provided for a statute’s retroactive effect, we must ask whether retroactive application “would
impair rights a party possessed when he acted, increase a
party’s liability for past conduct, or impose new duties
with respect to transactions already completed.” Landgraf v. USI Film Prods., 511 U.S. 244, 280 (1994). Bank
Melli argues that if the TRIA and section 1610(g) permit
attachment of its assets, it “would go from having no liability for [conduct predating the statutes’] enactment to
being liable for the entirety of the resulting judgments.”
But the TRIA and section 1610(g) do not impose retroactive liability on Iran—they merely provide a means of
collection for judgments where liability has already been
established. Iran was liable for its terrorism-related
conduct long before the TRIA and section 1610(g) were
enacted. Iran’s liability results from the former 28
U.S.C. § 1605(a)(7) (now section 1605A), which permitted
U.S. citizen terrorism victims to bring suit against Iran in
federal court. That statute was in force at the time of
Iran’s unlawful conduct. The TRIA and section 1610(g)
do not attach any additional penalty to that conduct—
they only create an avenue for creditors to obtain money
they are already owed.
Bank Melli’s real argument, therefore, must be that,
even though Iran knew its conduct was unlawful and subject to liability in U.S. courts at the time it sponsored the
relevant terrorist attacks, it did not know that victims
would have the precise avenue for collection they now
have. That hardly implicates the central concern of
Landgraf: that the conduct a defendant engaged in was
innocent at the time it occurred. Here, Iran knew it was
violating the law and that it could be liable; it just be-

104a
lieved that the procedures that existed when it acted
would be insufficient to permit victims to collect on their
judgments. There is no permissible reliance interest in
the inadequacy of enforcement procedures. Iran assumed the risk that the money it owed in damages based
on its sponsorship of terrorism would eventually be collected upon. Indeed, it’s clear that the TRIA and section
1610(g) were designed precisely to provide an avenue to
recovery for existing claimants with judgments against
terrorist states. See Estate of Heiser v. Islamic Republic
of Iran, 807 F. Supp. 2d 9, 26 (D.D.C. 2011). To say that
all terrorist attacks prior to the enactment of the collection statutes cannot result in collectible judgments finds
no basis in the Supreme Court’s retroactivity cases and
runs counter to Congress’s clear intent.
4. Ownership of the Assets
Bank Melli argues that the TRIA and section 1610(g)
apply only to assets “owned” by Bank Melli and—while it
concedes it has a 100% beneficial interest in the assets
held by Visa and Franklin—it claims it doesn’t “own”
them yet because the funds have been blocked.
But there’s more to ownership than physical possession. The question of how to determine the funds’ ownership is controlled by our holding in Peterson v. Islamic
Republic of Iran, 627 F.3d 1117, 1130 (9th Cir. 2010).
There, we noted that “[e]nforcement proceedings in federal district court are governed by the law of the state in
which the court sits” unless a federal statute dictates
otherwise. Id. We held that the “FSIA does not provide
methods for the enforcement of judgments against foreign states, only that those judgments may not be enforced by resort to immune property.” We therefore concluded that “California law on the enforcement of judgments applies.” Id. Finally, we noted that “California

105a
enforcement law authorizes a court to ‘order the judgment debtor to assign to the judgment creditor . . . all or
part of a right to payment due or to become due, whether
or not the right is conditioned on future developments.’ ”
Id. at 1130-1131 (quoting Cal. Civ. Proc. Code
§ 708.510(a)) (emphasis added).
Those holdings collectively dispose of Bank Melli’s argument here. Because the FSIA doesn’t provide a method for enforcement, California law applies to this proceeding and, under California law, money “owed to” Bank
Melli may be assigned to judgment creditors. The fact
that Bank Melli is not yet in physical possession of the
funds is immaterial.
* * * * *
Bank Melli has set forth numerous creative arguments
as to why it shouldn’t be liable for Iran’s debt. But this is
an arena in which Congress has spoken with unmistakable clarity. Section 201 of the TRIA and 28 U.S.C.
§ 1610(g) permit victims of terrorism to collect money
they’re owed from instrumentalities of the state that
sponsored the attacks. Nothing in the text of the FSIA,
Rule 19 or the Supreme Court’s retroactivity cases compels a different result. The district court correctly denied
Bank Melli’s motion to dismiss.
AFFIRMED.

106a
APPENDIX F
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
————
DOCKET NO. 3:11-CV-05807 (CRB)
————
MICHAEL BENNETT, et al.,
Plaintiffs,
v.
THE ISLAMIC REPUBLIC OF IRAN, et al.,
Defendants.
————
ORDER DENYING MOTION TO DISMISS
————
February 28, 2013
————
This case involves an Iranian instrumentality that
seeks to avoid payment to American victims of Iranian
terrorist acts. Specifically, four groups of judgment
creditors (“Plaintiffs”) who hold judgments against Iran
seek to recover assets (“the Blocked Assets”) held by
Third Party Plaintiffs Visa and Franklin.1 Those assets
are owed to an Iranian instrumentality, Bank Melli, but
have been blocked by executive orders issued by the
President of the United States and blocking regulations
issued by the United States Department of the Treasury,
1

Visa is a financial services company that had a commercial relationship with Third Party Defendant Bank Melli. Compl. (dkt. 16) ¶ 16.
A Franklin subsidiary distributed shares in the mutual fund in which
the Blocked Assets were invested. Id. ¶ 18.

107a
Office of Foreign Assets Control (“OFAC”). Visa and
Franklin brought this interpleader action “to obtain a determination as to which [of the groups of judgment creditors], if any, has priority with respect to those assets to
satisfy their judgments or their claims.” Compl. ¶ 4.
Bank Melli has appeared in the case, and now moves to
dismiss it in its entirety. See generally MTD (dkt. 112).
I. BACKGROUND
A. Bank Melli and the Blocked Assets
Bank Melli is Iran’s largest financial institution. MTD
at 2. Its stock is wholly owned by the Iranian government. Id. The Blocked Assets at issue in this case are
“funds due and owing by contract to Bank Melli pursuant
to a commercial relationship with [Visa].” Compl. ¶ 16.
In 1984, the United States designated Iran a terrorist
party pursuant to section 6(j) of the Export Administration Act of 1797, and, pursuant to the International
Emergency Economic Powers Act, the President directed that “all property and interests in property in the
United States of persons and entities listed in the order
or subsequently listed are blocked and may not be transferred, paid, exported, withdrawn, or otherwise dealt in.”
Id. ¶ 17. The United States added Bank Melli to the list,
freezing its assets, in October 2007, upon finding that
from 2002 to 2006, Bank Melli had “facilitated numerous
purchases of sensitive materials for Iran’s nuclear and
missile programs,” “provided a range of financial services
on behalf of Iran’s nuclear and missile industries,” and
“employed deceptive banking practices to obscure its involvement from the international banking system.” Id.;
Fact Sheet: Designation of Iranian Entities and Individuals for Proliferation Activities and Support for Terrorism, U.S. Dep’t of the Treasury Press Ctr. (Oct. 25,

108a
2007), http://www.treasury.gov/press-center/press-releases/
pages/hp644.aspx (hereinafter “10/25/07 Fact Sheet”).
Visa and Franklin claim no ownership interest in the
Blocked Assets and “only continue[ ] to hold them because, pursuant to OFAC regulations, the assets cannot
be released to Bank Melli or to anyone else without a license from OFAC or an appropriate court order.”
Compl. ¶ 18.2
B. Procedural History
Plaintiffs are four groups of individuals (the Bennett
Plaintiffs, the Greenbaum Plaintiffs, the Acosta Plaintiffs, and the Heiser Plaintiffs) who obtained default
judgments against the government of Iran. See MTD at
2. The Bennett Plaintiffs sued Iran over the July 31,
2002 bombing of a cafeteria at Hebrew University in Jerusalem. MTD at 3 n.2. On August 30, 2007, they obtained a default judgment of almost $13 million under 28
U.S.C. § 1605(a)(7). Id. The Greenbaum Plaintiffs sued
Iran over the August 9, 2001 bombing of a Jerusalem restaurant. Id. On August 10, 2006, they obtained a default
judgment of almost $20 million under 28 U.S.C.
§ 1605(a)(7). Id. The Acosta Plaintiffs sued Iran over the
November 5, 1990 shooting of various individuals, including U.S. Postal Officer Carlos Acosta. Id. On August 26,
2008, they obtained a default judgment exceeding $350
million under 28 U.S.C. § 1605A. Id. The Heiser Plaintiffs sued Iran over the June 25, 1996 bombing of the
Khobar Towers in Saudi Arabia. Id. On December 22,
2006, they obtained a default judgment of over $254 million under 28 U.S.C. § 1605(a)(7); on September 30, 2009,
2

Bank Melli does not dispute this, arguing that “[i]f this Court rules in
favor of Bank Melli, the assets will go back to Visa and Franklin.”
Opp’n to Discharge Mot. (dkt. 119) at 2-3.

109a
they obtained a further default judgment of almost $337
million under 28 U.S.C. § 1605A. Id. Bank Melli is not
named as a party to any of the judgments and is not alleged to have been involved in any of the events underlying them. Id. at 4.
On December 2, 2011, the Bennett Plaintiffs filed a
complaint against Visa and Franklin, seeking to execute
against the Blocked Assets in order to satisfy their
judgment. Id. On February 3, 2012, Visa and Franklin
filed their Third Party Complaint in the nature of an interpleader, naming as defendants Bank Melli and other
third-party defendants with potential claims to the
Blocked Assets. See generally Compl. Visa and Franklin
subsequently deposited the assets into this Court’s registry. See dkts. 88-89.
On April 26, 2012, the Clerk entered a default against
Bank Melli. See dkt. 79. On June 12, 2012, however,
Bank Melli entered its appearance, see dkt. 96, and on
July 5, 2012, this Court entered a stipulated order vacating the default, see dkt. 109. Bank Melli then moved to
dismiss the case. See generally MTD.
The Court discharged Visa and Franklin at the November 16, 2012 hearing, and heard preliminary argument on the merits of Bank Melli’s motion to dismiss.
The parties each filed supplemental briefs, see Bank
Melli Br. (dkt. 124); Pls. Br. (dkt. 125), and then, on December 13, 2012, participated in a second and more fulsome hearing on the motion to dismiss. See Mins. (dkt.
127). The Court then took the motion under submission.
II. DISCUSSION
Bank Melli’s motion makes four arguments for dismissal: (A) that under First National City Bank v. Banco
Para El Comercio Exterior de Cuba, 462 U.S. 611 (1983)
(“Bancec”), it cannot be held liable for Iran’s debts;

110a
(B) that the statutes on which Plaintiffs rely to pursue
the Blocked Assets, the Terrorism Risk Insurance Act of
2002 (TRIA), Pub. L. No. 107-297, § 201(a), 116 Stat.
2322, 2337 (hereinafter “TRIA”), and the Foreign Sovereign Immunities Act (FSIA), 28 U.S.C. § 1610(g) (hereinafter “section 1610(g)”), do not apply retroactively;
(C) that TRIA and section 1610(g) only apply where the
assets at issue are “assets of ” and “property of ” Bank
Melli, allegations that are missing here; and (D) that
Federal Rule of Civil Procedure 19 requires dismissal.
See generally MTD. This Order addresses each argument in turn.
A. Bancec
Bank Melli argues first that it cannot be held liable for
the debts of Iran, because, although it is an instrumentality of Iran, it is juridically distinct. See MTD at 6. No
doubt, the Supreme Court held in Bancec, 462 U.S. at
626-627, that “government instrumentalities established
as juridical entities distinct and independent from their
sovereign should normally be treated as such.” In addition, the Treaty of Amity between the United States and
Iran states that “[c]ompanies constituted under the applicable laws” of each country must “have their juridical
status recognized within the territories of the other.”
Treaty of Amity, Economic Relations, and Consular
Rights, U.S.-Iran, Art. III ¶ 1, Aug. 15, 1955, 8 U.S.T.
899.3

3

But see Weinstein v. Islamic Rep. of Iran, 609 F.3d 43, 53 (2d Cir.
2010), cert. denied, 133 S. Ct. 21 (June 25, 2012) (explaining that the
Supreme Court found in Sumitomo Shoji America, Inc. v. Avagliano, 457 U.S. 176 (1982), that this language is found in a number of
treaties, and was not designed to give separate juridical status to instrumentalities).

111a
However, two statutes permit judgment creditors to
execute on Blocked Assets in this context, abrogating
Bancec as to terrorism-based judgments against foreign
state sponsors of terrorism. Section 1610(g)4 states that
“the property of a foreign state against which a judgment
is entered under section 1605A, and the property of an
agency or instrumentality of such a state, including
property that is a separate juridical entity . . . is subject
to attachment in aid of execution, and execution, upon
that judgment.” TRIA5 similarly provides:
Notwithstanding any other provision of law . . . in
every case in which a person has obtained a judgment against a terrorist party on a claim based upon an act of terrorism, or for which a terrorist party
is not immune under section 1605(a)(7) of title 28
United States Code, the blocked assets of that terrorist party (including the blocked assets of any
agency or instrumentality of that terrorist party)
shall be subject to execution or attachment in aid of
execution in order to satisfy such judgment.
Neither of these statutes is the least bit ambiguous—
both allow for attaching the blocked assets of a terrorist
instrumentality.6 The Court therefore agrees with the
Second Circuit’s holding in Weinstein that the statutes’
plain language defeats Bank Melli’s argument. 609 F.3d
at 49 (“If this did not constitute an independent grant of
jurisdiction over the agencies and instrumentalities, the
parenthetical would be a nullity.”).
4
5
6

Emphasis added.
Emphasis added.

Bank Melli makes various arguments for a strained interpretation
of this language in which instrumentalities’ assets are not subject to
attachment, including relying on cases decided before these statutes
were enacted; the Court rejects such arguments as unpersuasive.

112a
Incidentally, the Second Circuit went on to explain
that its interpretation was also supported by a floor
statement by one of TRIA’s sponsors.7 Id. at 50. Bank
Melli mischaracterizes Weinstein as having “based its
holding on” that legislative history—not so. See Reply
(dkt. 117) at 6; Weinstein, 609 F.3d at 50 (“even if, contrary to fact, there were an ambiguity here, it would be
resolved in plaintiff ’ s favor by the legislative history”).
Bank Melli then makes much of the fact that Senator
Harkin’s words “were never uttered on the Senate floor”
but were added to the congressional record after the
vote. See Reply at 6-7. As Plaintiffs note, “Senators can,
and routinely do, revise and extend their on-floor remarks for inclusion in the Congressional Record.” Pls.’
Opp’n to MTD (dkt. 115) at 9 n.7. Regardless of the
weight to which the floor statement is entitled, however,
the plain language of the statutes is unambiguous and
dispositive. The Court therefore rejects this argument
for dismissal.
B. Retroactivity
Bank Melli next argues that, even if the statutes mean
what the Court understands them to mean, they cannot
be applied to this case without rendering them impermissibly retroactive. MTD at 15-17. A statute “is retroactive if it alters the legal consequences of acts completed
before its effective date.” Chang v. United States, 327
F.3d 911, 920 (9th Cir. 2003) (citing Miller v. Florida, 482
U.S. 423, 430 (1987)). To determine whether a statute is

7

That statement included the language: “for purposes of enforcing a
judgment against a terrorist state, title II does not recognize any juridical distinction between a terrorist state and its agencies or instrumentalities.” 148 Cong. Rec. S11524-01 (daily ed. Nov. 19, 2002)
(statement of Sen. Harkin).

113a
retroactive, courts apply the two-part test set out in
Landgraf v. USI Film Products, 511 U.S. 244, 280 (1994).
“First, courts must ‘determine whether Congress has
expressly prescribed the statute’s proper reach,’ ” in
which case the language used by Congress controls. See
Ctr. For Biological Diversity v. U.S. Dep’t of Agric., 626
F.3d 1113, 1117 (9th Cir. 2010) (quoting Landgraf, 511
U.S. at 280). The Court rejects Plaintiffs’ argument that
TRIA’s plain language expresses Congress’ intent that it
apply retroactively. See Pls. Br. at 4. Plaintiffs note that
Section 201 of TRIA states that it applies “in every case”
in which a person “has obtained a judgment” against a
terrorist party . . . and renders the terrorist party’s
blocked assets subject to execution to the extent of any
compensatory damages for which the terrorist party “has
been adjudged liable.” Id. While that language might
support Plaintiffs’ interpretation, it falls quite short of an
“ ‘unambiguous directive’ or ‘express command’ that the
statute . . . be applied retroactively.” See Ctr. for Biological Diversity, 626 F.3d at 1118 (quoting Martin v.
Hadix, 527 U.S. 343, 354 (1999)).
Second, under Landgraf, “absent such express language, courts must ‘determine whether the new statute
would have retroactive effect, i.e., whether it would impair rights a party possessed when he acted, increase a
party’s liability for past conduct, or impose new duties
with respect to transactions already completed.’ ” Id. at
1117 (quoting Landgraf, 511 U.S. at 280). If a statute
would operate retroactively at step two, it does not apply.
Id. Bank Melli states, and Plaintiffs do not dispute, that
at the time of the conduct underlying Plaintiffs’ judgments, Bank Melli’s assets could not have been seized to
satisfy Iranian government debts. MTD at 15. Accordingly, Bank Melli contends, seizing Bank Melli’s assets

114a
now to satisfy a judgment based on “conduct that occurred before Congress enacted [the laws] would clearly
‘increase [Bank Melli’s] liability for past conduct.’ ” Id. at
16. Although this argument holds some initial appeal, the
Court finds that it falters under close scrutiny, for two alternative reasons.
1. Bank Melli’s Conduct Post-TRIA
Bank Melli’s argument depends upon a simplified narrative in which the only significant events, for example, in
the case of the Bennett Plaintiffs, are: (1) the bombing at
Hebrew University, in July 2002; (2) TRIA’s enactment,
in November 2002; and (3) the Bennett Plaintiffs’ default
judgment against Iran, in August 2007. Such a narrative
enables Bank Melli to argue that, as a statute’s retroactivity turns on “when the primary conduct at issue in the
suit took place,” the primary conduct at issue here is the
bombing. See MTD at 16 (citing Scott v. Boos, 215 F.3d
940, 949 (9th Cir. 2000)). But Bank Melli’s narrative
omits an additional event of great significance: the freezing of Bank Melli’s assets in October 2007 in light of
OFAC’s findings that, from 2002 to 2006, “Bank Melli . . .
provided a range of financial services on behalf of Iran’s
nuclear and missile industries.” See 10/25/07 Fact Sheet.
Plaintiffs therefore argue that, because “the illicit conduct underlying the blocking of Bank Melli’s property
and subjecting such property to execution in satisfaction
of judgments against Iran[ ] occurred years after TRIA’s
enactment,” Bank Melli should have understood that “its
nefarious conduct could and would result in its U.S. property being blocked and executed against pursuant to
TRIA.” Pls.’ Opp’n to MTD at 16.
Bank Melli responds that “later secondary conduct—
even if wrongful—does not eliminate a statute’s retroactive effect.” Bank Melli Br. at 2. In support of this as-

115a
sertion, Bank Melli relies on three cases, Johnson v.
United States, 529 U.S. 694 (2000), Vartelas v. Holder,
132 S. Ct. 1479 (2012), and Tyson v. Holder, 670 F.3d
1015 (9th Cir. 2012). See Reply at 11; Bank Melli Br. at
2-3. None apply here.
In Johnson, 529 U.S. at 697-698, Congress had enacted a statute authorizing a court to impose an additional
term of supervised release if a defendant violated conditions of his initial release; the defendant had been convicted before Congress enacted the statute, but he violated the conditions of his release after Congress enacted
the statute. Johnson appealed his sentence, arguing that
applying the new statute to him violated the Ex Post Facto Clause. Id. at 698. The Sixth Circuit found that the
application of the statute was not retroactive, because it
punished Johnson’s violations of the conditions of supervised release, which occurred after the statute was
amended. Id. at 698-699. The Supreme Court disagreed,
concluding that the “postrevocation penalties relate to
the original offense,” and that “to sentence Johnson to a
further term of supervised release under [the statute]
would be to apply this section retroactively.” Id. at 701.
Importantly, the Court’s conclusion in Johnson was
driven by “the serious constitutional questions that would
be raised by construing revocation and reimprisonment
as punishment for the violation of the conditions of supervised release.” Id. at 700. The Court noted that conduct violating supervised release need not be criminal
and need only be found by a judge under a preponderance of the evidence standard; in addition, where the
conduct is criminal, it could form the basis for a separate
prosecution, which would trigger double jeopardy concerns. Id. It is for those reasons that the Court “attribute[d] postrevocation penalties to the original convic-

116a
tion.” Id. at 701. None of those reasons are present
here: proof beyond a reasonable doubt, double jeopardy,
and the myriad of weighty constitutional issues that surround criminal sentencing have no bearing on this civil
matter.
Vartelas and Tyson, though not criminal cases, are
similarly inapposite.8
In Vartelas, 132 S. Ct. at 1485, a legal permanent resident had pled guilty to conspiracy to make or possess
counterfeit securities in 1994, for which he received a
short sentence. He traveled regularly thereafter to visit
his aging parents in Greece, but in 2003, he was stopped
upon his return and an immigration officer classified him
as an alien seeking admission under the Illegal Immigration Reform and Immigrant Responsibility Act (IIRIRA), a statute enacted in 1996. Id. at 1483, 1485. The
Second Circuit rejected Vartelas’s argument that IIRIRA operated prospectively. Id. at 1486. The Supreme
Court disagreed, holding that neither Vartelas’s sentence
nor the immigration law in effect in 1994 prevented Vartelas from visiting his parents in Greece, and so applying
IIRIRA to him attached “ ‘a new disability’ to conduct
over and done well before the provision’s enactment.” Id.
at 1487. As in Johnson, the Court’s conclusion was based
on the principle that it was unfair to attach additional
penalties to the original crime. Rejecting the government’s argument that “the relevant event” was Vartelas’s
8

The case law has long recognized a relationship between criminal
and immigration cases. See Bridges v. Wixon, 326 U.S. 135, 154
(1945) (“Though deportation is not technically a criminal proceeding,
it visits a great hardship on the individual and deprives him of the
right to stay and live and work in this land of freedom. That deportation is a penalty—at times a most serious one—cannot be doubted.”).

117a
“post-IIRIRA act of returning to the United States,” id.
at 1488, the Court held that Vartelas’s “past misconduct
. . . not present travel, is the wrongful activity Congress
targeted,” id. at 1489.
In so holding, the Court drew a sharp distinction between cases in which the subsequent act was illegal
and/or dangerous, and those in which the subsequent act
was “innocent.” See id. at 1489-1490. Thus it distinguished Racketeer Influenced and Corrupt Organizations Act (RICO) prosecutions that encompassed preenactment conduct, because “those prosecutions depended on criminal activity . . . occurring after the provision’s
effective date,” as opposed to IIRIRA, which does not.
Id. at 1489. And it distinguished Fernandez-Vargas v.
Gonzales, 548 U.S. 30 (2006), in which the Court held that
an IIRIRA provision, providing that an alien who reenters the country after having been removed can be removed again under the same removal order, could be applied to an alien who returned illegally before IIRIRA’s
enactment. Id. The Court explained that it was an “ ‘alien’s choice to continue his illegal presence . . . after the
effective date of the new la[w],’ ” and “ ‘not a past act that
he is helpless to undo’ ” that subjected him to the new
law. Id. (quoting Fernandez-Vargas, 548 U.S. at 44).
The Court contrasted the alien in Fernandez-Vargas
with Vartelas, whom it “several times stressed, engaged
in no criminal activity after IIRIRA’s passage.” Id.
(emphasis added). The Court likewise distinguished
cases dealing with laws that prevent felons from possessing firearms, laws that prevent persons convicted of
sex crimes against minors from working in jobs involving
contact with minors, and laws that prevent a person who
has been adjudicated as mentally defective from possessing guns; those laws “target a present danger,” while

118a
“[t]he act of flying to Greece” did not make Vartelas
“hazardous.” Id.; id. at n.7. Deeming Vartelas’s travel
and return “innocent” acts that “involved no criminal infraction,” the Court concluded that applying IIRIRA to
bar Vartelas from traveling abroad “rested not on any
continuing criminal activity, but on a single crime committed years before IIRIRA’s enactment.” Id. at 1490.
Bank Melli cannot argue that its assistance in Iran’s nuclear proliferation efforts is either an “innocent act,” akin
to visiting one’s elderly parents in Greece, or something
Bank Melli was “helpless to undo.” The Court’s concerns
in Vartelas are absent here.
Moreover, Tyson is analogous to Vartelas. In Tyson,
670 F.3d at 1017, a lawful permanent resident was convicted in 1980 of importing heroin, following her consent
to a bench trial with stipulated facts and testimony.
Twenty-four years later, she left the United States and
was denied re-entry. Id. She sought a waiver of inadmissibility under former § 212(c), which had been repealed in 1996. Id. In so doing, she relied on INS v. St.
Cyr., 533 U.S. 289 (2001), in which the Supreme Court
had held that § 212(c) relief remained available to aliens
who entered plea bargains with the expectation that they
would remain eligible for a waiver. Id. The Ninth Circuit
concluded that Tyson was entitled to invoke St. Cyr. Id.
at 1020. The court explained that applying the repeal of
§ 212(c) to Tyson would impose “an impermissible retroactive effect on aliens . . . who in reliance on the possibility of discretionary relief, agreed to a stipulated facts trial.” Id. at 1022.
Tyson turned on a lawful permanent resident’s settled
expectations about the impact of a criminal conviction.
See id. at 1021-1022. In light of St. Cyr., it is no surprise
that the court found it unfair to prevent Tyson from ap-

119a
plying for a § 212(c) waiver. And, consistent with Vartelas, it is no surprise that the court would not wish to
add to the consequences of Tyson’s original conviction by
denying her re-entry based only on the innocuous act of
travel. See id. at 1021 (identifying the only two consequences of Tyson’s stipulated facts trial in 1980).
All three of Bank Melli’s cases therefore involve, and
reject, attempts to attach extra penalties to an individual’s original criminal conviction based on subsequent innocuous or non-criminal behavior. That is not this case.
This case involves, instead: (1) terrorist act(s) by the government of Iran; (2) the enactment of TRIA, which did
not make Bank Melli’s assets subject to attachment for
Iranian debts, but should have put Bank Melli on notice
of that possibility; and (3) default judgment(s) against
Iran; followed by (4) Bank Melli’s support for Iran’s nuclear and missile industries; and (5) this government’s resulting decision to freeze Bank Melli’s assets. There is no
original criminal conviction against Bank Melli. Bank
Melli’s assets are subject to attachment in this case because of Bank Melli’s own actions, post-TRIA, in supporting Iran’s nuclear and missile industries. Those actions
are not innocuous or harmless. Accordingly, the Court
rejects Bank Melli’s retroactivity argument.
2. Post-Judgment Enforcement Action
In the alternative, Bank Melli’s retroactivity argument
fails because Bank Melli misconstrues what TRIA does.
Bank Melli argues that Plaintiffs seek to use TRIA to
make it liable for something for which it was not liable
pre-TRIA. MTD at 15. In both motion hearings and in
its supplemental briefing, Bank Melli has maintained that
liability and collectability are interchangeable concepts;
that is, that collecting money from Bank Melli in connection with Iran’s actions is the equivalent of holding Bank

120a
Melli liable for Iran’s actions. See, e.g., Bank Melli Br. at
3-4 (citing snippets from various cases using terms like
“liability for a money judgment”). The Court disagrees.
This case is not about holding Bank Melli liable for Iran’s
actions, it is simply about collecting money from Iran,
wherever that money can be found.9
Neither TRIA nor section 1610(g) speak of shifting liability from a terrorist party to its instrumentality. Both
speak of attaching an instrumentality’s assets in aid of
executing a judgment against a terrorist party. See section 1610(g) (stating that “the property of an . . . instrumentality of such a state . . . is subject to attachment in
aid of execution, and execution, upon that judgment”);
TRIA (stating that “(. . . the blocked assets of any . . . instrumentality of that terrorist party) shall be subject to
execution or attachment in aid of execution in order to
satisfy such judgment”). These laws “merely provide[ ]
an exception to foreign sovereign immunity from execution for assets of . . . instrumentalities of foreign sovereign terrorist parties in the post-judgment context of execution and attachment proceedings to satisfy judgments
against such foreign sovereign terrorist parties ‘for which
there was original jurisdiction under the FSIA.’ ” Pls.’
Opp’n to MTD at 13 (citing Bennett, et al., v. Islamic
Rep. of Iran, et al., No. 11-80065, 2011 WL 3157089, at *5
(N.D. Cal. July 26, 2011)).

9

By way of analogy, it is as if, after Plaintiffs had obtained their default judgments against Iran, Iran had gone out and purchased Bank
Melli. Like shares in Bank Melli, the law recognizes the Blocked Assets as assets of Iran, to which Iran’s judgment creditors are entitled. Cf. Pls. Br. at 3-4 (“Iran’s liability for the amounts owed under
the Judgments remains the same; the scope of the assets subject
to execution in satisfaction of the Judgments, however, has increased.”).

121a
Bank Melli’s argument to the contrary presupposes
that Bancec, 462 U.S. at 626-627, which held that “government instrumentalities established as juridical entities distinct and independent from their sovereign should
normally be treated as such,” stands for an immutable
principle of law. But Congress created the presumption
of separateness in the first place, see Bancec, 462 U.S. at
627 (in enacting FSIA, “Congress clearly expressed its
intention that duly created instrumentalities of a foreign
state are to be accorded a presumption of independent
status”), and it had the power to revoke that presumption. As discussed above, Congress revoked that presumption in this context through TRIA and section
1610(g). See Estate of Heiser v. Islamic Rep. of Iran, 807
F. Supp. 2d 9, 15 (D.D.C. 2011) (section 1610(g) abrogates
Bancec in the context of terrorism-related judgments);
Weinstein, 609 F.3d at 51 (TRIA overrides presumption
of separateness in Bancec).
Thus in Weinstein, 609 F.3d at 50, where (as here)
plaintiffs sought to recover assets from Bank Melli to satisfy a judgment against Iran, the Second Circuit rejected
Bank Melli’s argument10 that the court should “read the
TRIA as applying, prospectively, only to judgments rendered final after the TRIA’s enactment, and thus not to”
judgments pre-dating TRIA. The Second Circuit explained that “[t]he effect of the TRIA . . . was simply to
render a judgment more readily enforceable against a related third party. The judgment itself was in no way
10

As counsel for Bank Melli candidly conceded at the motion hearing, Bank Melli did not make a retroactivity argument in Weinstein,
and so the Second Circuit did not squarely address that issue. Nonetheless, Bank Melli argued there that TRIA violated the separation
of powers doctrine, and, in connection with that argument, that
TRIA should only be applied prospectively. Id.

122a
tampered with.” Id. at 51. Here, too, the Court is not altering the judgment against Iran in order to hold Bank
Melli liable; it is allowing Iran’s judgment creditors to recover from Iran’s instrumentality because that instrumentality is no longer presumed to be separate from
Iran.11 The Court therefore also rejects Bank Melli’s retroactivity argument because TRIA relates to collectability, not liability.
C. “Assets of ” Bank Melli
Bank Melli also urges dismissal because, it argues, it
does not actually own the Blocked Assets. See MTD at
18-20. For TRIA or section 1610(g) to apply, the funds at
issue must be “assets of ” or “property of ” Bank Melli.
See TRIA; section 1610(g)(1); Calderon-Cardona v.
JPMorgan Chase Bank, N.A., 867 F. Supp. 2d 389, 400
(S.D.N.Y. 2011) (“For the accounts at respondent banks
to be attachable, then, North Korea or one of its agencies
or instrumentalities must actually own it.”). In the Complaint, however, Plaintiffs allege only that the Blocked
Assets are “due and owing by contract to Bank Melli,”
not that Bank Melli “owns” them. See Compl. ¶ 16.
No matter. As Plaintiffs note in their briefing, Federal Rule of Civil Procedure 69 provides that enforcement
proceedings in federal courts are governed by the law of
11

That this case is not about Bank Melli’s liability is further supported by the case law on joinder (discussed below). Where plaintiffs
have secured default judgments against Iran, its instrumentalities
need not even be served with post-judgment motions, which suggests
that collecting assets from those instrumentalities is not about the
instrumentalities’ liability. See Peterson v. Islamic Rep. of Iran, 627
F.3d 1117, 1130 (9th Cir. 2010) (“[s]ervice of post-judgment motions
is not required”); Estate of Heiser, 807 F. Supp. 2d at 23 (“Congress
did not [intend] to require service of garnishment writs on agencies
or instrumentalities of foreign states responsible for acts of statesponsored terrorism”).

123a
the state in which the Court sits, although a federal statute governs if applicable. Pls.’ Opp’n to MTD at 19; Fed.
R. Civ. P. 69(a)(1). The Ninth Circuit explained in Peterson, 627 F.3d at 1130, that “[t]he FSIA does not provide
methods for the enforcement of judgments against foreign states, only that those judgments may not be enforced by resort to immune property . . . . Therefore,
California law on the enforcement of judgments applies
to this suit insofar as it does not conflict with the FSIA.”12
California law treats the Blocked Assets as subject to
execution. In California, all property of a judgment debtor, regardless of the type of interest, is subject to enforcement of a money judgment. See Cal. Civ. Proc.
Code §§ 680.310 (“ ‘Property’ includes real and personal
12

Neither party has argued that federal law conflicts with state law
in this case, or preempts it, as some courts have concluded. See, e.g.,
Hausler v. JPMorgan Chase Bank, 845 F. Supp. 2d 553, 563
(S.D.N.Y. 2012) (“the use of state property law to dictate the range
of assets that are executable under the TRIA would generate absurd
results”); cf. Calderon-Cardona, 867 F. Supp. 2d at 399-405 (applying
state law “because [TRIA] provides no guidance for determining
which blocked assets are ‘of that terrorist party,’ ” but discussing
federal law “for the sake of argument”). Bank Melli’s argument on
this subject is based, instead, on language from a variety of cases,
and from a couple of amicus briefs, supporting the uncontroversial
point that having an interest in property is not necessarily the same
thing as owning property. See MTD at 19-20. Nonetheless, the
Court is aware of no federal law that would alter its conclusion. Certainly, Bank Melli does not cite to any authority, federal or otherwise, holding that a party’s 100% beneficial interest in an asset, or a
vested right to receive a sum certain that has been reduced to cash,
does not constitute an “asset of ” that party. Moreover, the cases
dealing with entitlement to mid-stream electronic fund transfers are
distinguishable on their facts. See, e.g., Estate of Heiser v. Islamic
Rep. of Iran, No. 00-2329, 01-2104, 2012 WL 3776705, at *16 (D.D.C.
Aug. 31, 2012) (describing “Iran’s indefinite, ephemeral interest” in
blocked EFTs).

124a
property and any interest therein.”), 695.010(a) (“Except
as otherwise provided by law, all property of the judgment debtor is subject to enforcement of a money judgment.”), 699.710 (all property subject to enforcement of
money judgment also subject to levy). This includes
property of a judgment debtor that is held by a third party. See id. at § 708.210 (“If a third person has possession
or control of property in which the judgment debtor has
an interest or is indebted to the judgment debtor, the
judgment creditor may bring an action against the third
person”). Thus, in Peterson, 627 F.3d at 1130-1131 (quoting Cal. Civ. Proc. Code § 708.510(a)), the court noted
that “California enforcement law authorizes a court to
‘order the judgment debtor to assign to the judgment
creditor . . . all or part of a right to payment due or to become due, whether or not the right is conditioned on future developments.’ ”
Here, there is no dispute that Bank Melli has a 100%
beneficial interest in the Blocked Assets, and that the
Blocked Assets are already “due and owing” to Bank
Melli from Visa. See Compl. ¶ 16. Those funds—in an
amount certain—have been deposited into the Court’s
registry. See dkts. 88-89. Visa has disclaimed any beneficial ownership interest in the Blocked Assets, explaining that it only continued to hold them because the assets
were blocked. See Compl. ¶ 18; Pls.’ Opp’n to MTD at 21
(“[B]ut for the fact that such funds are blocked, Bank
Melli would be entitled to payment of those funds today.”). Under such circumstances, the Court concludes
that the Blocked Assets are “assets of ” or “property of ”
Bank Melli. The Court therefore rejects this argument
for dismissal.

125a
D. Rule 19
Finally, Bank Melli argues that it is a required party
that cannot be joined due to its sovereign immunity.
MTD at 20-22. Bank Melli’s argument relies almost entirely on Republic of Philippines v. Pimentel, 553 U.S.
13

13

Rule 19 provides, in part:
(a) Persons Required to Be Joined if Feasible.
(1) Required Party. A person who is subject to service of process and whose joinder will not deprive the court of subjectmatter jurisdiction must be joined as a party if :
(A) in that person’s absence, the court cannot accord complete relief among existing parties; or
(B) that person claims an interest relating to the subject of
the action and is so situated that disposing of the action in the
person’s absence may:
(i) as a practical matter impair or impede the person’s
ability to protect the interest; or
(ii) leave an existing party subject to a substantial risk of
incurring double, multiple, or otherwise inconsistent obligations because of the interest . . . .
(b) When Joinder Is Not Feasible. If a person who is required to be
joined if feasible cannot be joined, the court must determine whether, in equity and good conscience, the action should proceed among
the existing parties or should be dismissed. The factors for the court
to consider include:
(1) the extent to which a judgment rendered in the person’s absence might prejudice that person or the existing parties;
(2) the extent to which any prejudice could be lessened or avoided by:
(A) protective provisions in the judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the person’s absence could
be adequate; and
(4) whether the plaintiff would have an adequate remedy if the
action were dismissed for nonjoinder.
Fed. R. Civ. P. 19(a)-(b).

126a
851 (2008). Pimentel, 553 U.S. at 854-858, involved an interpleader action in which human rights victims who had
obtained a judgment against Ferdinand Marcos sought to
attach property held by a bank. Two of the entities in the
suit, the Republic of the Philippines and the Philippine
Presidential Commission on Good Governance (“the
Commission”), invoked sovereign immunity, and were
dismissed; however, the district court allowed the action
to proceed. Id. The Ninth Circuit held that dismissal of
the interpleader suit was not necessary because, although the Philippines and the Commission were “necessary parties” under Rule 19, their claim had so little merit that the interpleader action could proceed without
them. Id. at 860. The Supreme Court reversed, explaining that the Court of Appeals had not given the necessary
weight to the absent entities’ assertion of sovereign immunity: “where sovereign immunity is asserted, and the
claims of the sovereign are not frivolous, dismissal of the
action must be ordered where there is a potential for injury to the interests of the absent sovereign.” Id. at 864867. Bank Melli argues that, as in Pimentel, it is a foreign sovereign not amenable to suit, and so the Court
must dismiss. See MTD at 21-22.
Bank Melli assumes that it is a required party. It is
not. Bank Melli is a mere instrumentality of Iran, and as
such its presence is not central to this case. That conclusion is supported by Estate of Heiser, 807 F. Supp. 2d at
12, in which victims of state-sponsored terrorism sought
to direct Sprint to turn over funds owed to the Telecommunication Infrastructure Company of Iran (“TIC”), an
instrumentality of Iran. Sprint argued that it should be
permitted to interplead TIC into the proceeding. Id. at
23. The court explained that “Congress did not [intend]
to require service of garnishment writs on agencies or in-

127a
strumentalities of foreign states responsible for acts of
state-sponsored terrorism” and that, accordingly, “TIC
[was] not a necessary party to [the] action under applicable law.” 14 Id; cf. Peterson, 627 F.3d at 1130 (under
FSIA, plaintiff need not serve post-judgment motions on
foreign state). Here, the Blocked Assets are owed to an
instrumentality of judgment debtor Iran; such property
is therefore stripped of immunity and subject to execution as a matter of law. See TRIA; section 1610(g). Bank
Melli has failed to demonstrate either that “in [its] absence, the court cannot accord complete relief among existing parties” or that “disposing of the action in [its] absence may (i) . . . impair or impede [its] ability to protect
the interest; or (ii) leave an existing party subject to a
substantial risk of incurring double, multiple, or otherwise inconsistent obligations.” See Fed. R. Civ. P. 19(a).
This case is therefore distinguishable from Pimentel,
where there was no dispute that the Philippines and the
Commission were required parties. See 553 U.S. at 863
(“[t]he application of subdivision (a) of Rule 19 is not contested”). The dispute in Pimentel centered on Rule
19(b), “whether the action may proceed without the Republic and the Commission, given that the Rule requires
them to be parties.” Id. at 864. Because this Court finds
that Bank Melli is not a required party, it need not reach
Rule 19(b), and the question of whether Bank Melli can
be joined. The Court notes, however, that, unlike in Pimentel, 553 U.S. at 865, where “[i]mmunity . . . [was] uncontested,” here there are two applicable statutory exceptions to immunity, which alleviate any concerns about
14

The court added that Sprint had also not established a risk of being subjected to double liability over the funds, but that was not the
basis for its conclusion that TIC was not a necessary party. See id.
at 23-24.

128a
prejudice to Bank Melli or about the adequacy of a judgment rendered in Bank Melli’s absence. See TRIA; section 1610(g); see also Weinstein, 609 F.3d at 50 (“[W]e
find it clear beyond cavil that Section 201(a) of the TRIA
provides courts with subject matter jurisdiction over
post-judgment execution and attachment proceedings
against property held in the hands of an instrumentality
of the judgment-debtor, even if the instrumentality is not
itself named in the judgment.”). Bank Melli’s response,
that the exceptions to immunity pertain to the property,
and not to Bank Melli, see Bank Melli Br. at 7, only reinforces the Court’s conclusion that the statutory scheme
is not about Bank Melli’s liability, but about Plaintiffs’
ability to collect from Iran. This case could proceed
without Bank Melli.
Because Bank Melli is not a required party that cannot be joined under Rule 19, the Court rejects this argument for dismissal as well.
III. CONCLUSION
For the foregoing reasons, the Court DENIES Bank
Melli’s Motion to Dismiss. The Court further finds that
the standards of 28 U.S.C. § 1292(b) have been met,15 and
CERTIFIES this Order for interlocutory appeal.
15

Specifically, the Court finds that the issues raised by Bank Melli in
favor of dismissal are controlling issues of law, and could “materially
affect the outcome of the litigation in the district court.” In re Cement Antitrust Litig., 673 F.2d 1020, 1026 (9th Cir. 1982). If Bank
Melli is correct that Bancec applies, or that the statutes are impermissibly retroactive, or that Plaintiffs have not adequately alleged
that the assets are Bank Melli’s property, or that it is a required party that cannot be joined, Bank Melli is entitled to dismissal. Moreover, in light of the paucity of authority on these issues, particularly
as to TRIA, there is substantial ground for difference of opinion. See
28 U.S.C. § 1292(b); Levine v. United Healthcare Corp., 285 F. Supp.
2d 552, 560 (N.J. 2003) (“[T]he issue on this motion is whether there

129a
IT IS SO ORDERED.
Dated: February 28, 2013
CHARLES R. BREYER
United States District Judge

is substantial ground for debate on this issue and this Court finds
that the question involved here is admittedly complicated and sufficiently close that reasonable minds could disagree with this Court’s
conclusion.”). Finally, “an immediate appeal from the order may materially advance the ultimate termination of the litigation,” 28 U.S.C.
§ 1292(b), as it “would conserve judicial resources and spare the parties from possibly needless expense if it should turn out that this
Court’s rulings are reversed,” APCC Servs. v. Sprint, 297 F. Supp.
2d 90, 1000 (D.D.C. 2003).

130a
APPENDIX G
ANNUAL REPORT OF BLOCKED PROPERTY
[C.A. E.R. 250-252]
TD F 90—22.50
Office of Foreign Assets Control
Department of the Treasury
Washington, D.C. 20220
The Office of Foreign Assets Control (OFAC) requires
an annual report of all property blocked or funds retained under OFAC Regulations found in Title 31 of the
Code of Federal Regulations, Parts 500 through 599.
This information is needed by the United States Government for planning purposes and to verify compliance
with OFAC Regulations. The report is to be submitted
annually by September 30 to the Compliance Programs
Division, OFAC, Department of the Treasury, Washington, D.C. 20220.
General Instructions
Any person holding property blocked or funds retained under OFAC Regulations is required to submit a
report on this form concerning such property. Reports
filed in accordance with OFAC Regulations are regarded
as containing commercial and financial information which
is privileged and confidential. Requests to submit reports
in alternative formats will be considered on a case-by-case
basis. For additional copies of the form, as well as other
information of interest to holders of blocked property,
call OFAC’s fax-on-demand service at (202) 622-0077.

131a
Part A – U.S. Person Holding Property.
State reporter’s corporate name and address and the
name and telephone number of an individual corporate
official to contact regarding this report.
Name:

Visa International Service Association

Address: P.O. Box 8999
San Francisco, CA 94128
Individual to contact regarding this report:
Russell Schrader
Associate General Counsel
(650) 432-1167
Total number of accounts or items reported on Part B: 3
Complete the certification where applicable.
report is not valid without the certification.

The

I, Russell Schrader , certify that I am the Associate General Counsel – Global Enterprise Risk of
the Visa International Service Association , that I am
authorized to make this certification, and that, to the best
of my knowledge and belief, the statements set forth in
this report, including any papers attached hereto or filed
herewith, are true and accurate and that all material
facts in connection with said report have been set forth
herein.
s/ Russell Schrader
* * * * *

9/29/2010

132a
Part B – Property Reported
Identify each account or item of property separately in
the spaces provided below. Use additional photocopies of
Part B as needed. Use supplemental attachments if the
space provided is inadequate. Be sure to indicate the
number of accounts or items reported on Part B in the
appropriate space on Part A.
Owner. Identify the owner of the property.
Description. Provide a brief but comprehensive
description of the property. Include account type,
number, and currency (if other than U.S. Dollars) where
applicable.
Value. Provide the value (or an estimate) of the property as of June 30. If a value date other than June 30 is
reported, so indicate.
Location. List the location or branch where the property is held, if different than the address shown in Part A.
Regulations. Identify the Part of Title 31 of the Code
of Federal Regulations under which this property is
blocked.
* * * * *

133a
Part B – supplemental attachment
Owner

Description

Value (as of
Location
June 30, 2010)

Regulations

[REDACTED]
$94,078.52
Visa Inter- xAccount No
national
41405200
Service
xName of Account:
Association “Visa re. Bank Melli
– BLOCKED
FUNDS”
xAccount holds Bank
Melli funds

JP Morgan 544
Chase Bank,
London

$17,648,962.76 Franklin
544
Visa Inter- xAccount No.
Institutional
national
140-14000855747,
Fiduciary
Service
asset summary
Trust Money
Association number 03396229
Market
xIn the records of
Portfolio,
Franklin InstituFranklin
tional Fiduciary
Parkway,
Trust Money
San Mateo
Market Portfolio as
branch, USA
“Visa International
Special Account 5”
xAccount holds Bank
Melli funds

134a
APPENDIX H
ANNUAL REPORT OF BLOCKED PROPERTY
[C.A. E.R. 253-255]
TD F 90—22.50
Office of Foreign Assets Control
Department of the Treasury
Washington, D.C. 20220
The Office of Foreign Assets Control (OFAC) requires
an annual report of all property blocked or funds retained under OFAC Regulations found in Title 31 of the
Code of Federal Regulations, Parts 500 through 599.
This information is needed by the United States Government for planning purposes and to verify compliance
with OFAC Regulations. The report is to be submitted
annually by September 30 to the Compliance Programs
Division, OFAC, Department of the Treasury, Washington, D.C. 20220.
General Instructions
Any person holding property blocked or funds retained under OFAC Regulations is required to submit a
report on this form concerning such property. Reports
filed in accordance with OFAC Regulations are regarded
as containing commercial and financial information which
is privileged and confidential. Requests to submit reports
in alternative formats will be considered on a case-by-case
basis. For additional copies of the form, as well as other
information of interest to holders of blocked property,
call OFAC’s fax-on-demand service at (202) 622-0077.

135a
Part A – U.S. Person Holding Property.
State reporter’s corporate name and address and the
name and telephone number of an individual corporate
official to contact regarding this report.
Name:

Visa International Service Association

Address: P.O. Box 8999
San Francisco, CA 94128
Individual to contact regarding this report:
Russell Schrader
Associate General Counsel
(650) 432-1167
Total number of accounts or items reported on Part B: 7
Complete the certification where applicable.
report is not valid without the certification.

The

I, Russell Schrader , certify that I am the Associate General Counsel – Global Enterprise Risk of
the Visa Inc. , that I am authorized to make this certification, and that, to the best of my knowledge and belief,
the statements set forth in this report, including any papers attached hereto or filed herewith, are true and accurate and that all material facts in connection with said report have been set forth herein.
s/ Russell Schrader
* * * * *

9/27/11

136a
Part B – Property Reported
Identify each account or item of property separately in
the spaces provided below. Use additional photocopies of
Part B as needed. Use supplemental attachments if the
space provided is inadequate. Be sure to indicate the
number of accounts or items reported on Part B in the
appropriate space on Part A.
Owner. Identify the owner of the property.
Description. Provide a brief but comprehensive
description of the property. Include account type,
number, and currency (if other than U.S. Dollars) where
applicable.
Value. Provide the value (or an estimate) of the property as of June 30. If a value date other than June 30 is
reported, so indicate.
Location. List the location or branch where the property is held, if different than the address shown in Part A.
Regulations. Identify the Part of Title 31 of the Code
of Federal Regulations under which this property is
blocked.
* * * * *

137a
Part B – supplemental attachment
Owner

Description

Value (as of
Location
June 30, 2011)

Regulations

[REDACTED]
$94,121.15
Visa Inter- xAccount No.
national
41405200
Service
xName of Account:
Association “Visa re. Bank Melli
– BLOCKED
FUNDS”
xAccount holds Bank
Melli funds

JP Morgan 544
Chase Bank,
London,
United
Kingdom

$17,648,962.76 Franklin
544
Visa Inter- xAccount No.
Institutional
national
140-14000855747,
Fiduciary
Service
asset summary
Trust Money
Association number 03396229
Market
xIn the records of
Portfolio
Franklin InstituSan Mateo,
tional Fiduciary
CA
Trust Money
Market Portfolio as
“Visa International
Special Account 5”
xShares in mutual
fund
[REDACTED]

138a
APPENDIX I
RELEVANT STATUTORY AND
TREATY PROVISIONS
1. The Foreign Sovereign Immunities Act of 1976,
Pub. L. No. 94-583, 90 Stat. 2891, as amended and codified at 28 U.S.C. §§ 1602 et seq., provides as follows:
§ 1602. Findings and declaration of purpose
The Congress finds that the determination by United
States courts of the claims of foreign states to immunity
from the jurisdiction of such courts would serve the interests of justice and would protect the rights of both
foreign states and litigants in United States courts. Under international law, states are not immune from the jurisdiction of foreign courts insofar as their commercial
activities are concerned, and their commercial property
may be levied upon for the satisfaction of judgments rendered against them in connection with their commercial
activities. Claims of foreign states to immunity should
henceforth be decided by courts of the United States and
of the States in conformity with the principles set forth in
this chapter.
§ 1603. Definitions
For purposes of this chapter—
(a) A “foreign state”, except as used in section 1608
of this title, includes a political subdivision of a foreign
state or an agency or instrumentality of a foreign state
as defined in subsection (b).
(b) An “agency or instrumentality of a foreign
state” means any entity—
(1) which is a separate legal person, corporate or
otherwise, and

139a
(2) which is an organ of a foreign state or political subdivision thereof, or a majority of whose
shares or other ownership interest is owned by a
foreign state or political subdivision thereof, and
(3) which is neither a citizen of a State of the
United States as defined in section 1332(c) and (e)
of this title, nor created under the laws of any third
country.
(c) The “United States” includes all territory and
waters, continental or insular, subject to the jurisdiction of the United States.
(d) A “commercial activity” means either a regular
course of commercial conduct or a particular commercial transaction or act. The commercial character of
an activity shall be determined by reference to the nature of the course of conduct or particular transaction
or act, rather than by reference to its purpose.
(e) A “commercial activity carried on in the United
States by a foreign state” means commercial activity
carried on by such state and having substantial contact
with the United States.
§ 1604. Immunity of a foreign state from jurisdiction
Subject to existing international agreements to which
the United States is a party at the time of enactment of
this Act a foreign state shall be immune from the jurisdiction of the courts of the United States and of the
States except as provided in sections 1605 to 1607 of this
chapter.
§ 1605. General exceptions to the jurisdictional immunity of a foreign state
(a) A foreign state shall not be immune from the jurisdiction of courts of the United States or of the States
in any case—

140a
(1) in which the foreign state has waived its immunity either explicitly or by implication, notwithstanding any withdrawal of the waiver which the foreign
state may purport to effect except in accordance with
the terms of the waiver;
(2) in which the action is based upon a commercial
activity carried on in the United States by the foreign
state; or upon an act performed in the United States in
connection with a commercial activity of the foreign
state elsewhere; or upon an act outside the territory of
the United States in connection with a commercial activity of the foreign state elsewhere and that act causes
a direct effect in the United States;
(3) in which rights in property taken in violation of
international law are in issue and that property or any
property exchanged for such property is present in the
United States in connection with a commercial activity
carried on in the United States by the foreign state; or
that property or any property exchanged for such
property is owned or operated by an agency or instrumentality of the foreign state and that agency or
instrumentality is engaged in a commercial activity in
the United States;
(4) in which rights in property in the United States
acquired by succession or gift or rights in immovable
property situated in the United States are in issue;
(5) not otherwise encompassed in paragraph (2)
above, in which money damages are sought against a
foreign state for personal injury or death, or damage
to or loss of property, occurring in the United States
and caused by the tortious act or omission of that foreign state or of any official or employee of that foreign
state while acting within the scope of his office or employment; except this paragraph shall not apply to—

141a
(A) any claim based upon the exercise or performance or the failure to exercise or perform a
discretionary function regardless of whether the
discretion be abused, or
(B) any claim arising out of malicious prosecution, abuse of process, libel, slander, misrepresentation, deceit, or interference with contract rights; or
(6) in which the action is brought, either to enforce
an agreement made by the foreign state with or for
the benefit of a private party to submit to arbitration
all or any differences which have arisen or which may
arise between the parties with respect to a defined legal relationship, whether contractual or not, concerning a subject matter capable of settlement by arbitration under the laws of the United States, or to confirm
an award made pursuant to such an agreement to arbitrate, if (A) the arbitration takes place or is intended
to take place in the United States, (B) the agreement
or award is or may be governed by a treaty or other
international agreement in force for the United States
calling for the recognition and enforcement of arbitral
awards, (C) the underlying claim, save for the agreement to arbitrate, could have been brought in a United
States court under this section or section 1607, or
(D) paragraph (1) of this subsection is otherwise applicable.
(b) A foreign state shall not be immune from the jurisdiction of the courts of the United States in any case in
which a suit in admiralty is brought to enforce a maritime
lien against a vessel or cargo of the foreign state, which
maritime lien is based upon a commercial activity of the
foreign state: Provided, That—
(1) notice of the suit is given by delivery of a copy
of the summons and of the complaint to the person, or

142a
his agent, having possession of the vessel or cargo
against which the maritime lien is asserted; and if the
vessel or cargo is arrested pursuant to process obtained on behalf of the party bringing the suit, the service of process of arrest shall be deemed to constitute
valid delivery of such notice, but the party bringing
the suit shall be liable for any damages sustained by
the foreign state as a result of the arrest if the party
bringing the suit had actual or constructive knowledge
that the vessel or cargo of a foreign state was involved;
and
(2) notice to the foreign state of the commencement
of suit as provided in section 1608 of this title is initiated
within ten days either of the delivery of notice as provided in paragraph (1) of this subsection or, in the case
of a party who was unaware that the vessel or cargo of
a foreign state was involved, of the date such party determined the existence of the foreign state’s interest.
(c) Whenever notice is delivered under subsection
(b)(1), the suit to enforce a maritime lien shall thereafter
proceed and shall be heard and determined according to
the principles of law and rules of practice of suits in rem
whenever it appears that, had the vessel been privately
owned and possessed, a suit in rem might have been
maintained. A decree against the foreign state may include costs of the suit and, if the decree is for a money
judgment, interest as ordered by the court, except that
the court may not award judgment against the foreign
state in an amount greater than the value of the vessel or
cargo upon which the maritime lien arose. Such value
shall be determined as of the time notice is served under
subsection (b)(1). Decrees shall be subject to appeal and
revision as provided in other cases of admiralty and maritime jurisdiction. Nothing shall preclude the plaintiff in

143a
any proper case from seeking relief in personam in the
same action brought to enforce a maritime lien as provided
in this section.
(d) A foreign state shall not be immune from the jurisdiction of the courts of the United States in any action
brought to foreclose a preferred mortgage, as defined in
section 31301 of title 46. Such action shall be brought,
heard, and determined in accordance with the provisions
of chapter 313 of title 46 and in accordance with the principles of law and rules of practice of suits in rem, whenever it appears that had the vessel been privately owned
and possessed a suit in rem might have been maintained.
(e), (f ) Repealed.
(g) LIMITATION ON DISCOVERY.—
(1) IN GENERAL.—(A) Subject to paragraph (2), if
an action is filed that would otherwise be barred by
section 1604, but for section 1605A or section 1605B,
the court, upon request of the Attorney General, shall
stay any request, demand, or order for discovery on
the United States that the Attorney General certifies
would significantly interfere with a criminal investigation or prosecution, or a national security operation,
related to the incident that gave rise to the cause of action, until such time as the Attorney General advises
the court that such request, demand, or order will no
longer so interfere.
(B) A stay under this paragraph shall be in effect
during the 12-month period beginning on the date on
which the court issues the order to stay discovery.
The court shall renew the order to stay discovery for
additional 12-month periods upon motion by the United
States if the Attorney General certifies that discovery
would significantly interfere with a criminal investiga-

144a
tion or prosecution, or a national security operation,
related to the incident that gave rise to the cause of
action.
(2) SUNSET.—(A) Subject to subparagraph (B), no
stay shall be granted or continued in effect under paragraph (1) after the date that is 10 years after the date
on which the incident that gave rise to the cause of
action occurred.
(B) After the period referred to in subparagraph
(A), the court, upon request of the Attorney General,
may stay any request, demand, or order for discovery
on the United States that the court finds a substantial
likelihood would—
(i) create a serious threat of death or serious
bodily injury to any person;
(ii) adversely affect the ability of the United
States to work in cooperation with foreign and international law enforcement agencies in investigating violations of United States law; or
(iii) obstruct the criminal case related to the incident that gave rise to the cause of action or undermine the potential for a conviction in such case.
(3) EVALUATION OF EVIDENCE.—The court’s evaluation of any request for a stay under this subsection
filed by the Attorney General shall be conducted ex
parte and in camera.
(4) BAR ON MOTIONS TO DISMISS.—A stay of discovery under this subsection shall constitute a bar to
the granting of a motion to dismiss under rules
12(b)(6) and 56 of the Federal Rules of Civil Procedure.
(5) CONSTRUCTION.—Nothing in this subsection
shall prevent the United States from seeking protec-

145a
tive orders or asserting privileges ordinarily available
to the United States.
(h) JURISDICTIONAL IMMUNITY FOR CERTAIN ART
EXHIBITION ACTIVITIES.—
(1) IN GENERAL.—If—
(A) a work is imported into the United States
from any foreign state pursuant to an agreement
that provides for the temporary exhibition or display of such work entered into between a foreign
state that is the owner or custodian of such work
and the United States or one or more cultural or
educational institutions within the United States;
(B) the President, or the President’s designee,
has determined, in accordance with subsection (a) of
Public Law 89-259 (22 U.S.C. 2459(a)), that such
work is of cultural significance and the temporary
exhibition or display of such work is in the national
interest; and
(C) the notice thereof has been published in accordance with subsection (a) of Public Law 89-259
(22 U.S.C. 2459(a)),
any activity in the United States of such foreign state,
or of any carrier, that is associated with the temporary
exhibition or display of such work shall not be considered to be commercial activity by such foreign state
for purposes of subsection (a)(3).
(2) EXCEPTIONS.—
(A) NAZI-ERA CLAIMS.—Paragraph (1) shall not
apply in any case asserting jurisdiction under subsection (a)(3) in which rights in property taken in violation
of international law are in issue within the meaning of
that subsection and—

146a
(i) the property at issue is the work described in
paragraph (1);
(ii) the action is based upon a claim that such
work was taken in connection with the acts of a covered government during the covered period;
(iii) the court determines that the activity associated with the exhibition or display is commercial
activity, as that term is defined in section 1603(d);
and
(iv) a determination under clause (iii) is necessary for the court to exercise jurisdiction over the
foreign state under subsection (a)(3).
(B) OTHER CULTURALLY SIGNIFICANT WORKS.—
In addition to cases exempted under subparagraph
(A), paragraph (1) shall not apply in any case asserting
jurisdiction under subsection (a)(3) in which rights in
property taken in violation of international law are in
issue within the meaning of that subsection and—
(i) the property at issue is the work described in
paragraph (1);
(ii) the action is based upon a claim that such
work was taken in connection with the acts of a foreign government as part of a systematic campaign
of coercive confiscation or misappropriation of
works from members of a targeted and vulnerable
group;
(iii) the taking occurred after 1900;
(iv) the court determines that the activity associated with the exhibition or display is commercial
activity, as that term is defined in section 1603(d);
and

147a
(v) a determination under clause (iv) is necessary for the court to exercise jurisdiction over the
foreign state under subsection (a)(3).
(3) DEFINITIONS.—For purposes of this subsection—
(A) the term “work” means a work of art or other object of cultural significance;
(B) the term “covered government” means—
(i) the Government of Germany during the
covered period;
(ii) any government in any area in Europe
that was occupied by the military forces of the
Government of Germany during the covered
period;
(iii) any government in Europe that was established with the assistance or cooperation of
the Government of Germany during the covered
period; and
(iv) any government in Europe that was an
ally of the Government of Germany during the
covered period; and
(C) the term “covered period” means the period
beginning on January 30, 1933, and ending on May
8, 1945.
§ 1605A. Terrorism exception to the jurisdictional
immunity of a foreign state
(a) IN GENERAL.—
(1) NO IMMUNITY.—A foreign state shall not be
immune from the jurisdiction of courts of the United
States or of the States in any case not otherwise covered by this chapter in which money damages are
sought against a foreign state for personal injury or

148a
death that was caused by an act of torture, extrajudicial killing, aircraft sabotage, hostage taking, or the
provision of material support or resources for such an
act if such act or provision of material support or resources is engaged in by an official, employee, or agent
of such foreign state while acting within the scope of
his or her office, employment, or agency.
(2) CLAIM HEARD.—The court shall hear a claim
under this section if—
(A)(i)(I) the foreign state was designated as a
state sponsor of terrorism at the time the act described in paragraph (1) occurred, or was so designated as a result of such act, and, subject to subclause (II), either remains so designated when the
claim is filed under this section or was so designated within the 6-month period before the claim is
filed under this section; or
(II) in the case of an action that is refiled under
this section by reason of section 1083(c)(2)(A) of the
National Defense Authorization Act for Fiscal Year
2008 or is filed under this section by reason of section 1083(c)(3) of that Act, the foreign state was
designated as a state sponsor of terrorism when the
original action or the related action under section
1605(a)(7) (as in effect before the enactment of this
section) or section 589 of the Foreign Operations,
Export Financing, and Related Programs Appropriations Act, 1997 (as contained in section 101(c) of
division A of Public Law 104-208) was filed;
(ii) the claimant or the victim was, at the time
the act described in paragraph (1) occurred—
(I) a national of the United States;
(II) a member of the armed forces; or

149a
(III) otherwise an employee of the Government of the United States, or of an individual
performing a contract awarded by the United
States Government, acting within the scope of
the employee’s employment; and
(iii) in a case in which the act occurred in the
foreign state against which the claim has been
brought, the claimant has afforded the foreign state
a reasonable opportunity to arbitrate the claim in
accordance with the accepted international rules of
arbitration; or
(B) the act described in paragraph (1) is related to
Case Number 1:00CV03110 (EGS) in the United
States District Court for the District of Columbia.
(b) LIMITATIONS.—An action may be brought or
maintained under this section if the action is commenced,
or a related action was commenced under section
1605(a)(7) (before the date of the enactment of this section) or section 589 of the Foreign Operations, Export
Financing, and Related Programs Appropriations Act,
1997 (as contained in section 101(c) of division A of Public
Law 104-208) not later than the latter of—
(1) 10 years after April 24, 1996; or
(2) 10 years after the date on which the cause of action arose.
(c) PRIVATE RIGHT OF ACTION.—A foreign state that
is or was a state sponsor of terrorism as described in subsection (a)(2)(A)(i), and any official, employee, or agent of
that foreign state while acting within the scope of his or
her office, employment, or agency, shall be liable to—
(1) a national of the United States,
(2) a member of the armed forces,

150a
(3) an employee of the Government of the United
States, or of an individual performing a contract
awarded by the United States Government, acting
within the scope of the employee’s employment, or
(4) the legal representative of a person described in
paragraph (1), (2), or (3),
for personal injury or death caused by acts described in
subsection (a)(1) of that foreign state, or of an official,
employee, or agent of that foreign state, for which the
courts of the United States may maintain jurisdiction under this section for money damages. In any such action,
damages may include economic damages, solatium, pain
and suffering, and punitive damages. In any such action,
a foreign state shall be vicariously liable for the acts of its
officials, employees, or agents.
(d) ADDITIONAL DAMAGES.—After an action has been
brought under subsection (c), actions may also be
brought for reasonably foreseeable property loss, whether
insured or uninsured, third party liability, and loss claims
under life and property insurance policies, by reason of
the same acts on which the action under subsection (c) is
based.
(e) SPECIAL MASTERS.—
(1) IN GENERAL.—The courts of the United States
may appoint special masters to hear damage claims
brought under this section.
(2) TRANSFER OF FUNDS.—The Attorney General
shall transfer, from funds available for the program
under section 1404C of the Victims of Crime Act of
1984 (42 U.S.C. 10603c), to the Administrator of the
United States district court in which any case is pending which has been brought or maintained under this
section such funds as may be required to cover the

151a
costs of special masters appointed under paragraph
(1). Any amount paid in compensation to any such
special master shall constitute an item of court costs.
(f ) APPEAL.—In an action brought under this section,
appeals from orders not conclusively ending the litigation
may only be taken pursuant to section 1292(b) of this title.
(g) PROPERTY DISPOSITION.—
(1) IN GENERAL.—In every action filed in a United
States district court in which jurisdiction is alleged
under this section, the filing of a notice of pending action pursuant to this section, to which is attached a
copy of the complaint filed in the action, shall have the
effect of establishing a lien of lis pendens upon any
real property or tangible personal property that is—
(A) subject to attachment in aid of execution, or
execution, under section 1610;
(B) located within that judicial district; and
(C) titled in the name of any defendant, or titled
in the name of any entity controlled by any defendant if such notice contains a statement listing such
controlled entity.
(2) NOTICE.—A notice of pending action pursuant
to this section shall be filed by the clerk of the district
court in the same manner as any pending action and
shall be indexed by listing as defendants all named defendants and all entities listed as controlled by any defendant.
(3) ENFORCEABILITY.—Liens established by reason of this subsection shall be enforceable as provided
in chapter 111 of this title.

152a
(h) DEFINITIONS.—For purposes of this section—
(1) the term “aircraft sabotage” has the meaning
given that term in Article 1 of the Convention for the
Suppression of Unlawful Acts Against the Safety of
Civil Aviation;
(2) the term “hostage taking” has the meaning given that term in Article 1 of the International Convention Against the Taking of Hostages;
(3) the term “material support or resources” has
the meaning given that term in section 2339A of title
18;
(4) the term “armed forces” has the meaning given
that term in section 101 of title 10;
(5) the term “national of the United States” has the
meaning given that term in section 101(a)(22) of the
Immigration and Nationality Act (8 U.S.C. 1101(a)(22));
(6) the term “state sponsor of terrorism” means a
country the government of which the Secretary of
State has determined, for purposes of section 6(j) of
the Export Administration Act of 1979 (50 U.S.C. App.
2405(j)), section 620A of the Foreign Assistance Act of
1961 (22 U.S.C. 2371), section 40 of the Arms Export
Control Act (22 U.S.C. 2780), or any other provision of
law, is a government that has repeatedly provided
support for acts of international terrorism; and
(7) the terms “torture” and “extrajudicial killing”
have the meaning given those terms in section 3 of the
Torture Victim Protection Act of 1991 (28 U.S.C. 1350
note).

153a
§ 1605B. Responsibility of foreign states for international terrorism against the United States
(a) DEFINITION.—In this section, the term “international terrorism”—
(1) has the meaning given the term in section 2331
of title 18, United States Code; and
(2) does not include any act of war (as defined in
that section).
(b) RESPONSIBILITY OF FOREIGN STATES.—A foreign
state shall not be immune from the jurisdiction of the
courts of the United States in any case in which money
damages are sought against a foreign state for physical
injury to person or property or death occurring in the
United States and caused by—
(1) an act of international terrorism in the United
States; and
(2) a tortious act or acts of the foreign state, or of
any official, employee, or agent of that foreign state
while acting within the scope of his or her office, employment, or agency, regardless where the tortious act
or acts of the foreign state occurred.
(c) CLAIMS BY NATIONALS OF THE UNITED STATES.—
Notwithstanding section 2337(2) of title 18, a national of
the United States may bring a claim against a foreign
state in accordance with section 2333 of that title if the
foreign state would not be immune under subsection (b).
(d) RULE OF CONSTRUCTION.—A foreign state shall
not be subject to the jurisdiction of the courts of the
United States under subsection (b) on the basis of an
omission or a tortious act or acts that constitute mere
negligence.

154a
§ 1606. Extent of liability
As to any claim for relief with respect to which a foreign state is not entitled to immunity under section 1605
or 1607 of this chapter, the foreign state shall be liable in
the same manner and to the same extent as a private individual under like circumstances; but a foreign state except for an agency or instrumentality thereof shall not be
liable for punitive damages; if, however, in any case
wherein death was caused, the law of the place where the
action or omission occurred provides, or has been construed to provide, for damages only punitive in nature,
the foreign state shall be liable for actual or compensatory
damages measured by the pecuniary injuries resulting
from such death which were incurred by the persons for
whose benefit the action was brought.
§ 1607. Counterclaims
In any action brought by a foreign state, or in which a
foreign state intervenes, in a court of the United States
or of a State, the foreign state shall not be accorded immunity with respect to any counterclaim—
(a) for which a foreign state would not be entitled
to immunity under section 1605 or 1605A of this chapter had such claim been brought in a separate action
against the foreign state; or
(b) arising out of the transaction or occurrence that
is the subject matter of the claim of the foreign state; or
(c) to the extent that the counterclaim does not
seek relief exceeding in amount or differing in kind
from that sought by the foreign state.
§ 1608. Service; time to answer; default
(a) Service in the courts of the United States and of
the States shall be made upon a foreign state or political
subdivision of a foreign state:

155a
(1) by delivery of a copy of the summons and complaint in accordance with any special arrangement for
service between the plaintiff and the foreign state or
political subdivision; or
(2) if no special arrangement exists, by delivery of
a copy of the summons and complaint in accordance
with an applicable international convention on service
of judicial documents; or
(3) if service cannot be made under paragraphs (1)
or (2), by sending a copy of the summons and complaint and a notice of suit, together with a translation
of each into the official language of the foreign state,
by any form of mail requiring a signed receipt, to be
addressed and dispatched by the clerk of the court to
the head of the ministry of foreign affairs of the foreign state concerned, or
(4) if service cannot be made within 30 days under
paragraph (3), by sending two copies of the summons
and complaint and a notice of suit, together with a
translation of each into the official language of the foreign state, by any form of mail requiring a signed receipt, to be addressed and dispatched by the clerk of
the court to the Secretary of State in Washington, District of Columbia, to the attention of the Director of
Special Consular Services—and the Secretary shall
transmit one copy of the papers through diplomatic
channels to the foreign state and shall send to the
clerk of the court a certified copy of the diplomatic
note indicating when the papers were transmitted.
As used in this subsection, a “notice of suit” shall mean a
notice addressed to a foreign state and in a form prescribed by the Secretary of State by regulation.

156a
(b) Service in the courts of the United States and of
the States shall be made upon an agency or instrumentality of a foreign state:
(1) by delivery of a copy of the summons and complaint in accordance with any special arrangement for
service between the plaintiff and the agency or instrumentality; or
(2) if no special arrangement exists, by delivery of
a copy of the summons and complaint either to an officer, a managing or general agent, or to any other
agent authorized by appointment or by law to receive
service of process in the United States; or in accordance with an applicable international convention on
service of judicial documents; or
(3) if service cannot be made under paragraphs (1)
or (2), and if reasonably calculated to give actual notice, by delivery of a copy of the summons and complaint, together with a translation of each into the official language of the foreign state—
(A) as directed by an authority of the foreign
state or political subdivision in response to a letter
rogatory or request or
(B) by any form of mail requiring a signed receipt, to be addressed and dispatched by the clerk
of the court to the agency or instrumentality to be
served, or
(C) as directed by order of the court consistent
with the law of the place where service is to be
made.
(c) Service shall be deemed to have been made—
(1) in the case of service under subsection (a)(4), as
of the date of transmittal indicated in the certified
copy of the diplomatic note; and

157a
(2) in any other case under this section, as of the
date of receipt indicated in the certification, signed
and returned postal receipt, or other proof of service
applicable to the method of service employed.
(d) In any action brought in a court of the United
States or of a State, a foreign state, a political subdivision
thereof, or an agency or instrumentality of a foreign state
shall serve an answer or other responsive pleading to the
complaint within sixty days after service has been made
under this section.
(e) No judgment by default shall be entered by a
court of the United States or of a State against a foreign
state, a political subdivision thereof, or an agency or instrumentality of a foreign state, unless the claimant establishes his claim or right to relief by evidence satisfactory to the court. A copy of any such default judgment
shall be sent to the foreign state or political subdivision in
the manner prescribed for service in this section.
§ 1609. Immunity from attachment and execution of
property of a foreign state
Subject to existing international agreements to which
the United States is a party at the time of enactment of
this Act the property in the United States of a foreign
state shall be immune from attachment arrest and execution except as provided in sections 1610 and 1611 of this
chapter.
§ 1610. Exceptions to the immunity from attachment
or execution
(a) The property in the United States of a foreign
state, as defined in section 1603(a) of this chapter, used
for a commercial activity in the United States, shall not
be immune from attachment in aid of execution, or from
execution, upon a judgment entered by a court of the

158a
United States or of a State after the effective date of this
Act, if—
(1) the foreign state has waived its immunity from
attachment in aid of execution or from execution either
explicitly or by implication, notwithstanding any withdrawal of the waiver the foreign state may purport
to effect except in accordance with the terms of the
waiver, or
(2) the property is or was used for the commercial
activity upon which the claim is based, or
(3) the execution relates to a judgment establishing
rights in property which has been taken in violation of
international law or which has been exchanged for
property taken in violation of international law, or
(4) the execution relates to a judgment establishing
rights in property—
(A) which is acquired by succession or gift, or
(B) which is immovable and situated in the United
States: Provided, That such property is not used
for purposes of maintaining a diplomatic or consular mission or the residence of the Chief of such
mission, or
(5) the property consists of any contractual obligation or any proceeds from such a contractual obligation to indemnify or hold harmless the foreign state or
its employees under a policy of automobile or other
liability or casualty insurance covering the claim which
merged into the judgment, or
(6) the judgment is based on an order confirming
an arbitral award rendered against the foreign state,
provided that attachment in aid of execution, or execution, would not be inconsistent with any provision in
the arbitral agreement, or

159a
(7) the judgment relates to a claim for which the
foreign state is not immune under section 1605A or
section 1605(a)(7) (as such section was in effect on
January 27, 2008), regardless of whether the property
is or was involved with the act upon which the claim is
based.
(b) In addition to subsection (a), any property in the
United States of an agency or instrumentality of a foreign state engaged in commercial activity in the United
States shall not be immune from attachment in aid of execution, or from execution, upon a judgment entered by a
court of the United States or of a State after the effective
date of this Act, if—
(1) the agency or instrumentality has waived its immunity from attachment in aid of execution or from
execution either explicitly or implicitly, notwithstanding
any withdrawal of the waiver the agency or instrumentality may purport to effect except in accordance
with the terms of the waiver, or
(2) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue of
section 1605(a)(2), (3), or (5) or 1605(b) of this chapter,
regardless of whether the property is or was involved
in the act upon which the claim is based; or
(3) the judgment relates to a claim for which the
agency or instrumentality is not immune by virtue of
section 1605A of this chapter or section 1605(a)(7) of
this chapter (as such section was in effect on January
27, 2008), regardless of whether the property is or was
involved in the act upon which the claim is based.
(c) No attachment or execution referred to in subsections (a) and (b) of this section shall be permitted until
the court has ordered such attachment and execution

160a
after having determined that a reasonable period of time
has elapsed following the entry of judgment and the
giving of any notice required under section 1608(e) of this
chapter.
(d) The property of a foreign state, as defined in section 1603(a) of this chapter, used for a commercial activity in the United States, shall not be immune from attachment prior to the entry of judgment in any action
brought in a court of the United States or of a State, or
prior to the elapse of the period of time provided in subsection (c) of this section, if—
(1) the foreign state has explicitly waived its immunity from attachment prior to judgment, notwithstanding any withdrawal of the waiver the foreign
state may purport to effect except in accordance with
the terms of the waiver, and
(2) the purpose of the attachment is to secure satisfaction of a judgment that has been or may ultimately
be entered against the foreign state, and not to obtain
jurisdiction.
(e) The vessels of a foreign state shall not be immune
from arrest in rem, interlocutory sale, and execution in
actions brought to foreclose a preferred mortgage as
provided in section 1605(d).
(f )(1)(A) Notwithstanding any other provision of law,
including but not limited to section 208(f ) of the Foreign
Missions Act (22 U.S.C. 4308(f )), and except as provided
in subparagraph (B), any property with respect to which
financial transactions are prohibited or regulated pursuant to section 5(b) of the Trading with the Enemy Act
(50 U.S.C. App. 5(b)), section 620(a) of the Foreign Assistance Act of 1961 (22 U.S.C. 2370(a)), sections 202 and
203 of the International Emergency Economic Powers

161a
Act (50 U.S.C. 1701-1702), or any other proclamation,
order, regulation, or license issued pursuant thereto,
shall be subject to execution or attachment in aid of execution of any judgment relating to a claim for which a
foreign state (including any agency or instrumentality or
such state) claiming such property is not immune under
section 1605(a)(7) (as in effect before the enactment of
section 1605A) or section 1605A.
(B) Subparagraph (A) shall not apply if, at the time
the property is expropriated or seized by the foreign
state, the property has been held in title by a natural
person or, if held in trust, has been held for the benefit of
a natural person or persons.
(2)(A) At the request of any party in whose favor a
judgment has been issued with respect to a claim for
which the foreign state is not immune under section
1605(a)(7) (as in effect before the enactment of section
1605A) or section 1605A, the Secretary of the Treasury
and the Secretary of State should make every effort to
fully, promptly, and effectively assist any judgment creditor or any court that has issued any such judgment in
identifying, locating, and executing against the property
of that foreign state or any agency or instrumentality of
such state.
(B) In providing such assistance, the Secretaries—
(i) may provide such information to the court under
seal; and
(ii) should make every effort to provide the information in a manner sufficient to allow the court to
direct the United States Marshall’s office to promptly
and effectively execute against that property.
(3) WAIVER.—The President may waive any provision
of paragraph (1) in the interest of national security.

162a
(g) PROPERTY IN CERTAIN ACTIONS.—
(1) IN GENERAL.—Subject to paragraph (3), the
property of a foreign state against which a judgment is
entered under section 1605A, and the property of an
agency or instrumentality of such a state, including
property that is a separate juridical entity or is an interest held directly or indirectly in a separate juridical
entity, is subject to attachment in aid of execution, and
execution, upon that judgment as provided in this section, regardless of—
(A) the level of economic control over the property by the government of the foreign state;
(B) whether the profits of the property go to
that government;
(C) the degree to which officials of that government manage the property or otherwise control its
daily affairs;
(D) whether that government is the sole beneficiary in interest of the property; or
(E) whether establishing the property as a separate entity would entitle the foreign state to benefits in United States courts while avoiding its obligations.
(2) UNITED STATES SOVEREIGN IMMUNITY INAPproperty of a foreign state, or agency
or instrumentality of a foreign state, to which paragraph (1) applies shall not be immune from attachment in aid of execution, or execution, upon a judgment entered under section 1605A because the property is regulated by the United States Government by
reason of action taken against that foreign state under
the Trading With the Enemy Act or the International
Emergency Economic Powers Act.
PLICABLE.—Any

163a
(3) THIRD-PARTY JOINT PROPERTY HOLDERS.—
Nothing in this subsection shall be construed to supersede the authority of a court to prevent appropriately
the impairment of an interest held by a person who is
not liable in the action giving rise to a judgment in
property subject to attachment in aid of execution, or
execution, upon such judgment.
* * * * *
[NOTE]
SATISFACTION OF JUDGMENTS FROM BLOCKED ASSETS
OF TERRORISTS, TERRORIST ORGANIZATIONS,
AND STATE SPONSORS OF TERRORISM
Pub. L. No. 107-297, § 201(a), (b), (d), 116 Stat. 2337
(2002), as amended, provides that:
(a) IN GENERAL.—Notwithstanding any other provision of law, and except as provided in subsection (b), in
every case in which a person has obtained a judgment
against a terrorist party on a claim based upon an act of
terrorism, or for which a terrorist party is not immune
under section 1605A or 1605(a)(7) (as such section was in
effect on January 27, 2008) of title 28, United States
Code, the blocked assets of that terrorist party (including
the blocked assets of any agency or instrumentality of
that terrorist party) shall be subject to execution or
attachment in aid of execution in order to satisfy such
judgment to the extent of any compensatory damages for
which such terrorist party has been adjudged liable.
(b) PRESIDENTIAL WAIVER.—
(1) IN GENERAL.—Subject to paragraph (2), upon
determining on an asset-by-asset basis that a waiver is
necessary in the national security interest, the President may waive the requirements of subsection (a) [of
this note] in connection with (and prior to the en-

164a
forcement of ) any judicial order directing attachment
in aid of execution or execution against any property
subject to the Vienna Convention on Diplomatic Relations or the Vienna Convention on Consular Relations.
(2) EXCEPTION.—A waiver under this subsection
shall not apply to—
(A) property subject to the Vienna Convention
on Diplomatic Relations or the Vienna Convention
on Consular Relations that has been used by the
United States for any nondiplomatic purpose (including use as rental property), or the proceeds of
such use; or
(B) the proceeds of any sale or transfer for value
to a third party of any asset subject to the Vienna
Convention on Diplomatic Relations or the Vienna
Convention on Consular Relations.
(d) DEFINITIONS.—In this section, the following definitions shall apply:
(1) ACT OF
ism’ means—

TERRORISM.—The

term ‘act of terror-

(A) any act or event certified under section
102(1) [Pub. L. No. 107-297, set out in a note under
section 6701 of Title 15, Commerce and Trade]; or
(B) to the extent not covered by subparagraph
(A), any terrorist activity (as defined in section
212(a)(3)(B)(iii) of the Immigration and Nationality
Act (8 U.S.C. 1182(a)(3)(B)(iii))).
(2) BLOCKED ASSET.—The term ‘blocked asset’
means—
(A) any asset seized or frozen by the United
States under section 5(b) of the Trading With the
Enemy Act (50 U.S.C. App. 5(b)) [now 50 U.S.C.

165a
4305(b)] or under sections 202 and 203 of the International Emergency Economic Powers Act (50
U.S.C. 1701; 1702); and
(B) Does not include property that—
(i) is subject to a license issued by the United
States Government for final payment, transfer,
or disposition by or to a person subject to the
jurisdiction of the United States in connection
with a transaction for which the issuance of such
license has been specifically required by statute
other than the International Emergency Economic Powers Act (50 U.S.C. 1701 et seq.) or the
United Nations Participation Act of 1945 (22
U.S.C. 287 et seq.); or
(ii) in the case of property subject to the Vienna Convention on Diplomatic Relations or the
Vienna Convention on Consular Relations, or
that enjoys equivalent privileges and immunities
under the law of the United States, is being used
exclusively for diplomatic or consular purposes.
(3) CERTAIN PROPERTY.—The term ‘property subject to the Vienna Convention on Diplomatic Relations
or the Vienna Convention on Consular Relations’ and
the term ‘asset subject to the Vienna Convention on
Diplomatic Relations or the Vienna Convention on
Consular Relations’ mean any property or asset, respectively, the attachment in aid of execution or execution of which would result in a violation of an obligation of the United States under the Vienna Convention
on Diplomatic Relations or the Vienna Convention on
Consular Relations, as the case may be.
(4) TERRORIST PARTY.—The term ‘terrorist party’
means a terrorist, a terrorist organization (as defined

166a
in section 212(a)(3)(B)(vi) of the Immigration and Nationality Act (8 U.S.C. 1182(a)(3)(B)(vi))), or a foreign
state designated as a state sponsor of terrorism under
section 6(j) of the Export Administration Act of 1979
(50 U.S.C. App. 2405(j)) [now 50 U.S.C. § 4605(j)] or
section 620A of the Foreign Assistance Act of 1961 (22
U.S.C. 2371).
* * * * *
§ 1611. Certain types of property immune from execution
(a) Notwithstanding the provisions of section 1610 of
this chapter, the property of those organizations designated by the President as being entitled to enjoy the
privileges, exemptions, and immunities provided by the
International Organizations Immunities Act shall not be
subject to attachment or any other judicial process impeding the disbursement of funds to, or on the order of, a
foreign state as the result of an action brought in the
courts of the United States or of the States.
(b) Notwithstanding the provisions of section 1610 of
this chapter, the property of a foreign state shall be immune from attachment and from execution, if—
(1) the property is that of a foreign central bank or
monetary authority held for its own account, unless
such bank or authority, or its parent foreign government, has explicitly waived its immunity from attachment in aid of execution, or from execution, notwithstanding any withdrawal of the waiver which the bank,
authority or government may purport to effect except
in accordance with the terms of the waiver; or
(2) the property is, or is intended to be, used in
connection with a military activity and
(A) is of a military character, or

167a
(B) is under the control of a military authority or
defense agency.
(c) Notwithstanding the provisions of section 1610 of
this chapter, the property of a foreign state shall be immune from attachment and from execution in an action
brought under section 302 of the Cuban Liberty and
Democratic Solidarity (LIBERTAD) Act of 1996 to the
extent that the property is a facility or installation used
by an accredited diplomatic mission for official purposes.

168a
2. The Treaty of Amity, Economic Relations, and
Consular Rights, U.S.-Iran, Aug. 15, 1955, 8 U.S.T. 899,
provides in relevant part as follows:
The United States of America and Iran, desirous of
emphasizing the friendly relations which have long prevailed between their peoples, of reaffirming the high
principles in the regulation of human affairs to which
they are committed, of encouraging mutually beneficial
trade and investments and closer economic intercourse
generally between their peoples, and of regulating consular relations, have resolved to conclude, on the basis of
reciprocal equality of treatment, a Treaty of Amity, Economic Relations, and Consular Rights * * * :
* * * * *
Article III
1. Companies constituted under the applicable laws
and regulations of either High Contracting Party shall
have their juridical status recognized within the territories of the other High Contracting Party. It is understood, however, that recognition of juridical status does
not of itself confer rights upon companies to engage in
the activities for which they are organized. As used in
the present Treaty, “companies” means corporations,
partnerships, companies and other associations, whether
or not with limited liability and whether or not for pecuniary profit.
2. Nationals and companies of either High Contracting Party shall have freedom of access to the courts of
justice and administrative agencies within the territories
of the other High Contracting Party, in all degrees of jurisdiction, both in defense and pursuit of their rights, to
the end that prompt and impartial justice be done. Such
access shall be allowed, in any event, upon terms no less

169a
favorable than those applicable to nationals and companies of such other High Contracting Party or of any third
country. It is understood that companies not engaged in
activities within the country shall enjoy the right of such
access without any requirement of registration or domestication.
3. The private settlement of disputes of a civil nature,
involving nationals and companies of either High Contracting Party, shall not be discouraged within the territories of the other High Contracting Party; and, in cases
of such settlement by arbitration, neither the alienage of
the arbitrators nor the foreign situs of the arbitration
proceedings shall of themselves be a bar to the enforceability of awards duly resulting therefrom.
Article IV
1. Each High Contracting Party shall at all times accord fair and equitable treatment to nationals and companies of the other High Contracting Party, and to their
property and enterprises; shall refrain from applying unreasonable or discriminatory measures that would impair
their legally acquired rights and interests; and shall assure that their lawful contractual rights are afforded effective means of enforcement, in conformity with the applicable laws.
2. Property of nationals and companies of either High
Contracting Party, including interests in property, shall
receive the most constant protection and security within
the territories of the other High Contracting Party, in no
case less than that required by international law. Such
property shall not be taken except for a public purpose,
nor shall it be taken without the prompt payment of just
compensation. Such compensation shall be in an effectively realizable form and shall represent the full equivalent of the property taken; and adequate provision shall

170a
have been made at or prior to the time of taking for the
determination and payment thereof.
3. The dwellings, offices, warehouses, factories and
other premises of nationals and companies of either High
Contracting Party located within the territories of the
other High Contracting Party shall not be subject to entry or molestation without just cause. Official searches
and examinations of such premises and their contents,
shall be made only according to law and with careful regard for the convenience of the occupants and the conduct of business.
4. Enterprises which nationals and companies of either High Contracting Party are permitted to establish
or acquire, within the territories of the other High Contracting Party, shall be permitted freely to conduct their
activities therein, upon terms no less favorable than other enterprises of whatever nationality engaged in similar
activities. Such nationals and companies shall enjoy the
right to continued control and management of such enterprises; to engage attorneys, agents, accountants and
other technical experts, executive personnel, interpreters
and other specialized employees of their choice; and to do
all other things necessary or incidental to the effective
conduct of their affairs.
* * * * *
Article XXI
1. Each High Contracting Party shall accord sympathetic consideration to, and shall afford adequate opportunity for consultation regarding, such representations as
the other High Contracting Party may make with respect
to any matter affecting the operation of the present Treaty.
2. Any dispute between the High Contracting Parties
as to the interpretation or application of the present

171a
Treaty, not satisfactorily adjusted by diplomacy, shall be
submitted to the International Court of Justice, unless
the High Contracting Parties agree to settlement by
some other pacific means.
* * * * *
Article XXIII
1. The present Treaty shall be ratified, and the ratifications thereof shall be exchanged at Tehran as soon as
possible.
2. The present Treaty shall enter into force one
month after the day of exchange of ratifications. It shall
remain in force for ten years and shall continue in force
thereafter until terminated as provided herein.
3. Either High Contracting Party may, by giving one
year’s written notice to the other High Contracting Party, terminate the present Treaty at the end of the initial
ten-year period or at any time thereafter.
* * * * *

